This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.




                     REPORT OF INVESTIGATION
 UNITED STATES SECURITIES AND EXCHANGE COMMISSION
            OFFICE OF INSPECTOR GENERAL


                                       Case No. OIG-553


           Improper Actions Relating to the Leasing of Office Space




                                           May 16,2011
       REDACTION KEY


AC = 	 Attorney-Client Privilege
       Protected by FOIA Exemption (b)(5)

DP = 	 Deliberative Process Privilege
       Protected by FOIA Exemption (b)(5)

PII =	 Personal Identifying Information
       Protected by FOIA Exemptions (b)(6) & (b)(7)(C)
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



                                               Table of Contents


INTRODUCTION .............................................................................................................. 1 


EXECUTIVE SUMMARY ................................................................................................ 2 


SCOPE OF THE OIG INVESTIGATION ....................................................................... 11 


    I.      Review ofE-mails .............................................................................................. ll 


    II.     Document Requests and Review of Records ..................................................... 11 


    III.    Testimony and Interviews .................................................................................. 12 


RELEVANT STATUTES, RULES AND REGULATIONS ........................................... 15 


RESULTS OF THE INVESTIGATION .......................................................................... 19 

    I.      Background: The SEC's Leasing and Space Management Programs
             Have Had a Troubled History .......................................................................... 19
    II.     In May 2010, OAS Began Planning to Lease Approximately 300,000
             Additional Square Feet for SEC Headquarters Based on the SEC's FY
             2012 Appropriation Request ............................................................................ 24

    III.    In June 2010, OAS Briefed the Chairman on its Expansion Plan for SEC
             Headquarters and Was Asked to Reassess the Need for Additional
              Space at SEC Headquarters in Light of the Chairman's Focus on
             Growth in the Regional Offices ....................................................................... 29

    IV.     In July 2010, OAS Grossly Overestimated the Amount of Space Needed
             at SEC Headquarters for the SEC's Projected Expansion ............................... 31
            A.    OAS Employed a 400 Square Foot Per-Position Standard in its
                  Determination that SEC Headquarters Needed to Lease
                  Approximately 900,000 Square Feet.. ......................................................... 32
            B. Based on the Most Optimistic Projections from OFM, SEC
               Headquarters Needed Space to Accommodate 886 New Positions ............ 35
            C. OAS Inflated its Calculation ofthe SEC's Need for Additional
               Space by Overestimating the Projected Growth at SEC Headquarters
               by Approximately 300 Percent.. .................................................................. 38
                   1.   OAS inflated its calculation ofthe need for additional space at
                        SEC Headquarters by including positions in its growth
                        projections that were allocated to the SEC's regional offices .............. 38
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



                  2. 	 OAS inflated its calculation of the need for additional space at 

                       SEC Headquarters by unnecessarily including an estimate of 

                       contractors in its growth projections and then overestimating the 

                       number of those positions by 200 percent.. .......................................... 45 

                   3. 	 OAS inflated its calculation of the need for additional space at 

                        SEC Headquarters by unnecessarily including an estimate of 

                        interns and temporary staff in its growth projections and then 

                        overestimating the number of those positions by approximately 

                        300 percent. .......................................................................................... 49 

                  4. 	 OAS inflated its calculation of the need for additional space at 

                       SEC Headquarters by unnecessarily adding an "inventory" 

                       factor to its calculations and then doubling its own standard for 

                       that factor ............................................................................................. 50 

                  5. 	 OAS inflated its calculation ofthe need for additional space at 

                       SEC Headquarters by arbitrarily adding positions for FY 2013 

                       to its growth projections ....................................................................... 51 

            D. 	 OFM's Growth Projections Supported a Need to Lease Only 

                 Approximately 300,000 Square FeeL......................................................... 53 

            E. 	 The Executive Director Used OAS's Grossly Inflated Estimate as 

                 the Basis for His Representation to the Chairman that Constitution 

                 Center was the Only Building that Could Accommodate the SEC's 

                 Projected Growth ......................................................................................... 55 

            F. 	 Contrary to Representations Made in the Meeting With the 

                 Chairman, There Was No Urgency to Lease Space Sufficient to 

                 Accommodate the SEC's Projected Growth ............................................... 58 

            G. 	 The SEC Signed an "Un-Negotiated" Contract for 900,000 Square 

                 Feet at Constitution Center Five Days after Receiving the 

                 Chairman's Approval ................................ :................................................. 62 

   V. 	     The SEC's Constitution Center Contract May Not Adequately Establish 

             the SEC's Limitation of Liability..................................................................... 66 


   VI. 	 The Justification and Approval for the Constitution Center Sole-Source 

          Contract was Inadequate and was Backdated by One Month .......................... 67 


   VII. 	 There is Significant Uncertainty Among the SEC Staff Regarding 

           Important Requirements in Connection with Government Leasing ................ 74 


           A. 	 OMB Notification ....................................................................................... 74 

            B. 	 The Antideficiency Act ............................................................................... 77 

   VIII. In October 2010, Merely Three Months After Signing the Constitution 

          Center Letter Contract, the SEC Realized that it Could Not Use the 

          Space ................................................................................................................. 82 


                                                                11
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



    IX. 	 A "Rigid" and "Closed" Atmosphere within OAS Where Senior
           Management is Surrounded by "Yes Men" May Have Contributed to
           the Irresponsible Decisions Made with Respect to the Constitution
           Center Lease ..................................................................................................... 85

COl'.JCLUSIOl'.J ................................................................................................................. 89 





                                                                 111
This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.




                            REPORT OF INVESTIGATION

 UNITED STATES SECURITIES AND EXCHANGE COMMISSION
                        OFFICF, OF INSPF,CTOR GF,NF,R_AT,


          Improper Actions Relating to the Leasing of Office Space

                                         Case No. OIG-553



                                         INTRODUCTION

        On July 28,2010, the Securities and Exchange Commission ("SEC" or
"Commission") Office of Administrative Services leased approximately 900,000 square
feet of space for a ten-year period at a newly-renovated office building at 400 Seventh
Street, SW, in Washington, DC, known as Constitution Center. The lease also included a
right of first refusal for the remaining 500,000 square feet at Constitution Center. The
SEC estimated the costs associated with leasing and occupying Constitution Center at
$556,811,589.

         In early October 2010, the SEC informed David Nassif Associates ("DNA"), the
owner of Constitution Center, that it did not need approximately 600,000 of the 900,000
square feet it had leased, nor the 500,000 square feet that had been subject to the right of
first refusal. In January 2011, DNA signed leases with two other agencies for
approximately 558,000 square feet ofthe space that the SEC had leased. In March 2011,
the SEC informed DNA that it was trying to sub-lease the remaining 342,000 square feet
covered by its lease. To date, the SEC has not been successful in sub-leasing the
remaining space, although efforts are continuing. The SEC and DNA are currently in a
dispute regarding the SEC's obligation to compensate DNA for damages allegedly
caused by the SEC's actions. DNA has asserted damages of$93,979,493. The SEC
denies that any damages are owed.

        In October and November 2010, the SEC Office ofInspector General ("OIG")
received several written complaints regarding the SEC's actions related to Constitution
Center. These complaints alleged that the decision to lease Constitution Center had been
ill-conceived, was the result of poor management practices, and was made without
Congressional funding for the significant projected growth necessary to support the
decision. On November 16,2010, the OIG opened this investigation into those
allegations.
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



                                    EXECUTIVE SUMMARY

        The OIG investigation found that the circumstances surrounding the SEC's
entering into a lease contract with David Nassif Associates ("DNA") for 900,000 square
feet of space at the Constitution Center facility in July 2010 represents another in a long
history of missteps and misguided leasing decisions made by the SEC since it was
granted independent leasing authority by Congress in 1990. We found that
notwithstanding this significant authority, the SEC had not even established a Leasing
Branch until April 2009 and did not put into place leasing policies and procedures until
August 2010.

        The OIG investigation further found that based upon estimates of increased
funding primarily to meet the requirements ofthe Dodd-Frank: Wall Street Reform and
Consumer Protection Act ("Dodd-Frank"), between June and July of2010, the SEC
Office of Administrative Services ("OAS") conducted a deeply flawed and unsound
analysis to justify the need for the SEC to lease 900,000 square feet of space at the
Constitution Center facility. We found that OAS grossly overestimated the amount of
space needed at SEC Headquarters for the SEC's projected expansion by more than 300
percent and used these groundless and unsupportable figures to justify the SEC
committing to an expenditure of $556,811 ,589 over 10 years.

        The OIG investigation also found that OAS prepared a faulty Justification and
Approval to support entering into the lease contract for the Constitution Center facility
without competition. This Justification and Approval was prepared after the SEC had
already signed the contract to lease the Constitution Center facility. Further, OAS
backdated the Justification and Approval, thereby creating the false impression that it had
been prepared only a few days after they entered into the lease contract. In actuality, the
Justification and Approval was not finalized until a month later.

        A brief summary of our findings is set forth as follows. In 1990, Congress
provided the SEC with independent leasing authority, which exempted the SEC from
General Services Administration ("GSA") regulations and directives. 15 U.S.C.
§ 78d(b)(3). The House Conference Report for this legislation expressed its clear
intention that "the authority granted the Commission to lease its own office space directly
will be exercised vigorously by the Commission to achieve actual cost savings and to
increase the Commission's productivity and efficiency." H.R. Conf. Rep. 101-924.

        Since being granted independent leasing authority, there have been several
expensive missteps related to the SEC's leasing actions and management of its space. In
May 2005, the SEC disclosed to a House Subcommittee that it had identified unbudgeted
costs of approximately $48 million attributable to misestimates and omissions of costs
associated with the construction of its headquarters facilities near Union Station, known
as Station Place One and Two. In 2007, merely a year after moving into its new
headquarters, the SEC embarked on a major "restacking" project in which various SEC
employees were shuffled to different office spaces at a cost of over $3 million. An OIG

                                                    2

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



audit of the project found that there was no record of a cost-benefit analysis having been
conducted before implementing this restacking project. An OIG survey found that an
overwhelming majority of Commission staff affected had been satisfied with the location
of their workspace before the restacking project was initiated, and did not believe the
restacking project benefits were worth the cost and time of construction, packing,
moving, and unpacking.

        The OIG investigation further found that as a result of a beliefthat the SEC would
receive significant increases to its appropriation in Fiscal Year ("FY") 2011, FY 2012,
and FY 2013, OAS made grandiose plans to lease an upscale facility at Constitution
Center. On May 14, 2010, the SEC submitted an authorization request to the Chairman
of the United States Senate Committee on Banking, Housing, and Urban Affairs,
requesting $1.507 billion for FY 2012 in order to fund an increase of800 new staff
positions. On May 20, 2010, the United States Senate passed a version of the financial
regulatory reform bill that eventually became Dodd-Frank (the U.S. House of
Representatives had passed a version of the legislation on December 11,2009). The SEC
estimated that it would need to add another 800 positions in FY 2011 and FY 2012 to
implement Dodd-Frank. After the reconciliation process between the two versions ofthe
financial regulatory reform bills, Dodd-Frank became law on July 21,2010. Dodd-Frank
authorized an increase in the agency's budget from the $1.11 billion appropriated in FY
2010 to $1.3 billion in FY 2011, $1.5 billion in FY 2012, and $2.25 billion by FY 2015.

        Authorization of funding for an executive agency like the SEC does not guarantee
that the agency will be appropriated the funds. An authorization request is the first step
in the SEC's lengthy budget process. An authorization request is submitted to Congress
in May ofthe fiscal year two years prior to the fiscal year for which the authorization is
requested (e.g., the FY 2012 authorization request takes place in May 2010). The
following September, several months after the authorization request is made, the SEC
submits a proposed budget request to OMB. In November, the next step of the budget
request process takes place: OMB replies to the SEC with a "pass-back," and the SEC
and OMB then usually negotiate the amount of the budget request. Several months later,
the President formally submits a budget proposal to Congress. Once the President makes
the budget request to Congress, Congress then begins the decision-making process as to
how much money to appropriate the SEC and other agencies. SEC employees
interviewed in connection with this investigation acknowledged that an authorization may
indicate an intention for Congress to provide funding, but circumstances frequently
change and, therefore, federal agencies understand that until the money is appropriated,
they cannot count on that money coming to them.

       Notwithstanding the uncertainty of actually being appropriated the amount
requested through this process, in May 2010, OAS began planning for an expansion at
SEC Headquarters based on the agency's FY 2012 budget request. Initially, the SEC's
Associate Executive Director of OAS, Sharon Sheehan, and the former Chief of the



                                                    3

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.


                      OAS Supv. 5  l
Leasing Branch,                      decided that the agency needed to lease approximately
300,0           re feet of space to accommodate the SEC's needsthroughFY 2012. In May
2010, OAS
      5
          Supv.
                 plan was to solicit offers from three properties within walking distance of
Station Place to meet its space needs. However, on June 2,2010, OAS    Supv. 5 received an e­

mail from the real estate broker for a facility at Constitution Center, on 7ili and D Street,
SW, approximately two miles from the SEC's Station Place facility near Union Station,
regarding its availability and some of its features.

        The 1.4 million square foot Constitution Center had just been renovated in "one of
the largest office redevelopment projects in Washington, DC." One of the more
attractive features ofthe Constitution Center facility was its 5,000 square foot lobby with
spacious accommodations for a guard desk(s), security screening room, shuttle elevator
lobby, and display space, and which included Jerusalem limestone floors and marble
walls, wood and metal paneling, decorative light and a floor-to-ceiling glass wall facing
the landscaped courtyard. The facility promised abundant daylighting, panoramic views
of the city and surrounding region and an open plaza area of the existing building that had
been transformed into a one acre private garden.

        Almost immediately after being contacted by the broker for Constitution Center,
OAS decided to expand the delineated locality of consideration in order to add
Constitution Center to the other three buildings that would be included in the solicitation
for offers for approximately 300,000 square feet.

         On June 17,2010, OAS and the Executive Director briefed Chairman Mary
Schapiro on its immediate expansion plans at SEC Headquarters. At that briefing, OAS  Supv. 5

told the Chairman that the SEC needed to immediately lease 280,000 to 315,000 square
feet in Washington, DC and identified on a map specific locations for that expansion,
including Constitution Center. Both Chairman Schapiro and her former Deputy Chief of
Staff, Kayla Gillan, recalled the Chairman expressing a clear preference for the locations
that were within walking distance of Station Place as opposed to Constitution Center.
Chairman Schapiro also questioned whether the SEC needed 300,000 additional square
feet in light of the fact that she believed the SEC should concentrate its growth in the
regional offices.

        However, the OIG investigation found that notwithstanding Chairman Schapiro's
expressions in mid June of her preference for a facility closer to Station Place and her
questioning of why the SEC needed as much as 300,000 square feet of space, by mid
July, the Executive Director came back to the Chairman with an urgent recommendation
that the SEC immediately lease 900,000 square feet of space with the only available
option being the Constitution Center facility. The OIG investigation found that the
analysis that OAS performed to justify the need for three times its original estimate of
necessary square footage, and its determination that the Constitution Center facility was
the only available option, was deeply flawed and based on unfounded and unsupportable

                                                  OAS
I   During the course of the ~IG's investigation, Supv. 5 retired from the SEC.

                                                         4
This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



projections. We found that OAS grossly overestimated the amount of space needed at
SEC Headquarters for the SEC's projected expansion.

        The oro investigation found that OAS assumed all of the new positions in the
SEC's Office of Financial Management's ("OFM") projections for FY 2011 and FY 2012
would be allocated to SEC Headquarters and none of those new positions would be
allocated to the SEC's regional offices. This assumption was contrary to the Chairman's
position communicated to OAS at the June 17, 2010 meeting that as much as possible of
the SEC's future growth should occur in the regional offices, not SEC Headquarters. We
found that although there were discussions about the need for a calculation of the number
of positions being allocated to the regions, none was ever conducted. Sheehan
acknowledged that assuming that all ofthe new positions would be in SEC Headquarters
would "inflate the number."

        We also found that OAS conducted its analysis of the SEC's space needs by
factoring in a standard of 400 square feet per person when calculating how much space
would be needed for the additional positions it believed it was gaining as a result of
Dodd-Frank and associated increa            the SEC's budget. A Realty Specialist in OAS
explained to the oro that she and OAS
                                    Supv. 5 developed the standard by dividing the square

footage of existing office space by the number of people the SEC had authority to hire for
the offices in that space at Headquarters and several of the SEC's regional offices. The
Realty Specialist described the standard as a "WA~" (wild-ass guess) and a "back of the
envelope" calculation, and she stated in her oro testimony that "we didn't do this
scientifically." ~AS's 400 square feet per-person standard was an "all-inclusive number"
that included common spaces and amenities. It included an additional 10 percent for
contractors, 10 percent for interns and temporary staff, and five percent for future growth.
Notwithstanding this "all-inclusive" number, we found that when OAS later did its
calculations to justify the Constitution Center lease, it added even more unnecessary
space by double-counting for contractors, interns and temporary staff as well as future
growth into the projections of space needed. We also found that each one of these
estimates was wildly inflated and unsupported by the data OAS was using.

            The oro investigation found that the OAS inflated its estimate of new positions
 that would need space by including an estimate ofthe number of contractors that would
 be hired in addition to the number of SEC employees. That estimate was prepared by
OAS Supv. 4
                , OAS Assistant Director for Real Property Operations. rn early-June 2010,
 Sheehan asked the OAS OAS Supv. 2            Space Management & Mail Operations to
 obtain information about the number of contractors in the agency. On June 12, 2010, the
OAS Supv. 2
                  reported back, "Right now, based on the Contractor numbers I have at
 [Station Place], r can justify us using a 10%, Contractor to Position, factor." The OAS Supv. 2
         later learned tha       needed the numbers to be larger. He testified regarding his
                           OAS
 understanding of why Supv. 5 needed the number to be larger, "what r understand she was
 trying to do was to make sure that whatever size lease she entered into was enough to
 meet our needs. And I think that in this case, if we were going to take the whole
 building, the numbers needed to be larger." Ultimately, OAS ignored the data that had

                                                    5
This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



been gathered during the first two weeks of June 2010 that indicated the correct
contractor ratio was 10 percent and inflated their calculation of space by adding
contractors using a completely arbitrary 20 percent ratio.

        In addition, we found that the OAS estimate of new positions that would need
space included an estimate of the number of interns and temporary staff that would be
hired in addition to employees. The OAS estimate of interns and temporary staff
assumed a ratio of 16.5 percent (nine percent for interns and 7.5 percent for temporary
staff). However, the OIG found that ~AS's estimate of interns and temporary staff
positions was significantly higher than the estimate in the data it received. On July 16,
2010, a management program analyst in the SEC's Office of Human Resources provided
OAS with "the [peak] numbers [for interns and temporary staff]" which ranged from
approximately four to seven percent for the six fiscal years of data that she analyzed.

       Further, the OIG investigation found that ~AS's calculations increased the
amount of space required for every person to be hired in FY 2011 and FY 2012 by 10
percent for "inventory" representing "vacant offices you have for expansion and
unanticipated growth, that kind ofthing." However, as was the case with the contractors,
temporary staff and interns, the 400 square foot standard itself had already incorporated
an inventory factor into the calculation. Moreover, the 10 percent inventory factor added
was double the five percent factor previously determined to be appropriate.

        We also found that the OAS estimate of new positions that would need space
included an assumption not only about FY 2011 and FY 2012 but also that in FY 2013,
the SEC's appropriation would increase by 50 percent of the agency's FY 2012 budget
request. We found that the assumption of 50 percent growth in 2013 was arbitrary and
unsupported. Based on the FY 2013 assumption, OAS projected that the SEC would add
another 295 positions in that year and again assumed that all of those positions would be
allocated to SEC Headquarters. We found that this estimate was not based upon any firm
numbers or projections and was contrary to the SEC's planning and budget process,
which does not project growth more than two years into the future.

        The OIG investigation found that OAS used the above-described overinflated
estimates to calculate a space need of 934,000 square feet. On Friday, July 23, 2010,
Executive Director Diego Ruiz met with Chairman Schapiro, Chief of Staff Didem
Nisanci, and then-Deputy Chief of Staff Gillan to recommend that the SEC lease 900,000
square feet of space at Constitution Center. Gillan recalled the July 23, 2010 meeting
with Ruiz, and that Ruiz had come to her "and said that he needed to see Mary [Schapiro]
quickly because he needed to make a quick decision on Constitution Center. That the
other possible space opportunities had evaporated,gone to others, were no longer
available. And that this one was really all that was left and that we needed to act
quickly."




                                                    6

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



        Chairman Schapiro testified regarding the July 23, 2010 meeting with Ruiz:

                 I remember explicitly being told there really wasn't any
                 other space available that could fulfill our needs and that
                 there was a time - a sense of we were about to lose this.
                 We had lost other space that we had apparently indicated an
                 interest in and that we were about to lose this. So there was
                 a sense of urgency on their part.

        Gillan testified that Ruiz did not explain in the July 23,2010 meeting, or at any
other time, that the assertion that SEC Headquarters needed an additional 900,000 square
feet was predicated, in part, on the assumption that all of the agency's new positions in
FY 2011 and FY 2012 would be allocated to SEC Headquarters. Gillan testified that,
"[I]n fact, that's inconsistent with what I had understood, because ... [Chairman
Schapiro] specifically said that, to the extent possible, she wanted new hires to go to the
regions." Gillan also testified that Ruiz did not explain in the July 23,2010 meeting, or
at any other time, that the assertion that SEC Headquarters needed an additional 900,000
square feet was predicated, in part, on OAS's projections of significant growth in FY
2013.
                                                                    OAS Supv. 4    OAS
        On July 23,2010, Ruiz sent an e-mail to Sheehan,           and Supv. 5 stating, "Met
with Chairman this morning, and we have her approval to move forward." The OIG
investigation found that the SEC negotiated the contract for 900,000 square feet at
Constitution Center in three business days, signing the contract on July 28,2010. On
July 27,2010, the SEC staff involved in that negotiation discussed the fact that they had
"no bargaining power" because "Sharon [Sheehan] wants this signed tomorrow."
Internal e-mails show that OAS feared losing the building to the National Aeronautics
and Space Administration, which had also expressed an interest in the facility.

        On July 28, 2010, the SEC executed the letter contract committing the SEC to
lease approximately 900,000 square feet of space at Constitution Center. The contract
set a multiphase delivery schedule, in which Phase 1, approximately 350,000 square feet,
would be delivered no later than September 2011, and Phase 2, approximately 550,000
square feet, would be delivered no later than September 2012. The contract stated that
"the SEC's interests require that [DNA] be given a binding commitment so that the space
required will be committed to the SEC and initial build out for the Phase 1 space can
commence immediately ... " The lease term in the contract was ten years. OASSupv. 5

estimated the costs associated with leasing and occupying Constitution Center would be
$556,811,589.

        The Letter Contract also granted the SEC the right of first refusal for the
remaining approximately 500,000 square feet of space at Constitution Center until
December 15, 2010. If the SEC had exercised this option, it would have leased the entire
1,400,000 square feet of space at Constitution Center. OASSupv. 5 testified that OAS wanted a

right of first refusal on all of the remaining space at Constitution Center "because the

                                                    7
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



Congress was throwing money at us" and "Sharon [Sheehan] was always hoping that we
wouldn't have anybody else in the building. That we would be able to ultimately justify
the need for the whole building or something."

       After the SEC committed itself to the ten year lease term at a cost of
$556,811,589, it prepared a Justification and Approval for Other than Full and Open
Competition, which is required by the Federal Acquisition Regulation ("FAR") when an
agency decides not to allow for full and open competition on a procurement or lease. The
FAR permits other than full and open competition only "when the agency's need for the
supplies or services is of such an unusual and compelling urgency that the Government
would be seriously injured unless the agency is permitted to limit the number of sources
from which it solicits bids or proposals." 48 C.F.R. § 6.3202-2 (emphasis added).

       The OIG investigation found that the Justification and Approval to lease space at
Constitution Center without competition was inadequate, not properly reviewed, and
backdated. The Justification and Approval provided as follows:

                 To fulfill these new responsibilities it is necessary to
                 significantly increase full-time staff and supporting
                 contractors by approximately 2,335 personnel to be located
                 at the SEC's headquarters in Washington, DC. However,
                 the SEC's current headquarters is full. Accordingly the
                 SEC has a requirement of an unusual and compelling
                 urgency to obtain approximately 900,000 rentable square
                 feet (r.s.f.) of additional headquarters space in the
                 Washington, D.C. Central Business District, as this is the
                 amount of space required to accommodate the
                 approximately 2,335 new staff and contractors in
                 headquarters.

The Justification and Approval asserted that the 900,000 square feet "must be in a single
building or integrated facility to support the SEC's functional requirements and
operational efficiency."

        An OAS Management and Program Analyst signed the Justification and Approval
as the SEC's Competition Advocate. She testified that she did not take any steps to
verify that the information in the Justification and Approval was accurate, "[0 ]ther than
asking OAS Supv. 5    the contracting officer, you know, just general questions, 'Is this
indeed urgent and compelling. ,,, She further testified that when she signed the
Justification and Approval, she was not aware that funding for that projected growth had
not been appropriated. She also did not have an understanding of when the projected
2,335 personnel were expected to be hired. Further, she acknowledged in testimony that
the SEC would in fact not be "seriously injured" if it lost the opportunity to rent one
contiguous building and had to rent multiple buildings to fill its space needs.


                                                    8
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



        The FAR also requires that a Justification and Approval for Other than Full and
Open Competition be posted publicly "within 30 days after contract award." The Letter
Contract was signed on July 28,2010. Accordingly, the deadline for publication of the
Justification and Approval was August 27,2010. On September 3,2010, the SEC
publicly posted the Justification and Approval on the Federal Business Opportunities
website. The document was signed by four individuals with all four signatures dated
August 2, 2010.

         However, the OIG investigation found that the Justification and Approval was not
finalized until September 2,2010, and substantial revisions were being made up to that
date. We found that three of the four signatories executed the signature page on August
2, 2010, before a draft even remotely close to the final version existed. The OIG found
that the SEC's Competition Advocate executed the signature page on August 31, 2010,
initially backdated her signature to August 27, 2010, but subsequently whited-out the "7"
on the date to make it appear that she also had signed the document on August 2,2010.
The actions of the signatories to the Justification and Approval gave the public the false
impression that the document was finalized a few days after the Letter Contract was
signed, and there was only a delay in its publication.

        The OIG investigation also found that there is significant uncertainty among the
SEC staff regarding important requirements in connection with government leasing and
serious questions as to whether the SEC complied with several requirements in
connection with its leasing of Constitution Center. Appendix B of the United States
Office of Management and Budget ("OMB") Circular No. A-II states that "Agencies are
required to submit to OMB representatives the following types ofleasing and other non­
routine financing proposals for review of the scoring impact: Any proposed lease of a
capital asset where total Government payments over the full term of the lease would
exceed $50 million." Although the evidence shows the SEC initially contemplated
providing OMB with the written notification and senior Agency officials believed that
OMB had been formally notified, no written notification was provided.

         In addition, there is a possibility that the SEC violated the Antideficiency Act in
connection with its lease of Constitution Center. The Antideficiency Act prohibits
officers or employees of the government from involving the government "in a contract or
obligation for the payment of money before an appropriation is made unless authorized
by law." 31 U.S.C. § 1341(a)(I)(B). The incurring of an obligation in excess or advance
of appropriations violates the Act. Notwithstanding its July 28, 2010 commitment to a
10-year lease at Constitution Center, the SEC did not obligate the entire amount of rent
payments due under the lease. Although the SEC has been granted independent leasing
authority statutorily and is generally granted authority to enter into multiyear leases in its
annual appropriations, the U.S. Government Accountability Office ("GAO") has found
that "[t]he existence of multiyear leasing authority by itself does not necessarily tell you
how to record obligations under a lease." GAO has distinguished agencies such as the
GSA with "specific statutory direction" to obligate funds for multiyear leases one year at
a time, from agencies such as the Federal Emergency Management Agency ("FEMA")

                                                    9

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



which do not have such explicit direction. Because the SEC, like FEMA, does not have
specific statutory direction to obligate funds for its multiyear leases on an annual basis,
its lease obligations may have to be obligated in their entirety at the time they are
incurred, and the SEC thus may have violated the Antideficiency Act in connection with
its commitment to lease space at Constitution Center.

       In early October 2010, the SEC informed DNA that it could not use
approximately 600,000 of the 900,000 square feet of space it had contracted for at
Constitution Center and asked for DNA's assistance in finding other tenants for that
space. In November 2010, DNA began negotiations with the Federal Housing Finance
Agency ("FHFA") and the Office of the Comptroller of the Currency ("OCC") to lease
portions of Constitution Center. In January of 20 11, OCC and FHFA entered into
contracts for space at Constitution Center, leaving approximately 350,000 square feet to
which the SEC remains committed. The SEC now hopes to sublease even the remaining
350,000 square feet. On January 18,2011, DNA's counsel sent a demand letter to the
SEC asserting that the SEC's actions had caused DNA to incur $93,979,493 in costs at
Constitution Center.

         The OIG investigation further found that a "closed" and "rigid" atmosphere
within OAS may have contributed to the irresponsible decisions made with respect to the
Constitution Center Lease. In the course of this OIG investigation, several witnesses who
sought to remain anonymous came forward to the bIG to provide information concerning
the environment and the decision-making processes within OAS. These witnesses
described an environment in which inexperienced senior management make unwise
decisions without any input from employees with significant knowledge and experience.
We found that questioning of upper management decisions by the staff is "not allowed"
and that OAS Associate Executive Director Sheehan surrounds herself with "yes-men"
and "does not want to hear what [experienced staff] will tell her." These individuals
testified that upon learning of the SEC's decision to lease 900,000 square feet of space at
Constitution Center, they "just couldn't understand how they could justify that amount of
space ... " and were "flabbergasted" by the decisions. One experienced employee
testified that OAS management had "grandiose plans" and was significantly influenced
by the upscale nature of the facility.

            The OIG is recommending that the newly appointed Chief Operating
Officer/Executive Director carefully review the report's findings and conduct a thorough
and comprehensive review and assessment of all matters currently under the purview of
~AS. We further recommend that the Chief Operating Officer/Executive Director, upon
conclusion of such review and assessment, determine the appropriate disciplinary and/or
performance-based action to be taken for matters that are discussed in this report of
investigation as well as other issues identified during the review and assessment,
including, at a minimum, consideration of disciplinary action against Sharon Sheehan and
OAS Supv. 4
                , up to and including dismissal, and consideration of disciplinary action
against the Competition Advocate, for their actions in connection with the gross
overestimation of the amount of space needed at SEC Headquarters for the SEC's

                                                   10
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



projected expansion, failures to provide complete and accurate infonnation to the
Chainnan's office, and the preparation of a faulty and back-dated Justification and
Approval to support eliminating competition.

        Finally, we recommend that the Office of Financial Management, in consultation
with the Office of General Counsel, request a fonnal opinion from the Comptroller
General as to whether the Commission violated the Antideficiency Act by failing to
obligate appropriate funds for the Constitution Center lease.


                          SCOPE OF THE OIG INVESTIGATION

    I.       Review of E-mails

        The OIG made numerous requests to the SEC's Office of Infonnation Technology
("OIT") for the e-mails of current and fonner SEC employees for various periods oftime
pertinent to the investigation. The e-mails were received, loaded onto computers with
specialized search tools and searched on a continuous basis throughout the course of the
investigation.

        In all, the OIG received from OIT e-mails for a total of27 current or fonner SEC
employees for the time period pertinent to the investigation. These included: 19
employees ofOAS, three employees of the Office of Financial Management, two Office
of the General Counsel employees, two employees of the Office of the Chainnan, and
one employee of the Office of the Executive Director. The OIG estimates that it obtained
and searched over 1.5 million e-mails during the course of its investigation.

    II.      Document Requests and Review of Records

        The OIG made several requests to OAS for documents relating to its leasing
practices. The OIG had numerous e-mail and telephonic communications with OAS
regarding the scope and timing of the document requests and responses. We carefully
reviewed and analyzed the infonnation received as a result of our document production
requests. These documents included, but were not limited to, those relating to the
Constitution Center lease, planning infonnation for the lease, documents concerning
approval of the lease by parties within or outside the SEC, documents concerning
approval of funding for the lease by parties within and outside of the SEC, documents
relating to the leasing of office space in Station Place Three, documents relating to the
availability of space in Station Place Three, and documents relating to analyses of current
and future SEC staff size.




                                                   11 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



    III.         Testimony and Interviews

         The OIG took the sworn testimony of 18 witnesses and interviewed 11 other
individuals with knowledge of facts or circumstances surrounding the SEC's leasing
activities.

        The OIG conducted testimony on-the-record and under oath of the following 18
indi viduals:

           OAS Supv. 4
    1.                 , Assistant Director, Office of Real Property Operations, Office of
           Administrative Services, Securities and Exchange Commission; taken on January
           28,2011 ("January 28,2011 OAS   4
                                              Supv.
                                                    Testimony Tr.") and March 29,2011
                             OAS Supv. 4
           ("March 29,2011               Testimony Tr."). Excerpts oftestimony transcripts are
           attached as Exhibits 1 and 2, respectively.
           OAS Supv. 5
    2.                     Chief, Leasing Branch, Office of Administrative Services,
           Securities and Exchange Commission; taken on January 31, 2011 ("January 31,
           2011 OAS
                 Supv. 5 Testimony Tr.") and March 29, 2011 ("March 29,2011 5
                                                                               OAS Supv.


           Testimony Tr."). Excerpts oftestimony transcripts are attached as Exhibits 3 and
           4, respectively.
         OFM Supv.
    3.                                         Planning and Budget Office, Office of Financial
           Management, Securities and Exchange Commission; taken on February 2,2011
           (" OFM Supv. Testimony Tr."). Excerpts of testimony transcript are attached as
           Exhibit 5.

    4. Sharon Sheehan, Associate Executive Director, Office of Administrative Services,
       Securities and Exchange Commission; taken on February 8, 2011 ("February 8,
       2011 Sheehan Testimony Tr.") and March 29, 2011 ("March 29, 2011 Sheehan
       Testimony Tr."). Excerpts oftestimony transcripts are attached as Exhibits 6 and
       7, respectively.
           OAS Empl. 1
    5.                         Program and Management Analyst, Office of Administrative
           Services, Securities and Exchange Commission; taken on February 17, 2011
           (" OAS Empl. 1 Testimony Tr."). Excerpts oftestimony transcript are attached as
           Exhibit 8.
           OFM Empl.
    6.                         Management Analyst, Office of Financial Management,
           Securities and Exchange Commission; taken on March 4,2011 ("OFM Empl.
           Testimony Tr."). Excerpts of testimony transcript are attached as Exhibit 9.

    7. Kenneth Johnson, Chief Financial Officer, Office of Financial Management,
       Securities and Exchange Commission; taken on March 7,2011 ("Johnson
       Testimony Tr."). Excerpts of testimony transcript are attached as Exhibit 10.


                                                    12
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



     8. Diego Ruiz, Executive Director, Office ofthe Executive Director, Securities and
        Exchange Commission; taken on March 9,2011 ("Ruiz Testimony Tr.").
        Excerpts of testimony transcript are attached as Exhibit 11.

     9. Unidentified Program Manager,2 Office of Administrative Services, Securities
        and Exchange Commission; taken on March 16,2011 ("Unidentified Program
        Manager Testimony Tr."). Excerpts oftestimony transcript are attached as
        Exhibit 12.

     10. Unidentified Employee 1, 3 Office of Administrative Services, Securities and
         Exchange Commission; taken on March 16,2011 ("Unidentified Employee 1
         Testimony Tr."). Excerpts of testimony transcript are attached as Exhibit 13 ..

     11. Unidentified Employee 2,4 Office of Administrative Services, Securities and
         Exchange Commission; taken on March 16,2011 ("Unidentified Employee 2
         Testimony Tr."). Excerpts of testimony transcript are attached as Exhibit 14.

     12.OGC Atty 1                                 Office of the General Counsel,
         Securities and Exchange Commission; taken on March 17,2011 ("OGC Atty 1
         Testimony Tr."). Excerpts of testimony transcript are attached as Exhibit 15.

     13. OGC Atty 2   Special Trial Counsel, Office ofthe General Counsel, Securities and
         Exchange Commission; taken on March 17,2011 ("OGC Atty 2 Testimony Tr.").
         Excerpts of testimony transcript are attached as Exhibit 16.
           OAS Empl. 2
     14.                            Realty Specialist, Office of Administrative Services,
           Securities and Exchange Commission; taken on March 24,2011 OAS Empl. 2
           Testimony Tr."). Excerpts of testimony transcript are attached as Exhibit 17.
           OAS Empl. 3
     15.                  Budget Analyst, Office of Administrative Services, Securities and
           Exchange Commission; taken on March 25,2011 ("OAS Empl. 3 Testimony Tr.").
           Excerpts of testimony transcript are attached as Exhibit 18.

     16. Kayla Gillan, Deputy Chief of Staff, Office of the Chairman, Securities and
         Exchange Commission; taken on April 8, 2011 ("Gillan Testimony Tr.").
         Excerpts of testimony transcript a,re attached as Exhibit 19.

     17 OAS Supv. 2                       Space Management & Mail Operations, Office of
         Administrative Services, Securities and Exchange Commission; taken on March
         11,2011 (" OAS Supv. 2 Testimony Tr."). Excerpts oftestimony transcript are attached
         as Exhibit 20.


2   This witness asked the OIG not to be identified in the OIG's report for this investigation.
3   This witness asked the OIG not to be identified in the OIG's report for this investigation.
4   This witness asked the OIG not to be identified in the OIG's report for this investigation.

                                                      13
This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.




      18. Mary Schapiro, Chainnan, Securities and Exchange Commission; taken on March
          18, 2011 ("Schapiro Testimony Tr."). Excerpts of testimony transcript are
          attached as Exhibit 21.

       The OIG also conducted interviews of the following 11 individuals with relevant
expertise andlor knowledge of infonnation pertinent to the investigation:

      1. Timothy Jaroch, Managing Partner, David Nassif Associates; conducted on
         January 11,2011 ("Jaroch Interview Transcript") and May 6,2011 ("Jaroch
         Interview Memorandum"). Excerpts of interview transcript are attached as
         Exhibit 22; Memorandum ofInterview is attached as Exhibit 23.

     2. Anonymous Complainant;5 conducted on January 14,2011.

     3. Thomas Cafferty, Deputy-in-Charge, Docket Services, SDNY; conducted on
        February 3, 2011.

           OMB Empl. 1
     4.                     Budget Examiner, Office of Management and Budget;
           conducted on February 22,2011 ( OMB Empl. 1 Interview Memorandum").
           Memorandum ofInterview is attached as Exhibit 24.

           OMB Empl. 2
     5.                 Program Examiner, Office of Management and Budget; conducted
           on March 23, 2011.

          OHR Empl.
     6.                     Management Program Analyst, Office of Human Resources,
           Securities and Exchange Commission; conducted on April 1,2011 ( OHR Empl.
           Interview Transcript"). Excerpts of interview transcript are attached as Exhibit
           25.

     7. Unidentified Space Management Specialist,6 Office of Administrative Services,
        Securities and Exchange Commission; conducted on April 5, 2011.

     8. Daniel Dooley, Managing Director, Tishman Speyer Properties; conducted on
        April 5, 2011 ("Dooley Interview Memorandum"). Memorandum ofInterview is
        attached as Exhibit 26.

     9. Thomas Finan, Managing Director, Trammell Crow Company; conducted on
        April 18,2011 ("Finan Interview Memorandum"). Memorandum ofInterview is
        attached as Exhibit 27.




5   This witness asked the OIG not to be identified in the OIG's report for this investigation.
6   This witness asked the OIG not to be identified in the OIG's report for this investigation.

                                                       14
This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



    10. OAS Empl. 4      Realty Specialist, Office of Administrative Services, Securities
         and Exchange Commission; conducted on April 19, 2011 (" OAS Empl. 4 Interview
        Transcript"). Excerpts of interview transcript are attached as Exhibit 28.

    11. David Guin, Expert Consultant, Securities and Exchange Commission; conducted
        on April 28, 2011 ("Guin Interview Memorandum"); Memorandum of Interview
        is attached as Exhibit 29.


                RELEVANT STATUTES, RULES AND REGULATIONS


                     Government-Wide Standards of Ethical Conduct

        The Standards of Ethical Conduct for Employees of the Executive Branch, which
applies to every federal employee, states that employees "shall put forth honest effort in
the performance of their duties." 5 C.F.R. § 2635.101(b).


                                Securities Exchange Act of 1934

        "Notwithstanding any other provision oflaw, the Commission is authorized to
enter directly into leases for real property for office, meeting, storage, and other space as
necessary to carry out its functions, and shall be exempt from any General Services
Administration space management regulations or directives." 15 U.S.c. Sec. 78d.


                           Federal Acquisition Regulation ("FAR")

        FAR 6.302-2 states:

                 When the agency's need for the supplies or services is of
                 such an unusual and compelling urgency that the
                 Government would be seriously injured unless the agency
                 is permitted to limit the number of sources from which it
                 solicits bids or proposals, full and open competition need
                 not be provided for.

48 C.F.R. § 6.302-2.

        FAR Section 6.303-2 states: "Each justification shall contain sufficient facts and
rationale to justify the use of the specific authority cited. As a minimum, each
justification ... shall include ... [a] description of the supplies or services required to
meet the agency's needs (including the estimated value)." 48 C.F.R. § 6.303-2.


                                                   15
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



        FAR 6.305 states: "In the case of a contract award pennitted under 6.302-2, the
justification shall be posted within 30 days after contract award." 48 C.F.R. § 6.305.

        FAR Section 16.603-2(d) states:

                 The maximum liability of the Government inserted in the
                 clause at 52.216-24, Limitation of Government Liability,
                 shall be the estimated amount necessary to cover the
                 contractor's requirements for funds before definitization.
                 However, it shall not exceed 50 percent ofthe estimated
                 cost of the definitive contract unless approved in advance
                 by the official that authorized the letter contract.

        48 C.F.R. § 16.603-2(d).

        FAR Section 16.603-4 states: "The contracting officer shall insert the following
clauses in solicitations and contracts when a letter contract is contemplated: ... (2) The
clause at 52.216-24, Limitation of Government Liability, with dollar amounts completed
in a manner consistent with 16.603(d)." 48 C.F.R. § 16.603-4.

       FAR Section 52.216-24 sets forth the language to be included when a letter
contract is contemplated:

                  LIMITATION OF GOVERNMENT LIABILITY

                 (a) in perfonning this contract, the Contractor is not
                 authorized to make expenditures or incur obligations
                 exceeding                  dollars.

                 (b) The maximum amount for which the Government shall
                 be liable if this contract is tenninated is - - - - -
                 dollars.

48 C.F.R. § 52.216-24.


                                      The Antideficiency Act

                 An officer or employee of the United States Government
                 ... may not: (A) make or authorize an expenditure or
                 obligation exceeding an amount available in an
                 appropriation or fund for the expenditure or obligation; (b)
                 involve [the United States] government in a contract or
                 obligation for the payment of money before an
                 appropriation is made unless authorized by law.

                                                   16
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.




31 U.S.c. § 1341(a)(1)(B).

                                        OMB Circular A-ll

                 Agencies are required to submit to OMB representatives
                 the following types ofleasing and other non-routine
                 financing proposals for review of the scoring impact:

                 Any proposed lease of a capital asset where total
                 Government payments over the full term of the lease would
                 exceed $50 million. . ..

                 Agencies should submit these proposals to OMB during the
                 conceptual, developmental stage.

OMB Circular No. A-II, Appendix B, at 1-2.

                 For operating leases, budget authority is required of the
                 first year of the contract in the amount necessary to cover
                 the Government's legal obligations, consistent with the
                 requirements of the Antideficiency Act. This will include
                 the estimated total payments expected to arise under the
                 full term of the contract or, ifthe contract includes a
                 cancellation clause, an amount sufficient to cover the lease
                 payments for the first year plus an amount sufficient to
                 cover the costs associated with cancellation of the contract.

OMB Circular A-II, Appendix B, at 2.


             SEC Administrative Regulation 11-03, "SEC Leasing Program"

       "To the extent certain Federal Acquisition Regulation (FAR) provisions are
required by law or statute, the SEC will adhere to them to acquire and administer
leasehold interests in real property." SECR 11-03 at 1.

       "Leasing Branch will: consult with the OGC in the event there is uncertainty as to
whether a FAR provision applies to the leasing program; [p Jromote the competition
requirements of FAR Part 6 .... " SECR 11-03 at 6.

       "Leasing Branch will: ... Consult with the SPE and the ED to
determine whether to prepare a notification to OMB regarding a project.
General guidelines include:


                                                    17
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.




                 For ... operating leases, make OMB notifications as
                 follows:

                 If Full Time Equivalent (FTE), rent, tenant improvement
                 costs and/or design or project management fees associated
                 with increased FTE were included in the approved budget
                 for the fiscal year ofthe effective date of the lease action,
                 no notification to OMB is required.

                 IfFTE, rent, tenant improvement costs and/or design or
                 project management fees associated with increased FTE
                 were NOT included in the approved budget for the fiscal
                 year of the effective date of the lease action, notification to
                 OMB will be provided using Attachment 2, Notification of
                 Lease Action and Attachment 3, OMB Lease Action
                 Summary to OMB, and the project's leasing acquisition
                 plan will be attached.

SEeR 11-03 at 7.




                                                   18 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



                            RESULTS OF THE INVESTIGATION

    I.       Background: The SEC's Leasing and Space Management Programs
             Have Had a Troubled History

        In 1990, Congress provided the SEC with independent leasing authority, which
exempted the SEC from General Services Administration ("GSA") regulations and
directives. 15 U.S.C. § 78d(b)(3). A House Conference Report for this legislation stated
that the legislators intended that "the authority granted the Commission to lease its own
office space directly will be exercised vigorously by the Commission to achieve actual
cost savings and to increase the Commission's productivity and efficiency." H.R. Conf.
Rep. 101-924, attached as Exhibit 30.

        Since being granted independent leasing authority, there have been several
expensive missteps related to the SEC's leasing actions and management of its space.
According to the Government Accountability Office ("GAO"), in May 2005, the SEC
disclosed to a House Subcommittee that it had "identified unbudgeted costs of
approximately $48 million attributable to misestimates and omissions of budget costs
associated with the construction of [Station Place One and Two] and improvements in its
new leased facilities" in New York and Boston. 7 October 20,2005 GAO Report GAO-
06-61 R ("GAO Report"), attached as Exhibit 31, at 1.

        According to the SEC's Executive Director at that time, the SEC's underestimate
of build-out costs for Station Place was "based on assumptions related to construction
costs provided by [Office of Administrative Services ("OAS")] ... that were no longer
accurate and had increased substantially." See Exhibit 32 at 4. According to the GAO,
the primary causes of the $48 million in misestimates and omissions in the SEC's budget
submission for these real estate projects were: "(1) ineffective management controls over
budget formulation and review for these projects; (2) an inadequate administrative
infrastructure; and (3) the nature of these facilities projects." GAO Report at 2. "[T]he
SEC Chairman agreed with the conclusions and recommendations in [a draft ofthe GAO
Report]." !d. The GAO report summarized several actions that SEC management
represented had been taken to address those conclusions and recommendations, including
"Improved communication between [the SEC's Office of Financial Management
("OFM")] and OAS regarding budget formulation." !d. at 18.

       In 2006, the Commission moved into its new headquarters at Station Place. See
March 31, 2009 Review of the Commission's Restacking Project, OIG Report No. 461,
attached as Exhibit 33, at i. In 2007, the SEC embarked on a major "restacking" project
in which various SEC employees were shuffled to different office spaces at a cost of over

7  In May 2001, the SEC entered into a lease for a new Washington, DC headquarters, known as Station
Place One. July 27,2005 Testimony of James M. McConnell, SEC Executive Director, before the Senate
Subcommittee on Federal Financial Management, attached as Exhibit 32, at 4. In November 2002, the SEC
exercised its option to lease Station Place Two, a building which is attached to Station Place One. Id.


                                                    19
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



$3 million. Id. at ii-iii. The purpose ofthe restacking project was to arrange offices in a
"horizontal" manner so that the agency's divisions and offices would not be split up
across multiple floors. Id. at iii. The OIG's audit unit conducted a review of the project
and found that there were serious questions about whether the restacking project was
necessary and whether it had any meaningful impact on communication among or
productivity of the staff. !d. at iv. The OIG found that there was no record of a cost­
benefit analysis having been conducted before embarking on this restacking project. !d.
at iii. Moreover, an OIG survey of Commission staff found that only 34 percent of staff
surveyed believed that the restacking project would improve effectiveness or efficiency
oftheir office or division. !d. at iv, 13. This OIG survey also found that 89 percent of
the responding staffhad been satisfied with the location of their workspace before the
restacking project was initiated, and 81 percent of the responding staff did not believe the
restacking project benefits were worth the cost and time of construction, packing,
moving, and unpacking. Id. at 11, 15. 8

        The SEC established a Leasing Branch within OAS in April 2009, approximately
19 years after Congress granted the SEC independent leasing authority.9 OIG Report No.
484 at 1. In 2010, the OIG audited the SEC's leasing process and, on September 30,
2010, issued an audit report, Real Property Leasing Procurement Process, Report No.
484, attached as Exhibit 160. This audit found that the SEC's Leasing Branch did not
have adequate policies in place and, until very recently, had no final leasing policies.
OIG Report No. 484 at iv. The audit also found the SEC's leasing regulation,
SECR 11-03, which was approved by SEC Executive Director Diego Ruiz on August 31,
2010, to be inadequate in several respects. !d. The audit further found that OAS did not
have sufficient procedures for how leases should be managed and tracked. Id.

        The actions of the Office ofthe Executive Director and OAS with regard to
leasing space at Station Place Three, a building immediately adjacent to Station Place
Two, raised significant questions about the SEC's ability to assess and project space
needs at SEC Headquarters. The SEC's leases for Station Place One and Station Place
Two guaranteed the SEC the right of first offer for up to 300,000 rentable square feet of
space at Station Place Three. Exhibit 34 at 1. Pursuant to that contractual provision, in
December 2008, Louis Dreyfus Property Group ("LDPG"), the owner ofthe Station

8  In an October 2009 OMB Prospectus Report, the SEC's Executive Director, Diego Ruiz, claimed that
the restacking project "successfully improved communication and increased work process efficiencies,"
ignoring the OIG's report and survey results as to the wastefulness of the project. See October 16, 2009
Prospectus Report, attached as Exhibit 34, Attachment 1 at 2. The SEC hired a contractor to conduct a
second survey regarding the restacking project. See April 27, 2010 Post Restacking Survey Results,
attached as Exhibit 35. The results of this survey were largely the same as those in the OIG survey as to the
wastefulness of the restacking project. Id. Only 33 percent of managers and 36 percent of staff responding
to the second survey stated that they were better able to perform their mission after restacking. !d. at 7, 9.
9 Agencies without independent leasing authority lease office properties through the GSA. As explained
on its website, "GSA leases all types of space for most federal agencies, including offices... GSA solicits
offers on a competitive basis, negotiates with offerors, and for most acquisitions, ... makes awards to the
lowest priced acceptable offer." GSA webpage "Negotiation on Federal Leased Opportunities," attached as
Exhibit 36.

                                                     20
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



Place buildings, notified Sharon Sheehan, the Associate Executive Director in charge of
OAS,lo and OAS Supv. 5     , the former Chief of the SEC's Leasing Branch within OAS,ll
that it intended to offer Kaiser Permanente approximately 213,400 rentable square feet of
office space at Station Place Three. See December 12, 2008 Letter from Robert
Braunohler to Sharon Sheehan, attached as Exhibit 37; April 7, 2009 E-mail from Robert
Braunohler to OAS Supv. 5      attached as Exhibit 38.

        In May 2009, the SEC submitted to Congress its FY 2011 Authorization Request
for $1.24 billion dollars to fund 1,000 new positions nationwide. July 6, 2009
Memorandum from former Chief Financial Officer, Kristine Chadwick, to Division
Directors and Office Heads, attached as Exhibit 39. On June 4,2009, Sheehan sent an e­
mail to OAS
         Supv. 5 with the subject, "SEC to hire 1,000 employees over next two years" and

stated, "We need to get on [Executive Director Diego Ruiz's]l2 calendar to explain the
impact and need to plan." June 4,2009 E-mail from Sharon Sheehan to OAS Supv. 5
attached as Exhibit 40. OASSupv. 5 responded, "Definitely. I really think we need to lock on an

option on SP3 space while they can still provide ... " !d.
                              OAS
       On June 8, 2009, Supv. 5 wrote to Sheehan, "I know I can get about 200K SF at
SP-3 and IF we moved fast, I could probably interrupt the Kaiser deal and take the other
200K SF for spill over from this and overrun with [the SEC's Operations Center] and
SPI and 2.,,13 June 8, 2009 E-mail from OAS Supv. 5      to Sharon Sheehan, attached as
Exhibit 41. On June 12,2009, Sheehan emailed Ruiz, "OAS Supv. 5            and I are
scheduled to meet with you on Tuesday ... OAS Supv. 5 and I are going to recommend that the
SEC lease part, and possibly all, ofSP3 .... There are many benefits to our



10 Sheehan joined the SEC on September 5, 2006, as a Contracting Officer, after holding various

procurement and contracting positions in the Department of Defense. February 8, 2011 Sheehan
Testimony Tr. at 9-14. In May 2008, she became the Associate Executive Director for OAS. ld.

           Sheehan testified that when she was hired as the Associate Executive Director ofOAS in 2008, the
SEC "didn't really have a leasing program. ... [T]hey didn't have procedures or SOPs. They didn't have
employees who specialized in leasing." February 8, 2011 Sheehan Testimony Tr. at 13-15. Sheehan
testified that "I moved forward to explain to the Executive Director what 1 thought should occur in terms of
establishing a formal leasing program." Jd. at 15.
   OAS                                                                                                    OAS
11
   Supv. 5 was hired in June 2008 to form and manage the SEC's Leasing Branch. January 31,2011 Supv. 5
Testimony Tr. at 14-15. Prior to joining the SEC, she performed contracting work at the Department of
Defense and real estate work, including leasing, at GSA. Jd. at 9-12. OAS Supv. 5 testified that when she was
hired in June 2008, the SEC did not have a real estate leasing program. Jd. at 15-16,20-21. During the
course of this investigation, on April 3, 2011, OAS
                                                Supv. 5 retired from the Federal government.
12 Diego Ruiz was the SEC's Executive Director at that time. His appointment to that position was
announced on August 16,2006. See SEC Press Release 2006-141, attached as Exhibit 43. During the
course of this investigation, on February 18, 2011, the SEC announced his departure from the agency. See
SEC Press Release 2011-48, attached as Exhibit 44.
                                                                                             OAS
13 Station Place Three has a total of approximately 500,000 square feet. At the time Supv. 5 wrote this e­
mail, approximately 100,000 square feet had been leased to the American Chemistry Council ("ACC") and
Kaiser Permanente was interested in leasing approximately 200,000 ofthe remaining 400,000 square feet.
See Exhibit 42.

                                                     21
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



recommendation." June 12,2009 E-mail from Sharon Sheehan to Diego Ruiz, attached
as Exhibit 42.

         After meeting with Sheehan and OASSupv. 5 Ruiz decided not to lease the available
contiguous space at Station Place Three. February 8, 2011 Sheehan Testimony Tr. at
60-61. The uncertainty surrounding whether the SEC would be appropriated the funding
that it had requested in May 2009 was one reason that the SEC initially failed to act on
the opportunity in June 2009 to lease contiguous space at Station Place Three. Ken
Johnson, the SEC's Chief Financial Officer and the head ofOFM, explained that the SEC
did not act on the opportunity to lease contiguous space at Station Place Three in June
2009 because at that point it was "so early in the process" ofthe SEC's FY 2011 budget
request "that there would have been no assurances at this point that we would have
actually gotten this money.... this early ... no one would have thought, okay. We now
need the space for these thousand people because once we ask OMB l4 for it, we know it's
going to happen." Johnson Testimony Tr. at 43. Johnson testified that it "would have
been a real leap in logic ... just on what we requested of OMB, to assume that would be
what the end of the process would yield." Id. at 43. Johnson testified, "I remember
conversations about, boy, it would really make a lot of sense, if we knew we could use it,
to have all Station Place Three; it's right here, it's part of the same complex ... but we
don't have enough assurance that ... we would use it because we're too early in the
budgeting process." Id. at 45-46.

        Although Sheehan and OASSupv. 5 were confident that the SEC had a need for the space

at Station Place Three that justified their recommendation, Sheehan explained:

                 Diego [Ruiz] did not feel comfortable that we could justify
                 picking up that space [at Station Place Three in June 2009].
                 I remember us wanting to pick up the space, but the
                 decision was that we just were not willing to take that risk
                 because we didn't want to be left with redundant space.
                 He was very concerned about having redundant space,
                 meaning empty space.

February 8, 2011 Sheehan TestimonyTr. at 60-61,97. 15

            Uncertainty regarding the SEC's space inventory and needs was another reason
that the SEC failed to act on the opportunity in June 2009 to lease contiguous space at
Station Place Three. On Thursday, June 25, 2009, a LDPG employee notified OAS      Supv. 5

"[Kaiser Permanente] executed the lease." June 25,2009 E-mail from David Happ to
OAS Supv. 5
                  attached as Exhibit 46. OAS
                                          Supv. 5 responded, "Crap. I wanted to take it over."


14 As discussed below in Section II, the SEC must submit its budget request to OMB for approval before it
can be included in the President's overall budget request to Congress.
15 Sheehan also testified that, "Diego [Ruiz] always cautions everyone in the room that [projections of
growth from OFM] are only projections and that we can't take it to the bank." Id. at 62.

                                                   22
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



Id. The LDPG employee replied, "You still can we did not sign it yet ... Should be
signed Monday morning. . .. How much space do you think you might need." Id. In
response, OAS
          Supv. 5 confessed, "Off the record, I wish I knew exactly, but we are working it

as we speak." !d.

          On Friday, June 26,2009, OAS
                                     Supv. 5 sent an e-mail to Sheehan and others labeled,

"URGENT: OPC Program Numbers," describing "current/projected staffing levels" at
the SEC's Operations Center in Alexandria, Virginia. According to OAS       5
                                                                              Supv.
                                                                                    e-mail, there
was a need for an additional 90,000 - 100,000 square feet to accommodate those staffing
levels at the Operations Center. !d. OAS  Supv. 5 expressed her hope that, "This information

should help you and Diego [Ruiz] make decisions on best utilization of existing space
here at OPC, and how the informed and estimated expansion needs [at the Operations
Center], combined with expansion needs at [Station Place], may generate a quicker
decision to take space at [Station Place Three].,,16 June 26,2009 E-mail from OAS Supv. 5
OAS                            OAS Empl. 5
Supv. 5 to Sharon Sheehan and                       attached as Exhibit 47. However, in June
2009, Ruiz decided to not lease the space at Station Place Three that went to Kaiser
Permanente because, according to Ruiz, when LDPG offered the space to the SEC, "we
did not have what we perceived as a need for that space, and so we did not act on those
offers." Ruiz Testimony Tr. at 13.

        Within weeks of the decision to not lease the space that was ultimately leased by
Kaiser Permanente, the SEC staff realized its space needs justified leasing that space and
scrambled to reverse the decision. On July 31,2009, OGC Atty 2    , Special Trial Counsel
in the SEC's Office of the General Counsel ("OGC"), e-mailed LDPG:

                 I apologize for the shifting target ... SEC management
                 would like to know what the total costs could be if we were
                 to buyout the [American Chemistry Council ("ACC") and
                 Kaiser Permanente] leases in Station Place Three, as part of
                 potentially leasing all of Building Three. We understand
                 this would entail buying out or condemning the currently
                 signed leases, with potential damages to the lessees for
                 finding new space, etc.

July 31,2009 E-mail from OGC Atty 2           to David Lennhoff, attached as Exhibit 45.




16 Sheehan testified that when she became Associate Executive Director ofOAS in 2008, "I expected to
see that someone was taking a physical inventory and keeping a spreadsheet and things you would
normally expect to see with any type of inventory ... and that was not occurring." February 8, 2011
Sheehan Testimony Tr. at 18. OAS Supv. 4     , Assistant Director of the SEC's Office of Real Property
Operations, testified that, when he joined the SEC in July of 2009, OAS "didn't have a system to track
offices," and that no such system was in place until "probably in the summer or fall of [2010] when we
finally refined it." January 28,2011 OAS
                                      4
                                         Supv.
                                               Testimony Tr. at 14,18-19.


                                                   23
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



        Ultimately, the SEC did not buyout either the ACC or the Kaiser Permanente
leases. On April 16, 2010, Sheehan informed Ruiz that ACC was demanding $10 million
for the SEC to buyout its Station Place Three lease. See April 16, 2010 E-mail from
Sharon Sheehan to Diego Ruiz, attached as Exhibit 164. After a May 6,2010 briefing on
the matter, Ruiz "decided that pursuit of the ACC space would not be prudent." May 11,
2010 E-mail from OAS Supv. 4    to OAS Supv. 5   attached as Exhibit 165.

            As discussed above, Sheehan and OAS
                                             Supv. 5 had recommended in June 2009 that the

SEC lease the approximately 400,000 square feet that remained at Station Place Three at
that time. Instead, in August 2009, after Kaiser Permanente leased approximately
200,000 square feet of that space, the SEC decided to move forward and lease the
approximately 200,000 square feet that remained. See August 6, 2009 E-mail from
OAS Supv. 5       to Sharon Sheehan, attached as Exhibit 48; Ruiz Testimony Tr. at 23. On
March 23, 2010, after months of additional planning and negotiation, the SEC executed
the lease for 201,998 square feet of space at Station Place Three. March 23, 2010 Lease
Agreement, attached as Exhibit 49.

    II.      In May 2010, OAS Began Planning to Lease Approximately 300,000
             Additional Square Feet for SEC Headquarters Based on the SEC's FY
             2012 Appropriation Request

         On May 14, 2010, the SEC submitted an authorization request to the Chairman of
the United States Senate Committee on Banking, Housing, and Urban Affairs. May 14,
2010 Letter from Mary Schapiro to Christopher Dodd, attached as Exhibit 50. In this
letter, the SEC requested $1.507 billion for FY 2012 in order to fund an increase of800
positions. Id. at 2-3.

        An authorization request is the first step in the SEC's lengthy budget process. An
authorization request is submitted to Congress in May of the fiscal year two years prior to
the fiscal year for which the authorization is requested (e.g., the FY 2012 authorization
request takes place in May 2010). OFM Supv. Testimony Tr. at 10. Several months after the
authorization request, in September, the SEC submits a proposed budget request to OMB.
Id. at 14. In November, the next step ofthe budget request process takes place: OMB
replies to the SEC with a "pass-back," usually a lower number than what the SEC
requested, and the SEC and OMB then usually negotiate the amount of the budget
request. Id. at 15-16; Johnson Testimony Tr. at 43-44. Several months later, the
President formally submits a budget proposal to Congress. Johnson Testimony Tr. at 44.

       The SEC's authorization requests are developed by OFM and the Office of the
Executive Director. OFM Supv. Testimony Tr. at 8, 10. OFM Supv.    , OFM's OFM Supv.
             Planning and Budget, testified that, in her experience, she has never
witnessed the size of the SEC's budget request submitted to OMB in September be the
same as the budget request submitted to Congress by the President the following January,
and that the size of the budget request submitted to Congress often varies significantly
from the size of the SEC's original request to OMB. Id. at 16. Johnson testified that it

                                                   24
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approyal.



would have been a "real leap in logic ... just on what we requested of OMB, to assume
that would be what the end of the process would yield." Johnson Testimony Tr. at 43.

        Once the President makes the budget request to Congress, Congress then begins
the decision-making process as to how much money to appropriate the SEC and other
agencies. Id. at 44. Johnson described the budget request process as follows:

                 [F]or each given fiscal year, we start with an authorization.
                 Then we go to a request to OMB ... [T]hen there's a pass­
                 back from OMB. And then, once there's a decision on
                 what [the] President's request will be, then that request is
                 made to Congress, and the congressional justification.

                 And then there's Congressional hearings. And then ... the
                 House and Senate would start marking up the bill ... and
                 then announcing what they intend to fund ... And then
                 there has to be, you know, agreement among House and
                 Senate, and the President has to sign. And then we get our
                 money.

Id. at 43-44. OFM Empl.              a management analyst in OFM, explained that an
authorization request is "sort of a fantasy because you don't know what Congress is
going to want to do with it, and may completely ignore it." OFM Empl.     Testimony Tr.
at 15.

        Consequently, even if the authorization request is granted, there is no guarantee
that the requested funds will ultimately be appropriated at the end of the process. See
Johnson Testimony Tr. at 18. Johnson acknowledged in testimony that an authorization
may indicate an intention for Congress to provide funding, but circumstances could
subsequently change, so Federal "agencies understand that until the money is
appropriated, they can't count on that money coming to them." ld. at 19-20.

          When asked in testimony what the SEC actually gets from an authorization,
OFM Supv.
          replied, "[N]ot a whole heck of a lot." OFM Supv. Testimony Tr. at 11. OFM Supv.
testified that the agency uses its authorization request as a "ceiling that we could ask for
when we go to OMB" to make a budget request. Id. at 10. When asked in testimony
whether, upon receiving an authorization for a funding amount, an agency knows it is
going to be funded for that amount, OFM Supv. replied, "Oh, no, not at all." Id. at 12.
OFM Empl.
                 testified that "you never know what you're going to get appropriated ....
[1]t's not real until you have the appropriation, and anything can happen." Id. at 39-40.




                                                   25
    This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
    disclosure to third parties. No redaction has been performed by the Office of Inspector General.
    Recipients of this report should not disseminate or copy it without the Inspector General's approval.



              On May 7, 2010, in response to a request from OAS Supv. 4      Assistant Director of
                                                         OFM Empl.
    the SEC's Office of Real Property Operations,17                     e-mailed OAS Supv. 4
    "estimates of where [the 800 new positions requested by the SEC in its authorization
    request for FY 2012] would be located." May 7,2010 E-mail from OFM Empl.
    to OAS Supv. 4 , attached as Exhibit 51. At this time, OFM estimated that 404 ofthe 800
    positions would be located at Station Place; 25 would be located at the Operations
    Center; and 371 would be located at the SEC's regional offices. Id. OFM Empl.
    explained to OAS Supv. 4 that she "developed the estimate based on ratios of where [the SEC's
    Division of Enforcement ("Enforcement")] and [Office of Compliance Inspections and
    Examinations ("OCrE")] said they planned to locate staff in the regions, and based on
    very general assumptions of what proportion of the total positions would be
    [Enforcement] and OCrE vs. other divisions/offices." !d.
                                    OFM Supv.              OAS Supv. 4
             On May 10, 2010,          cautioned         about planning on receiving all 800
   of the requested positions: "[E]ven if we ask OMB for 800 new positions, it doesn't
   mean we will get them. We won't know what they let us go to Congress with until late in
   November. I would be very surprised ifit is truly the entire 800." Id. OFM Supv. testified
   that she wrote this "[b]ecause you don't always get what you ask for, and you know,
   history is that usually you don't." OFM Supv. Testimony Tr. at 51-52. OAS Supv. 4 responded to
   OFM Supv.
              cautionary note, "I understand. With 7 of the leases at our regional offices
   expiring in the next 4 years, we want to be mindful of the 'potential' growth as space
   options are considered. Even though your estimates come with caveats, they are helpful
   in our planning." 18 Exhibit 51.
                                    OAS                                                            OAS Supv. 4
               On May 27,2010, Supv. 5 sent an e-mail to various persons (copying        and
   Sheehan) with the subject "IMPORTANT: New Urgent Space Action in DC." May 27,
              -mail from OAS Supv. 5   to OAS Supv. 3    attached as Exhibit 52. According to
  OAS Supv. 5
               e-mail, the SEC needed to lease 250,000 square feet to accommodate its space
   needs through FY 2012:

                      [T]he SEC is requesting for 2012, an additional forecasted
                      400 Headquarters staff (out of a total of 800 SEC-wide
                      requested) .... Because such an increase in space can take
                      up to 2 years to acquire and build-out ... it is imperative
                      that this project be expedited under an urgent and

       OAS Supv.
    17 4       began working at the SEC in July 2009, in the position he holds today. January 28,2011
OAS Supv. 4Testimony Tr. at 8-9. Prior to joining the SEC, OAS4
                                                                  Supv. worked in the Army as a unit commander

   and worked for two small businesses in Virginia managing government contract projects. Id. at 6-8.
                         OFM Empl.
   18 On June 3, 2010,                   sent another e-mail to OAS
                                                                4
                                                                    Supv.
                                                                         , at his request, providing estimates as to
   which divisions and offices would receive the 800 new positions requested by the SEC for FY 2012.
   Exhibit 51. As in the May 7, 2010 estimate, 404 of the 800 requested new positions for FY 2012 would
   work at Station Place, 25 would work at the Operations Center, and 371 would work at the SEC regional
   offices. Id. In this June 3 e-mail, OFM Empl.      described the estimates as "very much SWAG
   projections." OFM Empl.        explained in testimony that "SWAG" is an acronym for "stupid wild-ass
   guess." OFM Empl.       Testimony Tr. at 45-46.

                                                           26
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



                     compelling justification in order to acquire sufficient space
                     to accommodate the immediate occupancy need 19 and the
                     forecasted contiguous 2011 and 2012 need as well.
      OAS Supv.
Id.   5           e-mail described OAS's plan of action as follows:

                     As of yesterday, Sharon [Sheehan] has direction from
                     [Diego Ruiz] to move out quickly on this acquisition.
                     Market infonnation has been collected in the DC area
                     around the Station Place complex, and 3 properties were
                     found to meet the minimum square footage requirement.
                     Under the urgent and compelling justification that will be
                     documented in a fonnal [Justification and Approval], the
                     highly expedited acquisition strategy will be to:

                         1.   Contact the 3 properties and arrange a survey
                              of the buildings ...

                         2.   Prepare an Acquisition Plan, Justification for
                              Urgent and Compelling action,20 notification to
                              OMB21 ...


                         4.   Prepare a Solicitation For Offers ...

                         5.   Negotiate and award the lease via contract letter if
                              needed to expedite, if the full lease provisions
                              prove to be problematic in any way.

Id. (emphasis in original).

         As OAS
            Supv. 5 explained in her May 27,2010 e-mail, ~AS's original plan was to limit

the solicitation for offers to three properties, all with     lking distance of Station Place.
                                                          OAS
Id.; see also Exhibit 60. However, on June 2,2010, Supv. 5 received an e-mail from the
real estate broker for Constitution Center regarding its availability and some of its

19  The "immediate occupancy need" OAS Supv. 5 referred to was related to the fact that "the space in [Station
Place Three] will not be available for occupancy until mid September 20 I 0 (one floor only) and the
remainder not available until Dec 2010." Exhibit 52.
20 As explained below in Section VI, the Federal Acquisition Regulation permits other than full and open
competition "when the agency's need for the supplies or services is of such an unusual and compelling
urgency that the Government would be seriously injured unless the agency is permitted to limit the number
of sources from which it solicits bids or proposals," and requires that a written justification be prepared if
there is not full and open competition. 48 C.F.R. § 6.302.
21 As explained below in Section VILA, agencies are required to notify the Office of Management and
Budget ("OMB") ofleases of over $50 million "during the conceptual, developmental stage" for review of
the scoring impact. See OMB Circular No. A-II, Appendix B, attached as Exhibit 139.

                                                      27
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.


                                                             OAS Supv. 4
features. June 2,2010 E-mail from OAS Supv. 5        to              and Sharon Sheehan,
                                                             OAS
attached as Exhibit 53. Approximately 30 minutes later, Supv. 5 forwarded the broker's e­
mail to OAS Supv. 4 and Sheehan and discussed the possibility of expanding the delineated
area in the planned solicitation to render it an option as follows:

                 We are going to have to visit this building as well I think
                 ...... it wouldn't bode well to not view it. [The broker]
                 called me and said he would offer a shuttle between our
                 facilities if we required it, as well. They have been pushing
                 hard for a long time. The building is seriously secure. If
                 our delineated area is well supported as only being within
                 walking distance, then maybe we could exclude (which was
                 my initial intent), however, given the market and our
                 unusual compelling circumstances, I think this building, if
                 offering shuttles, etc., would be hard to ignore. Please
                 advise.

                 It is at   i h and D, SW, with its own metro access.

ld. (ellipsis in original).

        The 1.4 million square foot Constitution Center had just been renovated in "one of
the largest office redevelopment projects in Washington, DC." See Constitution Center
brochure excerpts, attached as Exhibit 119. Building owner DNA's description ofthe
building included the following:

                 Within the 5,000 [square foot] lobby are spacious
                 accommodations for a guard desk(s), security screening
                 room, shuttle elevator lobby, and display space .... Lobby
                 finishes include Jerusalem limestone floors and marble
                 walls, wood and metal paneling, decorative lighting and a
                 floor-to-ceiling glass wall facing the landscaped courtyard .
                 ... Constitution Center has an entirely new fac;ade
                 composed of a floor-to-ceiling, blast resistant curtain wall.
                 This dramatic feature will provide abundant daylighting,
                 panoramic views of the city and surrounding region ... The
                 open plaza area of the existing building has been
                 transformed into a one acre private garden .... The
                 [building includes an] auditorium (350+ seats) and
                 conference center (3,000 [square feet]) ....

ld.
         As reflected in an e-mail approximately two weeks later, OAS then decided to
solicit offers for 316,000 square feet and expand the delineated area in order to add
Constitution Center to the other three buildings that would be included in the solicitation.

                                                    28
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General.
  Recipients of this report should not disseminate or copy it without the Inspector General's approval.



  See June 11,2010 E-mail from OAS Supv. 5           to OAS Supv. 4 , attached as Exhibit 55. On
                 OAS                      OAS Supv. 4
  June 11,2010, Supv. 5 sent an e-mail to            , Sheehan, and Ruiz summarizing the
  "action items" from a meeting the previous day. Id. Those action items included:

                    a.    Immediate need ... to work up a revised Needs
                          Assessment .... This Needs Assessment is needed to
                          support the Justification for Unusual and Compelling
                          Authority being used for this acquisition and to further
                          support the OMB notification that must go out ASAP.


                    d.    . .. [I]mmediately finalize the Request for Proposals
                          (Solicitation) ... for an expected release early next
                          week. Intend to require the 4 buildings under
                          consideration only a week or less to respond.

  Id. (emphasis added). The last action item listed in OAS
                                                       5
                                                           Supv.
                                                                 e-mail was, "[E]dit the
  leasing briefing for Chairman Shapiro [sic] with comments as recommended by Diego
  [Ruiz] for a reschedule ofthat briefing." Id.

       III.     In June 2010, OAS Briefed the Chairman on its Expansion Plan for SEC
                Headquarters and Was Asked to Reassess the Need for Additional Space
                at SEC Headquarters in Light of the Chairman's Focus on Growth in the
                Regional Offices

          On June 17,2010, OASSupv. 5
                                      OAS Supv.
                                      4         , Sheehan, and Ruiz met with Chairman Schapiro
  to discuss several leasing issues, including OAS' s immediate expansion plans at SEC
  Headquarters. See June 16, 2010 E-mail from OAS Supv. 5              to OAS Supv. 3  attached as
                                               OAS Supv. 5
  Exhibit 56; June 16,2010 E-mail from                          to Diego Ruiz and Sharon Sheehan,
  attached as Exhibit 57. At that briefing, OAS  Supv. 5 told the Chairman that the SEC needed to

  immediately lease 280,000 to 315,000 square feet of office space in Washington, DC.
  See Exhibit 57 at 4; Schapiro Testimony Tr. at 11; Gillan Testimony Tr. at 13-14. OAS
  also identified on a map specific locations that it had identified as candidates for that
  expansion. Gillan Testimony Tr. at 7, 12-13; Ruiz Testimony Tr. at 43. Those
  candidates included Constitution Center. 22 Exhibit 57; Gillan Testimony Tr. at 12-13.



  22  The three buildings other than Constitution Center (999 North Capitol Street NE, 90 K Street NE, and
  1100 151 Street NE) were all within walking distance of Station Place. See Exhibit 60. OAS
                                                                                          Supv. 5 had first
  identified Constitution Center as an attractive option for the SEC expansion that, as discussed above,
  ultimately occurred at Station Place Three. See Exhibit 54. In a July 29,2009 e-mail to Sheehan, OAS Supv. 5 had
  described Constitution Center as having "[0]bvious Security benefits, as well as quality of life." Jd.
OAS Supv. 5
            e-mail referenced a meeting where OAS staff had "[d]iscussed need to compete the acquisition of
  an expansion of this size (possible 300K sf??) through advertisement of expressions of interest, meaning
  we couldn't 'zero in' on a particular building; however source selection criteria could get us more of what
  and where we want." Jd.

                                                        29
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.


OAS Supv.
5      presentation proposed sending solicitations for offers to those candidates by June
23, 2010, and leasing the space by July 20, 2010. See Exhibit 57 at 4.

         Kayla Gillan, the Chairman's Deputy Chief of Staff at that time, testified that she
recalled that two of the locations on this map were "much closer to Station Place, and
those were going to be the focus of effort to lease. [T]he Chairman had expressed a clear
preference for those ... buildings that were closer to Station Place Three than was
Constitution Center." Gillan Testimony Tr. at 7, 12-13. Chairman Schapiro recalled that
at this briefing she expressed a preference for buildings within walking distance of
Station Place, in part because "it would cut down on our costs to have these shuttles run,
which 1 understand are very expensive." Schapiro Testimony Tr. at 12-13. Chairman
Schapiro also questioned whether the SEC needed 300,000 additional square feet in light
of her position, discussed in greater detail below, that the SEC should concentrate its
growth in the regional offices. July 2,2010 E-mail from Sharon Sheehan to OAS Supv. 5
OAS
Supv. 5 attached as Exhibit 61; Schapiro Testimony Tr. at 11-12.

            A few days after OAS met with Chairman Schapiro, DNA asked for an update
about when it would receive a solicitation for an offer. June 23, 2010 E-mail from OAS            Supv. 4
OAS Supv. 4
            to OAS Supv. 5         attached as Exhibit 59. OAS
                                                             Supv. 5 forwarded the request to OAS Supv. 4

and asked, "1 realize you may not have an immediate answer for this, but we need to get
one soonest. ... Can you get with Sharon [Sheehan] and maybe Diego [Ruiz] and let me
know how to advise these folks?" !d. OAS Supv. 4 responded, "I'll talk with Sharon about
raising the issue but someone has to convince the Chairman to change position.,,23 Id.
(emphasis added). OAS      Supv. 5 replied, "1 didn't really hear a particular position by the

Chairman other than she thought new [full time equivalent positions ("FTE")] might be
best in [regional offices] in lieu of DC and wanted some research on that (which
everyone is doing)." Id.

         On July 1, 2010, OAS
                          Supv. 5 sent an e-mail to colleagues in OAS and others, titled,
"UPDATE: Expedited DC Headquarters Expansion Project." Exhibit 61. In this e-mail,
OAS
Supv. 5 wrote: "[T]he urgent pace of this project has been suspended in order to further

respond to questions about the DC space need posed by the Chairman.... OAS Supv. 4
and Sharon [Sheehan] are working to refine the space need to be sure that should we re­
engage in this project, that our requirement is firm and reflects the Chairman's vision."
!d?4 The next day, Sheehan responded, "We should have this matter resolved by
Thursday, July 15, at which point I expect the project to continue at a fast pace." !d.

                    OAS Supv.
23 In his testimony, 4       claimed that his statement that the Chairman needed to "change [her] position"
"meant [Chairman Schapiro] hasn't committed to anything. We're trying to get her to act or say - give us
some direction .... That's all I'm saying here, change position of not providing us definitive guidance so
we can move forward or not." March 29, 2011 OAS   4
                                                     Supv. Testimony Tr. at 19.
                 OAS
24 Sheehan and Supv. 5 both testified that they did not specifically recall what the Chairman's questions
were about the DC space need. March 29,2011 Sheehan Testimony Tr. at 7-8; March 29, 2011 OAS Supv. 5
Testimony Tr. at 215. OAS
                       4
                          Supv. testified that his work to refine the agency's space need entailed "[j]ust

making sure that the numbers that we presented to Diego were current." March 29,2011 OAS Supv. 4
Testimony Tr. at 20-21.

                                                    30
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



     IV.     In July 2010, OAS Grossly Overestimated the Amount of Space Needed
             at SEC Headquarters for the SEC's Projected Expansion

       Due to several significant management failures, discussed below, OAS's
recommendation in mid June 2010 to lease approximately 300,000 square feet for SEC
Headquarters morphed into a mid July urgency to lease 900,000 square feet. On July 23,
2010, Ruiz sought and received the Chairman's approval to proceed with lease
negotiations for 900,000 square feet at Constitution Center.

        As discussed below, on July 28,2010, OAS signed a two-page letter contract for
that space based on the purported need for 900,000 additional square feet at SEC
Headquarters. That purported need was based on projected growth that assumed: (1) the
SEC would receive more funding than was included in the President's budget request
pending before Congress; (2) the SEC would receive all ofthe funding it had included in
its FY 2012 appropriation request;25 and (3) the SEC would receive all additional funding
it deemed necessary to implement Dodd-Frank. 26 These assumptions were speculative
and ignored the prospect that the upcoming mid-term elections could impact those hoped­
for appropriations. 27

25 As discussed above, on July 28,2010, the SEC's FY 2012 authorization request had not yet been
submitted to OMB for approval. Furthermore, as discussed below, the OFM staff did not necessarily
expect OMB to approve the full amount of the SEC's FY 2012 authorization request.
26 On December 11,2009, the financial regulatory reform bill that eventually became the Dodd-Frank
Wall Street Reform and Consumer Protection Act ("Dodd-Frank") was passed by the U.S. House of
Representatives. Brady Dennis, House Votes 223 to 202 to Approve Sweeping Bill to Overhaul Financial
Regulatory System, Washington Post, December 12,2009, attached as Exhibit 62. On May 20,2010, the
United States Senate passed a different version of this financial regulatory reform bill, which then led to a
reconciliation process between the two bills. Brady Dennis, Senate Passes Financial Regulation Bill,
Washington Post, May 21,2010, attached as Exhibit 63. The Senate passed this reconciled version on July
15,2010, and on July 21,2010, a reconciled version of these two bills, Dodd-Frank, became law. Brady
Dennis, Congress Passes Financial Reform Bill, Washington Post, July 16,2010, attached as Exhibit 64;
Brady Dennis, Obama Signs Financial Overhaul Into Law, Washington Post, July 22,2010, attached as
Exhibit 65.

         Dodd-Frank assigned the SEC additional responsibilities, including the oversight of the over-the­
counter derivatives market and hedge fund advisors; registration of municipal advisors and security-based
swap participants; enhanced supervision ofNRSROs and clearinghouses; greater disclosure and risk
retention regarding asset-backed securities; and creation of a new whistleblower program. SEC FY 2012
Congressional Justification In Brief, attached as Exhibit 66, at 2.

   The SEC estimated that it would need to add 800 positions in FY 2011 and FY 2012 to implement
Dodd-Frank. See July 20, 2010 Mary Schapiro Testimony before the United States House of
Representatives Financial Services Committee, attached as Exhibit 67, at 15. Dodd-Frank authorized an
increase in the agency's budget from the $1.11 billion appropriated in FY 2010 to $1.3 billion in FY 2011,
$1.5 billion in FY 2012, and $2.25 billion by FY 2015. Exhibit 66 at 2. Johnson explained that Dodd­
Frank "did [not] include any appropriations for the SEC ... It had authorization of appropriations, but ...
there's a distinction." Johnson Testimony Tr. at 56.
27 Johnson testified concerning conversations with Ruiz in July 2010, "I was always cautioning, you
know, it's not until we have [funding] in our hands do we really know it." !d. at 68. However, Johnson
also testified that:

                                                     31
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.




         However, as detailed below, even if those assumptions had been well-founded
 and a reasonable basis for leasing space, justifiable projections for the SEC's expansion
 at Headquarters based on those assumptions would not have supported leasing 900,000
 square feet. In fact, those projections would only have justified leasing approximately
 300,000 square feet - one-third ofthe Constitution Center lease. As discussed below,
 OAS employed a series of unfounded, egregiously flawed, and irresponsible projections
 to derive the purported need to lease 900,000 square feet.

          A. OAS Employed a 400 Square Foot Per-Position Standard in its
             Determination that SEC Headquarters Needed to Lease Approximately
             900,000 Square Feet

        The GSA has determined that for government office space planning purposes, "an
 appropriate benchmark is 230 rentable square feet per person, including all individual and



                   Our expectation, and Diego [Ruiz] and I were of the same mind about
                   this, that if there was a change in control of one or both houses to a
                   party that was less favorably disposed to growth or federal spending,
                   still the likely outcome would have been that ... the House and Senate
                   have already agreed on what the [funding] number is in the committees,
                   and that something would have passed in a lame duck session before
                   the next Congress would have taken control.

!d. at 68. Johnson testified that "that was our best guess for 2011. And then certainly all bets are off for
2012,2013, and that process hadn't played out." Id. at 70.

            Ruiz acknowledged that he understood that a Congressional authorization was not the same as an
  appropriation and that the former was no guarantee of the latter. Ruiz Testimony Tr. at 69. However, Ruiz
  denied being aware in July 2010 "that there was a pretty good likelihood that the Republicans might take
  over the House and the Senate." !d. at 70. In July 2010, that likelihood was the subject of a great deal of
  media coverage. See Rick Klein, Democrats' Math Problem Complicates Agenda, ABC News, July 11,
  2010, attached as Exhibit 68 ("The stark admission by White House Press Secretary Robert Gibbs today-­
  that there is 'no doubt' that enough seats are in play to cost Democrats the House -- reflects a reality that
  will color the national political scene over the next four months"); Jeff Zeleny, Democrats Sketch Ad Plan
 for Defending House Seats, The New York Times, July 22,2010, attached as Exhibit 69 ("Several
  incumbent Democrats are bracing for something they have rarely faced: serious competition. Their
. predicament is the latest sign of distress for their party and underlines why Republicans are confident of
  making big gains in November and perhaps even winning back the House"); John Whitesides, Enthusiasm
  gap could be trouble for Democrats, Reuters, July 27, 2010, attached as Exhibit 70 ("Republicans still
  enjoy a big advantage in enthusiasm about November's congressional elections, with their party members
  far more engaged and more likely to vote in a trend that could spell big trouble for Democrats. ... That
  could be a decisive factor in dozens of races nationwide that will decide whether Democrats hold their
  majorities in the House of Representatives and Senate"); Andrea Tantaros, 99 Days to the Election, and the
  Democrats are in Trouble, FoxNews.com, July 27,2010, attached as Exhibit 71 ("If the election were held
  today, Republicans would have a good chance at capturing the House of Representatives. Generic
  congressional ballot polls show the GOP with an edge. Numbers by Rasmussen, Fox News and Quinnipiac
  show the right with a 9, 4, and 5 point lead, respectively").


                                                      32
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



shared space such as workstations, circulation, storage, and conference rooms.,,28 GSA
guidance further provides that "Federal agencies that exceed the recommended overall
Governmentwide [sic] average for office space use should ensure that agency mission
mandates a direct requirement for higher per capita office space allocation. Once this
link is established, agencies need to benchmark their office space to the allocation of
other Government and private organizations with similar mission and needs.,,29

        OAS developed its own, much higher standard of 400 square feet per person for
planning its space needs and determining how much space to lease. OAS Empl. 4      Interview
            30 OAS Supv. 4
Tr. at 3_8.                used this standard when he estimated how much additional space
was needed at SEC Headquarters to accommodate his estimates of projected growth. See
Headquarter Projections Chart, attached as Exhibit 75. OAS characterized its 400 square
feet per person standard as an "all-inclusive number" that included common spaces and
amenities. Ruiz Testimony Tr. at 37-38.
      OAS Supv. 5
              testified regarding the development of the 400 square feet per person
standard as follows:

                     [W]e have taken a look at what our utilization is around
                    the SEC, here at Station Place, out in the regions, to get at
                    what is our overall utilization if you consider everything we


28 See Excerpt from GSA Website, Exhibit 72.
29 See GSA's 2002 Space Use, Exhibit 73 at 3, 'Il6 (markups by OAS staff). Several witnesses noted that
the SEC warrants a higher space utilization number than most other federal agencies because the SEC has a
high percentage of professiona              uch as lawyers and accountants, who have individual offices. See,
                                  OAS Supv.
e.g., Ruiz Testimony Tr. at 39. 4            testified that the SEC "benchmarked" its 400 square foot per person
standard with other agencies, including the Office of the Comptroller of the Currency, the Patent and
Trademark Office, and the FDIC, and that "I think we found that our space was right in line with the
agencies we looked at ... We're pretty consistent with them." January 28,2011 OAS    4
                                                                                        Supv.
                                                                                              Testimony Tr. at
68. Subsequently,OAS Supv. 2                                         Space Management & Mail Operations,
provided the OIG with a one-page chart, attached as Exhibit 74, that summarized the results ofOAS's
benchmarking survey. That document did not cite an "all inclusive" rentable square feet per person
standard for the other agencies. /d. It did compare the size of the SEC's offices for various staff grade
levels to the size of the offices at the other agencies. Id. According to this document, some of the SEC
staffs offices are larger than their counterparts at those other agencies. /d.
30 On April 25, 2011, after Sheehan had testified twice in connection with this investigation, she asserted in
an e-mail to the OIG that OAS had hired a consultant, David Guin, who "is working to drive down our
allocation of 400 sq ft per person to around 300 per person." See April 25, 2011 E-mail from Sharon
Sheehan to OIG Empl. 1      attached as Exhibit 76.

         However, Guin told the OIG that he is not, and never has worked on such a project. See Guin
Interview Memorandum. Guin did explain that when OAS was planning on the SEC occupying the space it
had leased at Constitution Center, he had briefly worked on developing a "mobile workforce planning"
program for SEC contractors at Constitution Center that would have decreased the space occupied by those
contractors by eliminating assigned cubicles or stations for contractors. Id. Guin emphasized that such a
program would not be feasible for permanent staff. Id. Guin also explained that, as a result, the program
would not have significantly reduced the SEC's 400 square foot utilization standard at Constitution Center.
Id.

                                                      33
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



                      have, if you take the San Francisco lease "X" divided by
                      "X" people that sit there, it comes out to about 427 square
                      feet per person. And that counts your walking around
                      space, your auditorium if they have one, your child care,
                      your fitness, it is everything, soup to nuts ... Here at
                      headquarters it came to like 412 or something ... When
                      you take it all in totality and divide it by employees and lay
                      it out, and ... I did it out of curiosity. I laid out a Station
                      Place II floor on top of a Station Place II floor and hand
                      counted the offices and stuff, and it comes out to this 400
                      square feet per person roughly.
                        OAS
January 31, 2011 Supv. 5 TestimonyTr. at 77-78.
      OAS Supv. 4
              explained his understanding of how the 400 square feet per person
standard was developed as follows:

                      I think [OAS staff] checked in [the SEC's] Atlanta
                      [Regional Office], and we divided the total number of
                      positions by that total square footage. It came up to a little
                      over 400. I think 424 to be exact. So short of having a
                      program of requirement, we estimated it will be about 400
                      square feet per person based on our floor plan.
                       OAS Supv. 4
March 29, 2011                       Testimony Tr. at 75.

        According to OAS Supv. 4 testimony, OAS Empl. 4         a Realty Specialist in OAS, is
the employee most familiar with the development of the 400 square feet standard and
what it represents. March 29, 2011 OAS Supv. 4 Testimony Tr. at 100-101. OAS Empl. 4
explained to the 010 that she and OASSupv. 5 developed the standard by dividing the square

footage of office space by the number of people the SEC had authority to hire for the
offices in that space at Station Place One, Station Place Two, and several of the SEC's
regional offices. OAS Empl. 4 Interview Tr. at 8, 11, 13-15. OAS Empl. 4 described the
standard as a "WA~" (wild-ass guess) and a "back of the envelope" calculation, and
stated that "we didn't do this scientifically." ld. at 4-5, 11.

        OAS Empl. 4
                     explained that OAS used the SEC's "strength reports" to determine the
number of people the SEC had authority to hire. Jd. at 11-12. She explained that the
SEC's strength reports only include permanent positions; they do not include the number
of contractors, interns, and temporary staff that are associated with those positions. Jd. at
12, 15-16. OAS Empl. 4 told the OIO that at the SEC offices she looked at to develop the
400 square feet standard, the ratio of contractors, interns, and temporary staff to
permanent positions was about 10 percent. ld. at 12-16.



                                                        34
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.


         OAS Empl. 4
                          also explained that:

                       [T]he 400 also included a small amount of space that
                       represented future growth, so that you could plan for it a
                       little bit better initially... And so there was a little bit of
                       growth [that] I think [was] being thrown into that 400
                       square-foot calculation.

Id. at 5-6. Specifically, OAS Empl. 4
                                  explained that "about five percent" was added to the
number originally reached by dividing square footage of office space by the number of
people the SEC had authority to hire for the offices in that space, "for that growth that we
wanted to build in." !d. at 13.

        Accordingly, OAS Empl. 4 explained that multiplying the number of permanent
positions by 400 square feet should result in an estimate of the space needed to
accommodate (1) those permanent positions, (2) all of the contractors, interns, and
temporary staff that are associated with those permanent positions (assuming the ratio of
those positions is about 10 percent), 31 and (3) an inventory of future space equal to five
percent of the number of permanent positions. !d. at 13-14.

         B. Based on the Most Optimistic Projections from OFM, SEC
            Headquarters Needed Space to Accommodate 886 New Positions

        In early July 2010, OFM revised its projections for growth in FYs 2011 and 2012.
See July 7,2010 E-mail from OFM Empl.             to OAS Supv. 4   and Sharon Sheehan,
attached as Exhibit 77. The new projections assumed that Dodd-Frank would pass and
that the SEC would need 800 new positions to implement the legislation. 32 Id. OFM
developed two scenarios for its projections. Id. The first scenario assumed that the SEC
would receive all ofthe funding included in the President's FY 2011 request and all the
funding included in the SEC's FY 2012 appropriation request to add the 800 Dodd-Frank
positions and 380 positions to the SEC's "base programs" for a total of 1,180 positions.
Id. The second scenario assumed that the SEC would receive funding during FYs 2011
and 2012 to add the 800 Dodd-Frank positions and 630 base-program positions - a total
of 1,430 positions. Id.

       The second scenario assumed that the SEC would actually receive more funding
in FY 2011 than had been requested by the President. See July 8, 2010 e-mail from

31 Ruiz testified that he believed interns and contractors were included in these OAS surveys of actual
usage at Station Place to arrive at the 400 square feet per person standard, but that he was not positive that
was the case. Ruiz Testimony Tr. at 41-42.
32 On July 20,2010, Chairman Schapiro testified before the House Subcommittee on Capital Markets,
Insurance and Government-Sponsored Enterprises, "While the dollar cost of full implementation will
depend greatly on the effective date of new rules, the timing of hiring, and other factors, we currently
estimate that the SEC will need to add approximately 800 new positions over time in order to carry out the
new or expanded responsibilities given to the agency by [Dodd-Frank]." Exhibit 67 at 15.

                                                      35
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



Kenneth Johnson to OFM Empl.           attached as Exhibit 78. That assumption was
made by OFM based on discussions in early July 2010 between SEC officials and some
Congressional members and staff regarding their intention to provide the SEC with
additional FY 2011 funding. 33 Id.

        When OFM Empl.      sent OAS
                                 4
                                     Supv.
                                           , Sheehan and Ruiz OFM's revised growth
projections on July 7,2010, she emphasized that:

                 These spreadsheets do not differentiate between H Q and
                 regions. They only reflect totals for the exam and
                 enforcement programs. A few weeks ago, I provided you
                 the estimated allocations by regional office, based on
                 information provided by OCIE and [Enforcement] for the
                 FY 2012 Authorization Request process and assumed
                 ratios .... For now, what I provided you previously
                 remains the best estimate for regional allocations we have.

Exhibit 77 (emphasis in original).34 Subsequently, Ruiz noted that "about 95% of
projected 2011 new slots for OCIE, and approx[imately] [50%] for [Enforcement]"
would be allocated to the regional offices. See August 9,2010 e-mail from Diego Ruiz to
Eric Spitler and Kenneth Johnson, attached as Exhibit 83. 35



33 On July 29,2010, the Senate Committee on Appropriations recommended that the SEC be appropriated
$1,300,000. Financial Services and General Government Appropriations Bill, attached as Exhibit 80. Also
on July 29,2010, the Chairman of the House Appropriations Subcommittee presented his mark for the
Subcommittee's consideration, increasing the SEC's FY 2011 appropriation to $1,300,000, which was
$205 million over the SEC's FY 10 funding amount. July 29, 2010 Statement of Jose E. Serrano, Attached
as Exhibit 81. Johnson testified that SEC officials "had ... decent feelings or hints in talking to
congressional staff' in early-July 2010 about receiving an appropriation that would have supported the
number of new positions in OFM's second scenario projections. Johnson Testimony Tr. at 75.

          However, Johnson acknowledged that "certainly, in advance of July 29th when [the] House mark
and Senate mark came through, we didn't know what they would do." Id. As late as July 26, 2010,
Johnson was instructing SEC officials by memorandum to use the President's FY 2011 funding request for
planning the SEC's operating budget. See July 26, 2010 Memorandum from Johnson to SEC Division
Directors and Office Heads, attached as Exhibit 79. Specifically, Johnson's memorandum stated, "[t]he
President's FY 2011 budget request currently pending before Congress for the SEC is $1.258 billion .. ..
Since our actual appropriation will not be known for several more months, we will use the funding .. .
established in the President's request as guideposts in developing the FY 2011 operating budget." Id.
    OFM Empl.
34                  confirmed in testimony that the numbers in these OFM projection charts are nationwide
numbers that include projected new personnel for the SEC's regional offices. OFM Empl.       Testimony Tr.
at 52-53.
35 Earlier, on June 18,2010, Ruiz had met with the Directors of Enforcement and OCIE and Gillan
regarding the allocation of future growth to the regional offices. See Exhibits 58 and 82. Gillan reported
the results of that meeting to Chairman Schapiro as follows:

                 OC[IE] is already far along the road in allocating the bulk of new
                 positions to regions (eg, 95 of their 100 tentative 2011 positions were

                                                    36
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.




         Using the most optimistic projections for growth (1,430 nationwide positions)
provided to OAS by OFM on July 7,2010, and assuming that 95 percent of the OCIE
positions and 50 percent of the Enforcement positions included in OFM's projections
would be allocated to regional offices, the 010 calculated 886 new positions at the SEC's
Headquarters as the maximum number of positions that could be derived from the OFM
-projections. The OIO's calculations are illustrated in the following table:


                                                   OFM                      OFM
                                              (Nationwide)36            (Headquarters)

               FY 2011
                  Base Programs                      230                      13437
                  Dodd-Frank                         400                      24638

               FY 2012
                  Base Programs                      400                      272 3 ')
                  Dodd-Frank                         400                      2404U

               TOTAL                                1430                       886


      As discussed below, OAS used OFM's data and projected growth at SEC
Headquarters of 2,449 positions - almost three times the amount of growth at SEC
Headquarters that could reasonably be projected from OFM's data and almost double the
amount ofOFM's projection for nationwide growth.



                 already targeted for the regions) .... Currently, 37 of the 70 2011
                 [Enforcement] positions for 2011 were targeted for regions ...

June 19, 2010 E-mail from Kayla Gillan to Mary Schapiro and Didem Nisanci, attached as Exhibit 82.
36 See July 7,2010 E-mail from OFM Empl.            to OAS Supv. 4 and Sharon Sheehan, attached as
Exhibit 77.
37 OFM projected that 45 of the 230 new positions for base programs in FY 2011 would be allocated to
Enforcement and 77 of the 230 new positions would be allocated to OCIE. !d. [(230-45-77) + (.50 x 45) +
(.05 x 77)] = 134.
38 OFM projected that 120 of the 400 new positions associated with Dodd-Frank in FY 2011 would be
allocated to Enforcement and 105 of the 400 new positions would be allocated to OCIE. ld. [(400-120-
105) + (.50 x 120) + (.05 x 105)] = 240.
39 OFM projected that 85 of the 400 new positions for base programs in FY 2012 would be allocated to
Enforcement and 90 of the 400 new positions would be allocated to OCIE. !d. [(400-85-90) + (.50 x 85) +
(.05 x 90)].                               .
40 OFM projected that 120 of the 400 new positions associated with Dodd-Frank in FY 2012 would be
allocated to Enforcement and 105 of the 400 new positions would be allocated to OCIE. !d. [(400-120-
105) + (.50 x 120) + (.05 x 105)] = 240.

                                                    37
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



         C. OAS Inflated its Calculation of the SEC's Need for Additional Space by
              Overestimating the Projected Growth at SEC Headquarters by
              Approximately 300 Percent

         Sheehan testified to the OIG that the determination that the SEC needed 900,000
square feet of space came from agency leadership: "I was told to have space available for
2,300 employees .... I was asked to get space for 2,300 people .... [L]eadership was
confident that they needed ... space to accommodate approximately 2,300." February 8,
2011 Sheehan Testimony Tr. at 155, 157, 176. The OIG, however, found the opposite to
be true - that OAS was the driving force behind the purported need for 900,000 square
feet of space. First, as discussed in Section III above, in June 2010, the Chairman had
asked OAS to reevaluate its recommendation that SEC Headquarters lease an additional
300,000 square feet because ofthe Chairman's desire to direct as much of the SEC's
growth as possible to the SEC's regional offices. See Exhibit 59. Second, as detailed
below, it was OAS staff that projected growth of over 2,300 positions and represented to
the Executive Director that, accordingly, the SEC needed 900,000 square feet of space.
The Executive Director, in turn, represented to the Chairman that there was an urgent
need to lease that amount of space at Constitution Center.

       As discussed in Section IV.B above, OFM's projections supported, at most, a
need for space to accommodate 886 new positions. OAS, however, decided to lease
enough space to accommodate 2,499 positions - a difference of approximately 280
percent. 41 OAS grossly inflated the estimates of new positions to be added at SEC
Headquarters by employing several artifices discussed in detail below.

              1. OAS inflated its calculation of the need for additional space at SEC
                 Headquarters by including positions in its growth projections that
                 were allocated to the SEC's regional offices.

        For purposes of its calculations regarding the need for additional space, OAS
assumed all ofthe new positions projected by OFM would be allocated to SEC
Headquarters, and none of those new positions would be allocated to the SEC's regional
offices. This assumption was contrary to the Chairman's position communicated to OAS
at the June 17, 2010 meeting, as discussed above, that as much as possible of the SEC's
future growth should occur in the regional offices, not SEC Headquarters.

        After that meeting, Ruiz e-mailed the Enforcement and OCIE directors (copying
Sheehan) and asked "how much of any future (2011 and beyond) Enforcement or OCIE
staffing increases might be directed to the regions vs. DC" and emphasized the requested


                                                            OAS Supv.                 OAS Supv.
41             ulation of2,499 positions was perfonned by 4         . March 29, 2010 4            stimony Tr. at
    OAS Supv. 4
26.             prepared a spreadsheet memo         g his calculations. See Exhibit 75.OAS Supv. 4 subtracted
164 from this 2,499 total to factor in what OAS
                                            4
                                                Supv.
                                                      believed to be empty offices in Station Places One, Two
and Three that could accommodate 164 SEC employees. !d.

                                                       38
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



information would have a "big impact" on OAS's "space planning." Exhibit 58. Ruiz
elaborated as follows:

                 In discussions this morning with Mary [Schapiro]
                 concerning office space needs in the regions and the home
                 office, she raised the question of how much of any future
                 (2011 and beyond) Enforcement or OCIE staffing increases
                 might be directed to the regions vs. DC. . .. The answer to
                 this question will have a big impact on our space planning.
                 Since we are currently in the middle of several lease
                 recompetes in the regions, and also need to make some
                 fast decisions on additional space needs here in DC, I'd
                 like us to get together quickly to talk through these issues.

!d. (emphasis added).

        On July 6,2010, Sheehan asked Johnson for "a sense [of] the numbers of
positions we might be allocating to the regions ... in the next couple of years." See
Exhibit 77 at 2. In response to Sheehan's request, Johnson sent OFM Empl.        the
following July 6, 2010 e-mail:

                 I just spoke with Sharon [Sheehan], and she needs from us
                 a sense as to the numbers of positions we might be
                 allocating to the regions (read OCIE and [Enforcement]) in
                 the next couple of years. Could you send her today or
                 tomorrow morning the file showing our penciled-in
                 numbers for base responsibilities and [regulatory1reform
                 by office for FY 2011 and FY 2012? ... I've explained to
                 Sharon that we haven't shown these to the Chairman's
                 Office yet, and certainly don't know what we'll
                 ultimately receive.

Id. (emphasis added).
                                                     OAS Supv. 4
                         OFM Empl.
        The next day,                e-mailed         and Sheehan (copying Ruiz) OFM's
projections for both of the scenarios described above and explained:

                 These spreadsheets do not differentiate between HQ and
                 regions. They only reflect totals for the exam and
                 enforcement programs. A few weeks ago, I provided you
                 the estimated allocations by regional office, based on
                 information provided by OCIE and [Enforcement] for the
                 FY 2012 Authorization Request process and assumed
                 ratios .... For now, what I provided you previously
                 remains the best estimate for regional allocations we have.

                                                    39
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



ld. (emphasis in original).
                                                    OFM Empl.
        On July 9,2010, Ruiz responded to                               e-mail with the following
direction to Sheehan:

                    Until [Enforcement] and OCIE have their approved
                    positions from the Chairman and they then make
                    allocations to each region, we won't know for sure what the
                    numbers for the regions will be. For planning purposes, I
                    think the best approach might be to take a look at what
                    percentage of total [Enforcement] and OCIE slots each of
                    those regions got this year, and approximate a similar
                    percentage off the 2011 and 2012 [Enforcement]/OCIE
                    numbers. It will be rough, but I think it's what we have
                    now.



                                                    OAS Supv. 4
        However, no one in OAS, including                  or Sheehan, performed the regional
office adjustment in calculating the SEC's space needs at Headquarters that Ruiz
discussed with Sheehan in his July 9, 201              il. See March 29, 2011 Sheehan
                                             OAS Supv.
Testimony Tr. at 31-32; March 29,2011 4                 Testimony Tr. at 33-36. Four days after
Ruiz sent that e-mail to Sheehan, OAS Supv. 4 e-mailed his calculations that clearly ignored
regional allocations to Sheehan and asked for "a sanity check." See Exhibit 87.

         Contrary to the evidence discussed above regarding the need to adjust OFM's
projected growth estimates for a significant allocation of that growth to the regional
offices, OAS Supv. 4 testified that the Chairman had changed her position and decided that
"pushing them out to the regions was not going to happen." March 29,2011 OAS Supv. 4
Testimony Tr. at 23-24. See also, id. at 31 ("they thought about pushing [the 800 Dodd­
Frank positions] out to the regions, but then they said that wasn't feasible"); id. ("we
were told that -- initially, we were talking about pushing more ofthem ... out to the
regions, and then that died off'); id. at 32 ("It was our understanding [the 800 Dodd­
Frank positions] were all coming [to] headquarters"); id. at 33 ("Initially, later on, they
were talking about pushing [the 800 Dodd-Frank positions] to [the regions] ... and they
said that would be impractical at this point"); id. at 36 ("I think they determined later that
they weren't going to push as many out to the regions as they thought."). OAS Supv. 4 even
testified that "it was my understanding [the 630 base program positions projected by
OFM] were for D.C." ld. at 43-44.
      OAS Supv. 4
                testimony that he understood that all of the positions in OFM's
projections would be located at SEC Headquarters is contradicted by two e-mails he

42 As discussed above, the data that Ruiz referred to indicated that 95 percent of the projected OeIE
positions and 50 percent of the projected Enforcement positions would be allocated to the regional offices.

                                                    40
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.


                                                                                OAS Supv. 4

himself sent in July 2010. First, on July 14, 2010, the day after          had sent Sheehan
his chart with the assumption that all FY 2011 and FY 2012 SEC personnel would go to
Washington, DC, OAS Supv. 4 wrote in an e-mail, "The Chairman has stated that she is
considering pushing more staff to the regions instead of increasing the numbers in
Washington. No decision has been made on how the staff would be allocated." July 14,
2010 E-mail from OAS Supv. 4     to former ChiefInformation Officer, Charles Boucher,
attached as Exhibit 84. Second, on July 26, 2010, OAS Supv. 4 sent an e-mail to OAS Supv. 5
discussed in greater detail below, that stated, "OCIE will pick up a total of201 spaces for
[Dodd-Frank]. The assumption is that two thirds ofthe allocation for OCIE (133) will go
to the regions." July 26,2010 E-mail from OAS Supv. 4      to OAS Supv. 5     attached as
Exhibit 85.
                  OAS Supv. 4
        Unlike         , Sheehan acknowledged in her testimony that some of the
positions in OFM's projections would be allocated to the regional offices. March 29,
2011 Sheehan Testimony Tr. at 22. Sheehan also acknowledged in her testimony that she
knew OAS Supv. 4 estimate of new positions at SEC Headquarters had actually included
positions that would be allocated to the regions. 43 !d. at 31-32. Sheehan admitted
understanding that including all of the positions projected by OFM in the calculation of a
space need for SEC Headquarters "would inflate the number." !d. Sheehan defended the
decision to "inflate the number" with nationwide projections by asserting that it offset
OAS's purported underestimation of the number of contractors that would be hired in
connection with those new positions:

                  I remember we made a decision to use the [nationwide
                  projection] for headquarters, knowing that might - that
                  would inflate the number, but we also talked about the
                  contractors at ... 20 percent would probably in reality be
                  closer to 30 percent.

Id. (emphasis added).44 However, as discussed in the next section, the estimate for
contractors OAS used in its space calculation for SEC Headquarters was not an
underestimate; it was itself another factor that overinflated the OAS space calculation.

43  Sheehan testified that OAS "had difficulty getting the breakout, so we could not determine how many of
the [nationwide positions] would go to the regions ... we knew some would go to the regi                 we didn't
                                                                                               OAS Supv.
know how many." March 29, 2011 Sheehan Testimony Tr. at 31. According to Sheehan, 4                      "worked
with OFM Empl.              on [the issue of regional office allocations] for a while, couple weeks, few
weeks." !d. at 17-19. However, as discussed above, OFM Empl.           e-mailed OAS
                                                                                 4
                                                                                    Supv., Sheehan, and Ruiz

OFM's projections on July 7, 2010. See Exhibit 77. OFM's projections allocated a specific number ofthe
new positions to Enforcement and OCIE. Id. In response to OFM Empl.               e-mail.onJuly9.2010.Ruiz
directed Sheehan, "For planning purposes, I think the best approach might be to take a look at what
percentage of total [Enforcement] and OCIE slots each of those regions got this year, and approximate a
similar percentage off the 2011 and 2012 [Enforcement]/OCIE numbers. It will be rough, but I think it's
what we have." !d.
44 On April 22, 2011, Sheehan made a written submission to the OIG to supplement her testimony. April
22,2011 Sharon Sheehan Submission, attached as Exhibit 86. In this written submission, Sheehan
asserted:

                                                       41
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.


                   OAS Supv. 4
        Finally,          testimony that he believed SEC management had decided to
allocate all of the new positions in FY 2011 and FY 2012 to SEC Headquarters and
Sheehan's testimony that OAS did not have any data that would have allowed it to
allocate OFM's projected nationwide growth among SEC Headquarters and the regional
offices are contradicted by the fact that in July 2010, OAS was planning for significant
growth in several ofthe SEC's regional offices.
                                 OAS Supv. 4        OAS
       On July 26,2010,               e-mailed Supv. 5 his projections for growth in various
regional offices for the purpose ofleasing additional space in those offices. See Exhibit
85. Specifically, OAS Supv. 4 explained:

                  OCIE will pick up a total of201 [Dodd-Frank positions].
                  The assumption is that two thirds of the allocation for
                  OCIE (133) will go to the regions. I'm on the limb on this
                  but looking at how numbers have been allocated to
                  regional offices during the FY 2012 projections, I think
                  [the Chicago Regional Office] could pick up and [sic]
                  additional 20 personnel.

                  General Breakdown for [Dodd-Frank positions]

                      [New York Regional Office] - 24% (133 x .24 =32)

                      [Chicago Regional Office] -14% (133 x .14 = 18.62 or 19) Use 20

                      [Boston Regional Office] -11 % (133 x .11 = 15)



            In the May-June 2010 timeframe, the Chairman expressed a desire to place a
            larger percentage of employees in the regional offices than had been done
            previously. ... Diego Ruiz, Kayla Gillan, and I discussed the matter with
            Robert Khuzami and Carlo di Florio. . ..

            Around July 10,2010, Diego sent the OAS/OFM team a message explaining
            that perhaps we should consider using the percentage of ENF and OCIE
            employees assigned to the regions in 2010 as a basis for projecting numbers
            for the headquarters and the regions. By Tuesday of the following week, he
            had changed his direction and asked OAS to assume that all 800 new hires
            associated with the Dodd Frank mission would be housed in Washington,
            DC. At this point, OAS Supv. 4    stood down efforts to calculate percentages,
            and he moved forward to show all 800 new hires as being housed in
            Washington, DC. Based on discussions with ENF and OCIE leadership
            around this time, it was clear to me that ENF and OCIE did not plan to place
            in the regions the 800 employees being hired to support Dodd Frank.

ld. As discussed below, contrary to Sheehan's assertion that after mid-July 2010,OAS
                                                                                   4
                                                                                       Supv.
                                                                                             "stood down
efforts to calculate percentages, and he moved forward to show all 800 new hires as being housed in
Washington, DC," on July 26,2010, OAS 4
                                         Supv. was planning for significant growth in several regional offices.



                                                      42
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



                   Looking at [Enforcement's] base request for 2012, [the
                   Chicago Regional Office] gets about 7.5% of the total.
                   Enforcement is allocated 240 spaces for [Dodd-Frank].
                   Again, lout the limb [sic] on this but 7.5% of240 would
                   equal 18.

                   With the bold assumptions above, [the Chicago Regional
                   Office] could grow by approximately 40 positions with
                   [Dodd-Frank].

!d. (emphasis added).

    OAS Supv. 5                  OAS Supv. 4
                  responded to

                   Thanks, OAS Supv. 4.......... so, recognizing the "bold
                   assumptions", shall I add more square footage to the
                   Chicago requirement beyond the 2012 numbers and
                   document the file with the below? I haven't added any
                   [Dodd-Frank positions] in (for OCIE or [Enforcement]) to
                   the other regional offices yet either. Would there be any
                   expected additional increases for LA, Denver and Miami?

Id. (ellipsis in original). OAS Supv. 4 responded that OAS
                                                       Supv. 5 should plan on the Los Angeles

Regional Office adding 27 permanent positions, the Miami Regional Office adding 23
permanent positions, and the Denver Regional Office adding 15 permanent positions. !d.

         As the following table illustrates, by ignoring the fact that many of the new
positions projected by OFM would be allocated to the regions, OAS Supv. 4 projected 1,505
new positions in FYs 2011 and 2012 at SEC Headquarters instead of the 886 positions
that, as discussed above, he should have projected by accounting for growth in the
regional offices:




                                                   43
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General.
  Recipients of this report should not disseminate or copy it without the Inspector General's approval.




                                                        OFM                         OAS
                                                   (Headquarters)45            (Headquarters )46

                  FY 2011
                     Base Programs                          134                        301 41
                     Dodd-Frank                             240                         400

                  FY 2012
                     Base Programs                          272                        404'115
                     Dodd-Frank                             240                         400

                  TOTAL                                     886                        1505




  45   The calculation of the OFM Headquarters numbers is described in Section IV.B, above.
  46   See Exhibit 75.
                             OAS Supv.
  47 For some reason that 4            could not explain, he used 301 for the FY 2011 base program positions
            of the 230 nationwide positions projected by OFM. See Exhibits 75 and 77. In a chart prepared by
OAS Supv. 4
            and e-mailed to Sheehan on July 13,2010,OAS  4
                                                            Supv. described the 301 numb             estimate of
  "FY2011 Budget Request for New FTEs plus." Exhibit 87. During his testimony, OAS         4
                                                                                               Supv.
                                                                                                     was unable to
  explain what he meant by "plus." March 29,2011 OAS     4
                                                             Supv.
                                                                    Testimony Tr. at 54-55. OAS Supv. speculated that
                                                                                            4
  the additional 71 positions related to "people in Station Place who were going to be moving over here that
  we didn't account for, OHR, the personnel security group, the labor relations [group], some elements from
  [the Office ofInspector General]." Id. However, OAS   4
                                                            Supv.
                                                                   had previously acknowledged that Station Place
  Three had accommodated all of those employees and still had space available for some of the FY 2011
  positions. January 28,2011 OAS 4
                                     Supv.
                                           Testimony Tr. at 84-89,106-108. Sheehan testified that she did not
  know why 301 had been used by OAS for the projected FY 2011 base program positions instead of the 230
  figure provided by OFM.March 29, 2011 Sheehan Testimony Tr. at 32, 36.
 OAS Supv. 4
                         d his projection of301 FY 2011 base program positions as "provided by OFM." See
   Exhibit 75. OAS Supv. 4 attempted to explain that error as follows: "I had a previous sheet, and it had 'reg
   reform budget request plus,' and somehow that got - and I have it on my computer. But I couldn't figure
   out what that plus [sic], and I deduced that that's what happened." March 29, 2011 OAS     4
                                                                                                 Supv. Testimony Tr.

   at 55.
      OAS Supv. 4
   48             could not explain why he used 404 for the FY 2012 base program positions instead of the 400
   positions projected by OFM. See Exhibits 75 and 77. It appears that OAS   4
                                                                                 Supv. took this 404 figure from a

   May 7, 2010 e-mail from OFM. See Exhibit 51. As discussed above, that e-mail projected the number of
 . total new positions at SEC Headquarters for FY 2012 based solely on the SEC's Authorization Request for
   that year. This projection was superseded by the July 7, 2010 e-mail OFM sent to OAS     4
                                                                                                Supv. that he used for

   the all of the other numbers in his spreadsheet (except as noted above at n. 37).


                                                          44
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



             2. OAS inflated its calculation of the need for additional space at SEC
                Headquarters by unnecessarily including an estimate of contractors in
                its growth projections and then overestimating the number of those
                positions by 200 percent.

        The OAS estimate of new positions that would need space included an estimate of
the number of contractors that would be hired in connection with the projected growth in
permanent positions. See Exhibit 75. The OAS estimate of contractors assumed a ratio
of contractors to permanent positions of 20 percent. Id. That estimate was a gross
overestimate of the number of contractors that needed to be included in OAS' s space
calculation. As discussed below, the estimate ignored the data from several sources that
OAS had gathered that the ratio of contractors to permanent positions was only 10
percent.

         Moreover, as discussed above, OAS Supv. 4 estimated the amount of rentable square
feet needed for the SEC's projected growth by allotting 400 rentable square feet per
position. See Section IV.A. The 400 square foot standard itself incorporated a factor of
10 percent for associated contractors and temporary staff. Id. Accordingly, there was no
justification for adding contractor positions to OFM's projections of permanent new
positions for the purpose of calculating the amount of space needed for the SEC's
projected growth.

         Ruiz testified that, in estimating space needs of900,000 square feet for the SEC,
the SEC kept non-permanent staff categories "kind oflow." Ruiz Testimony Tr. at 65-
66. Ruiz testified that contractors "have been, in recent years, historically around 30 to
35 percent of agency - of the fed workforce for us. We calculated it at only 20 percent
just to be conservative and not assume, you now, a higher number." !d. at 66. Similarly,
Sheehan testified that ~AS's space calculations were "probably underestimating the
number of contractors coming in." March 29, 2011 Sheehan Testimony Tr. at 25.
                                    OAS Supv. 4
        According to Sheehan,               was responsible for the 20 percent estimate. Id. at
                               OAS Supv. 4
26-27,34. She testified that                 tually looked at data, and that's how he came up
with the 20 percent." Id. at 34. OAS Supv. 4 testified, however, that it was both he and
Sheehan who decided to employ the 20 percent ratio for OAS' s space calculation. March
29,2011 OAS Supv. 4 Testimony Tr. at 28, 77-78. OAS Supv. 4 described how he and Sheehan
arrived at that estimate as follows:

                 Q: [W]here did you determine that 20 percent was the best
                    number to use [for the contractor ration]?

                 A: I think in a discussion with Sharon ...


                 Q: ... How did you come up with 20?


                                                    45
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



                 A:    ... 1think Sharon and 1 came up with the number.

                 Q: But how, pick the number out of a hat?

                 A: It was an estimate. It was an estimate.

                 Q: But how did you estimate it? Why did you pick 20?

                 A: It was an estimate. That's all 1 can say.

                 Q: Well, okay. Did you and Sharon just sit at the table
                    and say, "What do you think the percentage of
                    contractors here is at headquarters?" "Well, 1 think it's
                    about 20." Or did you look at any actual numbers of
                    current staffing, historical staffing, staffing requests?
                    Nothing was looked at, just "I think it's about 20"?

                 A: Contractors are driven by dollars.

                 Q: Okay. Yes or no? Did you look at any numbers, any
                    data to derive the 20 percent, or was it just an estimate
                    that you guys came up with on your own?

                 A: We knew that OIT had 70 percent of its workforce as
                    being contractors.... So that's -- that's kind of how
                    we looked at that, saying it's probably about 20
                    percent.

                 Q: Because OIT is 70, so that somehow translates to the
                    rest of the divisions are 20?

                 A: Well -- and then others. And it goes up and down.

                 Q: Was OIT going to move to Constitution Center?

                 A: 1 don't believe so.

                 Q: So do you recall looking at any data specifically to
                    come up with the 20 percent?

                 A: 1 do not. 1 do not recall.




                                                   46 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



!d. at 77-78. The OIG found that although OAS Supv. 4 ignored it, there was abundant data
that the contractor ratio was 10 percent. 49
                                                      OAS Supv. 4
            In early June 2010, Sheehan asked               to work with OAS Supv. 2
                       Space Management & Mail Operations, and "pull together numbers or
factors to represent [fellows, contractors, and interns]." See June 8, 2010 E-mail from
Sharon Sheehan to OAS Supv. 4            , attached as Exhibit 88; see also OAS Supv. 2 Testimony Tr.
at 22. Accordingly, OAS Supv. 2 sought information from various offices and divisions at the
SEC regarding the number of contractors that they employed. See June 8, 2010 e-mail
from OAS Supv. 2          to OAS Supv. 4      . Exhibit 89. On June 8, 2010, OAS Supv. 2 forwarded
OAS Supv. 4
            the information that he had obtained as of that date. !d. OAS Supv. 2 reported that the
SEC's two largest divisions, Enforcement and OClE, employed 73 and 10 contractors,
respectively. !d. In his e-mail, OAS Supv. 2 brought to OAS Supv. 4 attention the fact that the
number of Enforcement contractors (73) was less than the initial information he had
received (87). !d. OAS Supv. 4 responded, "I feel like I'm losing ground with each piece of
addition[sic] information.... We may be in trouble with the contractors." Id.
         OAS Supv. 2
                       responded to OAS Supv. 4   concern:

                       This is a moving target. We just need to figure out the
                       story that you want to tell and focus on that. The basic
                       numbers don't lie. It's only when you start
                       compartmenting that things break down ... We can get
                       there, but I feel there is a specinc story that you or Sharon
                       [Sheehan] want to tell and I just am not sure what that is.

Id. During his OIG testimony, OAS Supv. 2 explained his e-mail, "[Y]ou can make the
numbers say what you want. And it's really just a matter of, okay, what path are we
going down here? And you use those numbers to build the statistics." OAS Supv. 2 Testimony
Tr. at 29.

       On June 10,2010, OAS Supv. 2 requested from OIT a "worst case" estimate ofOIT
contractors at Station Place:

                       We are looking at space requirements and I need to get a
                       quick count of how many OIT FTE and OIT Contractors
                       you currently have at [Station Place] and how many of each
                       category (FTE and Contractor) you plan to have at SP

49 The OIG found that Sheehan had wanted to use a ratio of30 percent for contractors. See June 13,2010
E-mail from OAS Supv. 2         to OAS Supv. 4   ; Exhibit90;March29,20ll Sheehan Testimony Tr. at 31-32
("[W]e also talked about the contractors at ... 20 percent would probably in reality be closer to 30
percent.") However,OAS 4
                           Supv. testified that he and Sheehan discussed the issue and "in our discussion, we

felt that ... 30 [percent] was too high." March 29, 2011 OAS4
                                                                Supv.
                                                                      Testimony Tr. at 28. OAS Supv. 4 did prepare
an alternative spreadsheet that assumed a contractor ratio of 30 percent. See Exhibit 91.


                                                        47
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



                     between now and 2012. Please provide this to me as
                     quickly as possible as this impacts what I need to brief
                     Diego [Ruiz] on regarding current and future overall space
                     requirements. Give me your worst case numbers please.

June 10,2010 E-mail from OAS Supv. 2          to OIT Empl.  attached as Exhibit 92.
OAS Supv. 2
        explained that by asking for "worst case numbers," he was seeking the highest
possible estimate. OAS Supv. 2 Testimony Tr. at 37.
                                              OAS Supv. 4
        On June 12, OAS Supv. 2 informed             , "Right now, based on the Contractor
numbers I have at [Station Place], I can justify us using a 10%, Contractor to Position,
factor." June 12,2010 E-mail from OAS Supv. 2               to OAS Supv. 4  attached as Exhibit
                     OAS Supv. 2        OAS Supv. 4
93. Also on June 12,              asked             about asking the SEC Security Branch for
"information on Contractors who have badge/full-time access." June 12,20
                                                                                   OAS Supv. 2
from OAS Supv. 2     to OAS Supv. 4       attached as Exhibit 94. In this e-mail,
queried:

                     What are the numbers that OAS Supv. 5    is looking for on
                     the [Needs Assessment]? We came up with a number, but I
                     heard her tell Sharon [Sheehan] she needed it to be larger.
       OAS Supv. 2
Id. 50        testified regarding his understanding of why OAS
                                                           Supv. 5 needed the number to be

larger, "[W]hat I understand she was trying to do was to make sure that whatever size
lease she entered into was enough to meet our needs. And I think that in this case, if we
were going to take the whole building, the numbers needed to be larger." OAS Supv. 2
Testimony Tr. at 56.
                                                            OAS Supv. 4
              The next day, June 13, OAS Supv. 2 e-mailed                 about the data and stated:

                     I don't know if [the numbers] get you where they need to
                     be .... If Sharon wants us to use a 30% factor for
                     contractors, that will be a larger number than I have used
                     based on the data I've received on HQ, which is 10%. I've
                     tried to grasp the logic used for getting to our immediate
                     need and I'm just not smart enough to grasp it; so, again, I
                     hope this data gets you where you need to be.

June 13,2010 E-mail from OAS Supv. 2                  to OAS Supv. 4        , attached as Exhibit 90.

        Ultimately, OAS Supv. 4 and Sheehan ignored all of the data that OAS Supv. 2 had gathered
during the first two weeks of June 2010 that indicated the correct contractor ratio was 10

                                                    OAS Supv.
50 As discussed above, the previous day - June 11 5        had sent an e-mail regarding the "[i]rnmediate
need ... to work up a revised Needs Assessment .... to support the Justification for Unusual and
Compelling Authority being used for [the contemplated lease] acquisition." See Exhibit 55.

                                                      48
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipie.nts of this report should not disseminate or copy it without the Inspector General's approval.



percent. Moreover, as discussed above, when OAS Supv. 4 estimated the amount of rentable
square feet needed for the SEC's projected growth, he allotted 400 rentable square feet
per position. See Section IV.A. The 400 square foot standard he used already
incorporated a factor of 10 percent for associated contractors and temporary positions.
Id. Accordingly, there was no need to add an additional number of contractors to the
estimate of permanent new positions for the purpose of calculating the amount of space
needed for the SEC's projected growth, because they had already been accounted for in
the 400 square foot standard.
         OAS Supv. 4
                  further inflated his calculation of space by adding contractors using a 20
percent ratio. By adding contractors at a 20 percent ratio, a figure arbitrarily established
by him and Sheehan and double the actual ratio they had been provided, OAS Supv. 4 added
301 contractor positions 51 to his already overinflated estimate of 1,505 p         nt
positions, 52 for a total of 1,806 positions.

                  3. OAS inflated its calculation of the need for additional space at SEC
                     Headquarters by unnecessarily including an estimate of interns and
                     temporary staff in its growth projections and then overestimating the
                     number of those positions by approximately 300 percent.

        The OAS estimate of new positions that would need space included an estimate of
the number of interns and temporary staff that would be hired in connection with the
projected growth in permanent positions. See Exhibit 75. The OAS estimate of interns
and temporary staff assumed a ratio of 16.5 percent (nine percent for interns and 7.5
percent for temporary staff). Id. Similar to ~AS's unjustified addition of contractor
positions, it was not necessary to include an estimate of these temporary positions in
~AS's space calculation, and the 16.5 percent ratio ignored the data from several sources
gathered by OAS that the actual ratio was approximately five percent.

    OAS Supv. 4
                  testified that he "recommended a certain percent [for interns and
temporary staff] when I was briefing Sharon [Sheehan] and Diego [Ruiz]." March 29,
2011 OAS Supv. 4 Testimony Tr. at 84. According to Ruiz, "[O]n interns and temps I think we
likewise went a little low there although I can't remember the specific numbers," as part
of "our attempt to just be more on the conservative side." Ruiz Testimony Tr. at 66.
         OAS Supv. 4
                 contradicted Ruiz's testimony that the OAS estimate of interns and
temporary staff was "a little low ... to just be more on the conservative side." OAS Supv. 4
testified that he based his estimate on data provided by the SEC's Office of Human
Resources ("OHR"): "[OHR] gave us the numbers of interns and temps. And then we
came up with what we consider an estimated percentage. ... And I think it probably

   OAS Supv.
51 4       added 60 contractor positions for FY 2011 base programs; 80 positions for FY 2011 Dodd­
Frank programs; 81 positions for FY 2012 base programs; and 80 positions for FY 2012 Dodd-Frank
programs. See Exhibit 75. [60 + 80 + 81 + 80] = 30l.
52 See Section IV.C.1, above.


                                                   49
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office ofInspector General.
  Recipients of this report should not disseminate or copy it without the Inspector General's approval.



  was a litt          e than what they gave us or ... somewhere in the ballpark." March
            OAS Supv.
  29,2011 4            Testimony Tr. at 79-80 (emphasis added). OAS Supv. 4 could not explain
  why he used an estimate that was higher than the data provided by OHR. !d. at 81.

           In fact, the 010 found that OAS Supv. 4 estimate of interns and temporary staff
  positions was not merely "a little more" than what OHR provided; it was approximately
  300 percent more. On July 16, 2010, OHR Empl.                         a management program analyst in
                        OAS Supv. 4
  OHR, e-mailed                     "the [peak] numbers [for interns and temporary staff] we
  discussed earlier this afternoon" for FYs 2005 to 2010. July 16, 2010 E-mail from
 OHR Empl.
              to OAS Supv. 4         , attached as Exhibit 95. 53 OHR Empl.  told the 010 that she
            OAS Supv. 4
  recalled               had called her because "he wanted to know how to come up with the
  number of interns ... and how many temporaries we had." OHR Empl. Interview Tr. at 4.
  For the six fiscal years of data that OHR Empl. provided, the ratio of peak interns and
  temporary staff to permanent staff ranged from approximately four to seven percent. 54
  See Exhibit 95. The ratio in FY 2010 was approximately five percent of peak staff -less
  than one-third of the 16.5 percent ratio that OAS Supv. 4 ultimately used. Id.

          As discussed above, OAS Supv. 4 estimated the amount of rentable square feet needed
  for the SEC's projected growth by allotting 400 rentable square feet per position. See
  Section IV.A. The 400 square foot standard itself already incorporated a factor of 10
  percent for associated contractors, interns, and temporary staff. Id. Accordingly, there
  was no need to add interns and temporary staff positions to the estimate of permanent
  new positions for the purpose of calculating the amount of space needed for the SEC's
  projected growth. By doing so,OAS Supv. 4 added 248 positions 55 to his already overinflated
  estimate of 1,806 permanent positions 56 for a total of 2,054 positions.

                      4. OAS inflated its calculation of the need for additional space at SEC
                         Headquarters by unnecessarily adding an "inventory" factor to its
                         calculations and then doubling its own standard for that factor.
              OAS Supv. 4
                   space needs chart also increased the amount of space requirement for
  every person to be hired in FY 2011, FY 2012, and FY 2013 by 10 percent for
  "inventory." Exhibit 75. OAS Supv. 4 testified that inventory is "vacant offices you have for
  expansion and unanticipated growth, that kind of thing." March 29,2011 OAS Supv. 4
       OAS Supv. 4
  53               estified that he thought Sheehan had directed him to get the data from OHR Empl. March 29,
          OAS Supv.
  2011    4         Testimony Tr. at 85-86.
  54   The data OHR Empl. provided OAS   4
                                             Supv. was presented in a column titled "Peak Temporaries." See Exhibit
      OHR Empl.
  95.               told the OIG that the "Peak Temporar                 a included both temporaries and paid interns.
OHR Empl.
               Intervi           t 4,7. OHR Empl.    e-mail to OAS
                                                               4
                                                                   Supv.
                                                                          actually referenced "the intern program" (see
  Exhibit 95), and OAS 4
                           Supv.
                                 acknowledged in testimony that he had un                  the "Peak Temporaries" data
  provided by OHR Empl. "probably" included interns. March 29, 2011OAS            4
                                                                                     Supv.
                                                                                           Testimony Tr. at 84-85.
     OAS Supv. 4
  55              added 25 intern and 25 temporary staff positions for FY 2011 base programs; 36 intern and 30
  temporary staff positions for FY 2011 Dodd-Frank programs; 36 intern and 30 temporary staff positions for
  FY 2012 base programs; and 36 intern and 30 temporary staff positions for FY 2012 Dodd-Frank programs.
  See Exhibit 75. [25 + 25 + 36 + 30 + 36 + 30 + 36 + 30] = 248.
  56   See Section IV.C.2, above.

                                                           50
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.


                          OAS Supv. 4
Testimony Tr. at 69.          described it as "standard for the industry" to add between
eight and 13 percent for "inventory." Id. at 69-70.
                                            OAS Supv. 4
        However, as discussed above,          estimated the amount of rentable square
feet needed for the SEC's projected growth by allotting 400 rentable square feet per
position. See Section IV.A. The 400 square foot standard itself incorporated an
inventory factor of five percent. Id. Accordingly, there was no need to add another 10
percent inventory factor (which was double the five percent factor already included) to -
the estimate of new positions for the purpose             lating the amount of space needed
                                                           added 150 inventory positions 57 to
                                              OAS Supv. 4
for the SEC's projected growth. By doing so,
                                                     58
his already overinflated estimate of2,054 positions for a total of2,204 positions.

               5. OAS inflated its calculation of the need for additional space at SEC
                  Headquarters by arbitrarily adding positions for FY 2013 to its
                  growth projections.

      According to OAS Supv. 4 and Sheehan, their space calculation was based solely on
OFM's projections for growth. January 28,2011 OAS  4
                                                       Supv.
                                                             Testimony Tr. at 43; February
8,2011 Sheehan Testimony Tr. at 117. OAS Supv. 4 testified emphatically:

                  [W]e didn't act on anything until we got the numbers ....
                  We planned on the basis of what came from OFM on 2011,
                  2012, and Dodd-Frank. That's what we acted on. We
                  didn't act on anything else. We didn't have a basis for
                  acting on anything else.
                    OAS Supv. 4
January 28,2011          Testimony Tr. at 43 (emphasis added). However, the OIG
found that the OAS estimate of new positions that would need space included an
assumption that, in FY 2013, the SEC's appropriation would increase by 50 percent of
the agency's FY 2012 budget request. See Exhibit 75.

        This assumption was arbitrary and unsupportable. OAS Supv. 4 explained the basis for
the assumption as follows: "We were trying to be strategic, and we just basically divided
the base year by half just to see if we could project some space requirements." March 29,
2011 OAS Supv. 4 Testimony Tr. at 68. OAS Supv. 4 elaborated:

                  Sharon [Sheehan] and I suggested that we look ahead to
                  come up with at least some projection for the future... I
                  think Sharon and I agreed that we just split the budget year
                  for 2012 in half just as a - just to project - and again, so

   OAS Supv.
57 4       added 30 inventory positions for FY 2011 base programs; 40 positions for FY 2011 Dodd-Frank
programs; 40 positions for FY 2012 base programs; and 40 positions for FY 2012 Dodd-Frank programs.
See Exhibit 75. [30 + 40 + 40 + 40] = 150.
58 See Section IV.C.3, above.


                                                     51
This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



                 that we would book a little bit more in the future, not be
                 looking for space again.

!d. at 69.

      Sheehan, however, testified that she did not know who added the FY 2013
assumption to the OAS projections or their basis for doing so. February 8, 2011 Sheehan
Testimony Tr. at 149. Specifically, Sheehan testified:

                 Q: And then there's four asterisks, and it said "estimated
                    at half of the budget request for 2012." ... What do
                    you understand to be the reason that that was the
                    methodology used to project for fiscal year 2013?

                 A: I don't know.

                 Q: Andwho-

                 A: I don't know.

                 Q: Who came up with that idea?

                 A: I'm not sure. I -- I think that that would be a question
                     for OAS Supv. 4 . He runs the numbers and works with
                    OFM Empl.
                                            and OFM.

                 Q: Okay.

                 A: They may have had a discussion. I don't know.

Id.

       As further evidence of it being arbitrary and unsupported, the OIG found that
~AS's inclusion of its FY 2013 assumption was contrary to the SEC's planning and
budget process. According to Johnson, the SEC does not plan for personnel growth more
than two years ahead. Johnson testified:

                 Q: And so, formally speaking, how does the SEC project
                    future growth in its personnel? How does that process
                    work?

                 A:   ... So starting around this time each year, we need to
                      start planning for two years out. And so this is part of
                      what is called our authorization request, which is
                      required by law.

                                                   52
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General's approval.




 Johnson Testimony Tr. at 13.

            More specifically, Johnson testified concerning conversations with Ruiz in July
 2010:

                   Our expectation, and Diego [Ruiz] and I were of the same
                   mind about this, that if there was a change in control of one
                   or both houses to a party that was less favorably disposed
                   to growth or federal spending, still the likely outcome
                   would have been that ... the House and Senate have already
                   agreed on what the [funding] number is in the committees,
                   and that something would have passed in a lame duck
                   session before the next Congress would have taken control.


                   [T]hat was our best guess for 2011. And then certainly all
                   bets are off for 2012,2013, and that process hadn't played
                   out.

 !d. at 68-70. Similarly, Gillan testified that "we collectively thought that ... our budget
 outlook looked pretty positive ... for the following fiscal year. We did recognize that it
 would probably - at some point the pendulum would stop swinging in that direction, but
 we thought we had at least another fiscal year." Gillan Testimony Tr. at 22.
                                                    OAS Supv. 4
            Based on the FY 2013 assumption,           assumed that the SEC would add
  another 202 permanent positions that year and again assumed that all of those positions
  would be allocated to SEC Headquarters. See Exhibit 75. After making the same
  unfounded additions, discussed above, for contractors and other temporary personnel,
OAS Supv. 4
            added a total of295 positions 59 for FY 2013 to his already overinflated estimates
  of2,204 positions60 for FYs 2011 and 2012 for a total of2,499 positions.

            D. OFM's Growth Projections Supported a Need to Lease Only
               Approximately 300,000 Square Feet

       As discussed above in Section IV.B, based on OFM's projections for FY 2011
 and FY 2012, the SEC may have needed additional space at Headquarters for 886
 permanent positions. In July 2010, there was vacant space at Station Place to
 accommodate 164 of those positions,61 leaving 722 positions to accommodate by leasing

    OAS Supv.
 59 4        added 40 contractor positions for FY 2013 base programs; 20 positions for inventory; 18
 positions for interns; and 15 positions for temporary staff. See Exhibit 75. [202 + 40 + 20 + 18 + 15]   =
 295.
 60 See Section IV.CA, above.
 61 See Exhibit 75.


                                                      53
   This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
   disclosure to third parties. No redaction has been performed by the Office of Inspector General.
   Recipients of this report should not disseminate or copy it without the Inspector General's approval.



   additional space. Consequently, using the 400 square feet per person standard as it was
   intended, the SEC had a need for 288,800 square feet. 62

           The 400 square foot standard included a contractor, intern and temporary staff
   factor of 10 percent based on the staffing in regional offices. As discussed above, OAS
   data indicated that factor might be as high as 15 percent at Station Place (10 percent for
   contractors and five percent for interns and temporary staff). Similarly, as discussed
   above, the 400 square foot standard included an inventory factor of five percent but OAS
   had decided to employ an inventory factor of 10 percent for SEC Headquarters.
   Accordingly, it may have been reasonable to adjust the space calculation for
   Headquarters by 10 percent (an additional five percent for contractors, interns and
   temporary staff and an additional five percent for inventory). That adjustment would
   result in a space need of 31 7,680 square feet. 63

           However, OAS Supv. 4 used his overinflated estimate of 2,499 positions to calculate a
   space need of934,000 square feet. 64 OAS Supv. 4 presented his calculations in a spreadsheet
   that he discussed with Ruiz and Sheehan on July 20,2010. See Exhibit 75; March 29,
   2010 OAS Supv. 4 Testimony Tr. at 26. OAS Supv. 4 testified that he used his spreadsheet to brief
   Ruiz on "the numbers, my methodology, and what the strength requirements were," and
   that he understood that Ruiz was then going to use this information to brief the Chairman.
   March 29, 2010 OAS Supv. 4 Testimony Tr. at 26-27.

            Ruiz acknowledged that he had reviewed and discussed OAS Supv. 4 spreadsheet and
   the underlying assumptions. Ruiz Testimony Tr. at 60. Ruiz testified that "we all poked
   and prodded and tried to get comfortable with the numbers that we used [to arrive at the
   900,000 square-foot space need], given the uncertainty inherent in where we were
   deriving them from. ... We looked at these numbers a lot and kicked them around a
   10t.,,65 Id. at 64-65. Sheehan also acknowledged that she had "many discussions" about

   62  [(886 - 164) x 400] = 288,800.
   63  [288,800 x l.l] = 317,680.
                          OAS Supv.
   64 See Exhibit 75. 4              subtracted the 164 positions that Station Place could accommodate to arrive at a
   purported need for space to accommodate the remaining 2,335 positions. [2,335 x 400] = 934,000.
                                                                                               OAS    OAS Supv.
   65 During one meeting in mid-June 2010, attended by Ruiz, Sheehan, OAS Supv. and Supv. 5 4                   attempted
                                                                                 4
   to explain the methodology for his growth projections. See Exhibit 96; June 9, 2009 E-mail from OAS          Supv. 4
OAS Supv. 4 to OAS Supv. 2          attached as Exhibit 97. During this meeting, OAS
                                                                                   Supv. 5 made the following
   regarding Ruiz's reaction:

              -- frustrated still grappling wi #s

              -- don't understand the methodology ...

              -- need to be consistent in data

              -- don't know what #s to trust?

   Exhibit 96.


                                                            54
This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



        spreadsheet and the underlying assumptions. 66 March 29,2010 Sheehan
OAS Supv. 4


Testimony Tr. at 20.
              OAS Supv. 4
                   spreadsheet clearly illustrated that the purported need for 934,000
square feet was based on all ofthe false assumptions discussed above - i.e., that all of the
SEC's growth for the next three fiscal years would occur at SEC Headquarters;67 that
there would be 36.5 contractors, interns and temporary staff for every 100 permanent
positions, and that each one ofthem would utilize 400 square feet;68 that in addition to
the five percent inventory factor included in the 400 square foot standard, the SEC
needed an additional 10 percent reserved for inventory; and that the SEC would receive
an increase in its appropriation for FY 2013 equal to one-half ofthe FY 2012 increase.
!d.

              E. The Executive Director Used OAS's Grossly Inflated Estimate as the
                 Basis for His Representation to the Chairman that Constitution Center
                 was the Only Building that Could Accommodate the SEC's Projected
                 Growth

       On Friday, July 23,2010, Ruiz met with Chairman Schapiro, Nisanci, and Gillan
to recommend that the SEC lease 900,000 square feet of space at Constitution Center.
       OAS Supv. 5
                  testified that Ruiz "was giving OAS Supv. 4         a bit of run for his money, frustrated that the
numbers weren't telling him what he needed him to tell him ... [I]t was kind of a convoluted presentation
as I recall, and Diego [Ruiz] was frustrated." January 31,2011 OAS      Supv. 5 Testimony Tr. at 155-156. Ruiz
testified that OAS
               Supv. 5   notes may have referred to his "uncertainty" in one of his meetings with OAS as to
what "the specific source" of the numbers was, "[a]nd it was not clear to me what was being counted and
what was not." Ruiz Testimony Tr. at 48. Sheehan testified that Ruiz was concerned "that the numbers
continued to move," and that she s                is concern. February 8, 2011 Sheehan Testimony Tr. at 147.
                                        OAS Supv.
66 One week before that briefing, 4               e-mailed Sheehan a chart labeled "Headquarters Projections"
with many of the miscalculations and false assumptions used to recommend to the Chairman that the SEC
lease 900,000 square feet of space at Constitution Center. July 13, 2010 E-mail from OAS Supv. 4                to
Sharon Sheehan, attached as Exhibit 87. In the e-mail accompanying this chart, OAS          4
                                                                                                 Supv. asked Sheehan,

"Will you have some time tomorrow to help with a sanity check on the attachment? 1 know time is of the
essence." !d. OAS
                4
                     Supv. testified that Sheehan and he then met and "[w]e went over the numbers and where

they came from and all of that." March 29,2010 OAS       4
                                                             Supv.
                                                                   Testimony Tr. at 87. Sheehan acknowledged that
she had reviewed and discussed this chart with OAS Supv. 4 March 29,2010 Sheehan Testimony Tr. at 35.
67   Ruiz testified that he understood that some of the numbers being used to calculate the SEC's space
needs in Washington, DC were from the OFM nationwide projections. Ruiz Testimony Tr. at 61-63.
However, when asked ifhe understood the space calculation need for 900,000 square feet of space was
based in part on the assumption that all 800 Dodd-Frank positions would be located in Washington, DC,
Ruiz replied, "I'm not sure. I'm not sure ifI did." Id. at 63-64.
68 The assumption in OAS Supv. 4 calculation that each contractor, intern and temporary employee would
utilize the same amount of space as a permanent employee was another unfounded and incorrect factor that
contributed to the gross overestimation of the SEC Headquarters space needs. Sheehan acknowledged that
SEC contractors "aren't in a 150 or 300 square foot office. They're in cubicles, some eight-by-six, some
eight-by-eight, some eight-by-tens .... So that 400 [square foot per person standard] may work for FTE,
but it may not work for contractors." February 8, 2011 Sheehan Testimony Tr. at 89-90. OAS Supv. 2 testified
that "very few" SEC contractors even have offices. OAS Supv. 2 Testimony Tr. at 54. OAS      4
                                                                                                  Supv.
                                                                                                        acknowledged
that interns do not use as much office space as professional staff. March 29, 2011 4 Supv. Testimony Tr. at
                                                                                               OAS

81.

                                                         55
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



July 23,2010 E-mail From Diego Ruiz to Sharon Sheehan, attached as Exhibit 98; Ruiz
Testimony Tr. at 75. 69 The day before Ruiz's meeting with Chairman Schapiro and her
staff, Sheehan e-mailed Ruiz, "When you talk with the Chairman, please highlight that
we are in a competition with other agencies for [Constitution Center]. It's the only
facility on the market in DC that can accommodate our growth." July 22,2010 E-mail
from Sharon Sheehan to Diego Ruiz, attached as Exhibit 99. The day of Ruiz's meeting
with the Chairman, OAS
                    Supv. 5 received an e-mail from DNA stating that it expected to submit

a Final Revised Proposal to GSA for a possible lease of space at Constitution Center to
NASA "not long [after]" August 5, 2010. July 23,2010 E-mail from OAS Supv. 5          to
Sharon Sheehan, attached as Exhibit 100.OAS5
                                              Supv.
                                                    forwarded this e-mail to Sheehan and
wrote, "Urgency is required." Id.

        Ruiz testified that at his meeting with the Chairman and her staff, "we went
through the numbers for the 2012 request, the projections for the space need, the fact that
the buildings that we had been discussing up until that point [other than Constitution
Center] were in the 250 to 300,000 square feet range." Ruiz Testimony Tr. at 75. Ruiz
also testified that this meeting included a discussion of "the likelihood of the 2011
appropriation, the markup numbers." Id. at 75-76.

         Ruiz testified that he recommended that the SEC enter into a lease for 900,000
square feet at Constitution Center, and that the Chairman approved this recommendation.
Id. at 76. Ruiz did not recall Chairman Schapiro or her staff asking any questions at the
meeting. Id. Ruiz testified that, in this meeting, he conveyed urgency in making a
decision quickly because Constitution Center was "the only one in town that had the
requisite amount of space, and it was, at the time ... participating in several other leasing
competitions with other agencies. And so there was some urgency presented by the fact
that it might get snatched up." Id. at 77.

        Chairman Schapiro testified regarding the July 23 rd meeting with Ruiz:

                 I remember explicitly being told there really wasn't any
                 other space available that could fulfill our needs and that
                 there was a time - a sense of we were about to lose this.
                 We had lost other space that we had apparently indicated an
                 interest in and that we were about to lose this. So there was
                 a sense of urgency on their part.

Id. at 14.




69  Sheehan testified, "I told [Ruiz] how much space he would ... have to have to house that many
contractors and FTE, explained to him that the only facility in town that could house them all in one
location was Constitution [Center]. 1 gave him the information. He went to [the Office of the Chairman] to
brief it." February 8, 2011 Sheehan Testimony Tr. at 168.

                                                   56
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before 

disclosure to third parties. No redaction has been performed by the Office of Inspector General. 

Recipients of this report should not disseminate or copy it without the Inspector General's approval. 




         Gillan recalled the July 23,2010 meeting with Ruiz and its genesis as follows:

                 Diego [Ruiz] came in to me and said that he needed to see
                 Mary [Schapiro] quickly because he needed to make a
                 quick decision on Constitution Center. That the other
                 possible space opportunities had evaporated, gone to
                 others, were no longer available. And that this one was
                 really all that was left and that we needed to act quickly.

                 I walked him into [Chairman Schapiro's] office to see if
                 she had time. She did, and we had a very brief meeting.

Gillan Testimony Tr. at 13-14.

           Gillan estimated that the meeting lasted approximately ten minutes. Id. Gillan
  testified that Ruiz represented in this meeting that there was "an immediate need to make
  a decision. All the other options that we had previously discussed ... weren't on the table
  anymore. And [the] representation that he thought [leasing 900,000 square feet of space
  at Constitution Center] was a good thing that we should do ... quickly." Id. at 14-15.
  Gillan testified that, although Ruiz had documents with him to which he referred in this
. meeting, Ruiz did not share any of the documents with anyone else at the meeting. !d. at
  15. Gillan testified that Chairman Schapiro's response to Ruiz's recommendation to 

  lease 900,000 square feet of space at Constitution Center was, in substance, "Well, if 

  that's what we need to do, I guess we need to do it." Id. at 27. 


         Gillan testified that Ruiz did not explain in the July 23,2010 meeting, or at any
other time, that his assertion that SEC Headquarters needed an additional 900,000 square
feet was predicated, in part, on the assumption that all of the agency's new positions in
FY 2011 and FY 2012 would be allocated to Headquarters. Id. at 17. Gillan testified
that, "[I]n fact, that's inconsistent with what I had understood, because ... [Chairman
Schapiro] specifically said that, to the extent possible, she wanted new hires to go to the
regions. Id. Gillan explained that Enforcement "was planning to [add] some headquarter
employees, but mostly in the region[s]. And OCIE was planning to have almost all of
their new hires in the regions." Id. at 18.

       Gillan also testified that Ruiz did not explain in the July 23,2010 meeting, or at
any other time, that his assertion that SEC Headquarters needed an additional 900,000
square feet was predicated, in part, on OAS's projections of significant growth in FY
2013. !d. at 18-19. Similarly, Gillan testified that it was never conveyed to her or, to her
knowledge, Chairman Schapiro, that Ruiz's assertion that SEC Headquarters needed an
additional 900,000 square feet included a 36.5 percent factor for contractors, interns and
temporary positions (although Gillan did understand that the 900,000 square feet was
designed to accommodate permanent and contractor positions). Id. at 19-20.



                                                    57
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



      Reflecting on the fact that Ruiz's recommendation was predicated on those
assumptions, Gillan testified:

                  Q: [D]o you think that, if you knew then some of the
                     things that we've talked about today in terms of [OAS
                     and the Executive Director] not taking such a
                     conservative approach, sort of inflating the numbers,
                     assuming all the positions were in Washington, DC. If
                     you ... and the Chairman had been given that
                     information, you might have come to a different
                     decision going forward with the Constitution Center
                     lease?

                 A: I think it's quite certain that we would have.

Id. at 28-29. Gillan emphasized that, "[W]e relied on the square footage that was being
represented as necessary. As truly being necessary, documentable, legitimate .... We
thought that those people whose job it is to do these things were ... taking steps necessary
to minimize the risk." Id. at 32.
                                                                                    OAS Supv. 4   OAS Supv.
         On July 23,2010, at 3:06 p.m., Ruiz sent an e-mail to Sheehan,     and 5
stating, "Met with Chairman this morning, and we have her approval to move forward."
Exhibit 98.

        F. Contrary to Representations Made in the Meeting With the Chairman,
           There Was No Urgency to Lease Space Sufficient to Accommodate the
           SEC's Projected Growth

        On July 23,2010, when Ruiz represented to the Chairman that (1) Constitution
Center was the only building in Washington, DC that could accommodate the SEC's
projected growth and (2) the SEC had to act fast or ConstitUtion Center might soon not
have sufficient space because of other agencies' interest in the building, the 010 found
there were actually two buildings within walking distance of Station Place that could
have accommodated the new positions projected by OFM during FY 2011 and FY 2012.
In addition, as discussed below, Constitution Center itself would have remained an option
for months to accommodate that projected growth.

        As discussed above, the SEC needed 288,800 square feet to accommodate the FY
2011 and FY 2012 growth projected by OFM. In July 2010, there were two buildings
within walking distance of Station Place, Sentinel Square and 1100 1st Street, NE, with
over 288,800 square feet of available space. 70 Moreover, both of these properties offered
the ability to accommodate additional expansion in the future. 7 !

                                                 OAS
70 Both of these buildings had been identified by Supv. 5 in May 2010 as options for SEC expansion. See
June 2, 2010 Market Survey Information, attached as Exhibit 60. They were two of the four buildings that

                                                    58
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office ofInspector General.
  Recipients of this report should not disseminate or copy it without the Inspector General's approval.



              Sentinel Square

          Sentinel Square is located at 90 K St., NE, three blocks from SEC Headquarters.
  See Exhibit 60. The building has been described as meeting "Level IV security protocols
  and is expected to get a Gold Leadership in Energy and Environmental Design." Tierney
  Plumb, NoMa's 90 K St. NE lands Customs Agency, Washington Business Journal, June
  30,2010, attached as Exhibit 101.
                                OAS
              In June 2010, Supv. 5 and other SEC managers toured the Sentinel Square building
   with Thomas Finan, the Managing Director of the Trammell Crow Company, Sentinel
   Square's owner. See Finan Interview Memorandum. During this tour, Finan explained to
OAS Supv. 5
            that the Sentinel Square property included a planned second phase and that,
   consequently, in addition to the 291,000 square feet of space immediately available to the
   SEC, there was another approximately 290,000 square feet of space that could be
   available two years later. Jd. 72

              On July 7,2010, Finan wrote in an e-mail to OAS Supv. 5

                          I thought I should reach out to you to let you know that you
                          may see some press/ads on two deals at 90 K Street this and
                          next week; specifically, the 85,000 sq. ft. Customs &
                          Border Protection and 36,438 sq. ft. US Parole Commission
                          deals. More importantly, I want to confirm for you that
                          these are the two deals that we discussed as "pending"
                          when we toured the property just after Memorial Day. As
                          such, neither of these deals has reduced the amount of
                          space that I currently have available at 90 K Street for
                          SEC's consideration (still ~292k sq. ft.)

  July 7, 2010 E-mail from Torn Finan to OAS Supv. 5                 attached as Exhibit 102.


  OAS
        had presented as options during her June 17, 2010 presentation to the Chairman, discussed above.
  Supv. 5
  Also, as discussed above, the Chairman had expressed at the meeting her preference for any expansion at
  SEC Headquarters to be within walking distance of Station Place.
            OAS Supv. 4
                    testified that Constitution Center was the only feasible option for the SEC because it was
  the only building identified in the SEC's survey that could deliver the swing space required by the SEC in
  less than one year. January 28,2011 OAS 4
                                              Supv. Testimony Tr. at 93-94. OAS Supv. 4 testimony is contradicted

  by the results of the OAS market survey, which indicated that Sentinel Square and 1100 1st Street, NE
  could deliver the swing space OAS required immediately or in a matter of weeks. See Exhibit 60.
  71 Chairman Schapiro testified that, if she had been aware when she approved Ruiz's recommendation to
  lease Constitution Center that there were other buildings within walking distance of the SEC where the
  agency could have leased approximately 300,000 square feet with the option to lease additional space in the
  future, she "without a doubt" would have considered those alternatives. Schapiro Testimony Tr. at 16.
  72 The planned phase two at Sentinel Square that would create another 290,000 square feet was also noted
  in a June 30, 2010 Washington Business Journal article. Exhibit 101.

                                                        59
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office ofInspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General's approval.


                                                                                       OAS
         Nine days after receiving Finan's e-mail, on July 16, 2010, Supv. 5 e-mailed
 Sheehan and OAS Supv. 4 that, "We lost most of the other new building downtown at 90 K
 Street [Sentinel Square]. Customs and Border Control took 85,000 SF." July 16, 2010
 E-mail from OAS Supv. 5        to Sharon Sheehan and OAS Supv. 4             , attached as Exhibit 103.
                           OAS Supv.           OAS Supv. 2     OAS Supv. 4
 Then on July 19, 2010,5             e-mailed              and             and stated, "We already lost
 1100 1st Street and 90 K Street (the two new buildings in the neighborhood).,,73 July 19,
 2010 E-mail from OAS Supv. 5          to OAS Supv. 2           attached as Exhibit 104.
                                                                           OAS
         On July 21,2010, Finan reiterated in an e-mail to Supv. 5 that, "The two deals in the
 press recently were the two I mentioned as 'pending' when we toured the building
 together - specifically, Customs & Border Protection (85,000 [square feet]) and US
 Parole Commission (36,000 [square feet]) .... this sti11leaves us with 291,000 [square
 feet] remaining on floors 1, 2, and 6-12." July 21, 2010 E-mail from OAS Supv. 5      to
 Tom Finan, attached as Exhibit 105.
         OAS Supv. 5
                  July 16 and 19, 2010 e-mails are puzzling because if she understood the
 SEC's Headquarters to need an additional 280,000 to 315,000 square feet as she had
 represented to Chairman Schapiro on June 17,2010, (see Exhibit 57), Finan had clearly
 told her that the Customs and Border Control's lease did not cha       he availability of
                                                                  OAS
 Sentinel Square to meet the SEC's needs. On the other hand, if Supv. 5 understood that the
 SEC needed approximately 900,000 square feet as OAS Supv. 4 was calculating at that time,
 (see Exhibit 75), then Sentinel Square was not an option regardless of the Customs and
 Border Control's 85,000 square foot lease. 74

            1100 1st Street, NE

         A November 8, 2010 press release described the newly-constructed building at
  1100 1st Street, NE as follows:

                       Located two blocks from the New York A venue Metro
                       station on the Red Line, the 12-story building at 1100 First
                       Street has achieved LEED Gold Certification. NoMa's first
                       all-glass building offers floor-to-ceiling glass windows,
                       three levels of below-grade parking, an on-site fitness
                       facility and an outdoor plaza. Designed by Krueck and
                       Sexton, 1100 First Street is the first of a two-phase
                       project that will total approximately 705,000 square

                                                OAS Empl. 2
 73   Also on July 19,2010, OAS Supv. 5 e-mailed            information regarding the terms of the Custom and
              ntrol's lease at Sentinel Square and stated, "Looks like a pretty decent deal." Exhibit 106.
OAS Empl. 2
             responded, "Looks very good!" !d.
     OAS
  74 Supv. 5 may have not wanted to consider Sentinel Sq              s an option for the agency's expansion due to a
  personal distaste for the building or Finan. On June 8, OAS  Supv. 5 wrote in an e-mail to
                                                                                             OAS Empl. 2
                                                                                                         "Tom Finan
  (Trammel Crow) for 90 K Street called to follow up and inquire more into our timing (as he has other
  proposals). Blech! ... I wouldn't reach out unless we needed something." June 8, 2010 E-mail from
OAS Supv. 5      to OAS Empl. 2           attached as Exhibit 107.

                                                          60
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General's approval.



                    feet. The second phase will include an identical mirror
                    building on the adjacent parcel.

 "Veterans Affairs Signs Lease with Tishman Speyer in NoMa," November 8, 2010 NoMa
 Business Improvement District Press Release, attached as Exhibit 108 (emphasis added).

         On July 12, 2010, OAS
                            Supv. 5 e-maile           handSheehanthat11001 st Street.NE "is
                                            OAS Supv. 4


 out of the competition for us [due to recent leasing activity for approximately 100,000
 square feet] ... rendering it unable to meet our requirement, should we come back on
 line." July 12,2010 E-mail from OAS Supv. 5          to Sharon Sheehan and OAS Supv. 4 ,
 attached as Exhibit 109. However, according to Daniel Dooley, Managing Director,
 Tishman Speyer Properties - the owner of 1100 1st Street, NE - there was approximately
 320,000 square feet of space available as of July 31, 2010. See Dooley Interview
 Memorandum. Moreover, that amount of space remained available until approximately
 two weeks after Labor Day. Id.

           Constitution Center

         As discussed below, the SEC negotiated the contract for 900,000 square feet at
 Constitution Center in three business days, signing the contract on July 28,2010. On
 July 27, 2010, the SEC staff involved in that negotiation discussed the fact that they had
 "no bargaining power" because "Sharon [Sheehan] wants this signed tomorrow." See
 July 27,2010 E-mail from OAS Supv. 5     to OGC Atty 2   andOGC Atty 1      , attached as
 Exhibit 110. As discussed below, the OAS staffs sense of urgency was due solely to
 their fear that NASA, which was in discussions with DNA regarding a potential 605,000
 square foot lease, would sign such a lease before the SEC, leaving only approximately
 800,000 available square feet at Constitution Center. Apparently, that result would have
 been unacceptable to Sheehan. 75

          However, apparently OAS understood that NASA could not have had signed a
 lease for space at Constitution Center before September 2010. On July 19, 2010, OAS   Supv. 5 e­

 mailed OAS Supv. 4 , "Revised proposals were sent by Constitution [Center] to GSA last week
 on the NASA deal (605,000 SF), with [Department of Homeland Security] (900,000+ SF)
 still out there ([solicitations for offers] out). [Best and final offers] are expected by


 75   On July 2,2010,OAS  Supv. 5 e-mailed Sheehan that "the nicer quadrant" at Constitution Center "is being
  offered to NASA (they mayor may not win)." July 2, 2010 E-mail from Sharon Sheehan to OAS Supv. 5
  andOAS Supv. 4        attached as Exhibit 111. Sheehan responded, "This stinks. There's nothing we can do at
  this point." Id. When Sheehan learned in September 2010 that another agency was interested in
  approximately 225,000 of the remaining 500,000 square feet at Constitution Center and that the SEC might
          prepared to exercise its right of first refusal in order to prevent that development, she chastised
OAS Supv.
5         "This absolutely is NOT how it was explained to me at the time we agreed to take [Constitution
  Center]." September 18,2010 E-mail from Sharon Sheehan to OAS Supv. 5               and OAS Supv. 4   attached as
  Exhibit 112. OAS
                 Supv. 5   testified that "Sharon was always   hoping that we  wouldn't have anybody else in the
  building. That w            ld be able to ultimately justify the need for the whole building or something."
  January 31,2011 OAS Supv. 5 Testimony Tr. at 178.


                                                         61
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



mid August on the NASA deal, with award in September.,,76 Exhibit 104 (emphasis
added). More importantly, if the SEC had been seeking no more space than was
reasonably necessary to accommodate the growth projected by OFM for FY 2011 and FY
2012, according to the owner of Constitution Center, the SEC probably had "months"
before that space became unavailable at Constitution Center. J aroch Interview
Memorandum at 1.

          G. The SEC Signed an "Un-Negotiated" Contract for 900,000 Square Feet at
             Constitution Center Five Days after Receiving the Chairman's Approval

        As discussed above, at 3:06 p.m. on Friday, July 23,2010, Ruiz informed
Sheehan and OAS Supv. 5 that the Chairman had given the staff approval to begin negot         a
                                                                                          OAS
lease for 900,000 square feet at Constitution Center. On Sunday, July 25, 2010, Supv. 5 e­
mailed OGC Atty 2 "We received Chairman approval for the DC project. ... Need to move
really fast. ... My concern is losing the building to GSA for NASA, as [best and final
offers] are being requested next week. I feel a strong need to lock it down while our
lease details are worked out." July 25,2010 E-mail from OAS Supv. 5         to OGC Atty 2
attached as Exhibit 113. Negotiations ensued at a rapid pace.

        On Tuesday, July 27,2010, Timothy Jaroch, DNA Managing Partner, e-mailed
OAS
Supv. 5"I'll ... email you my draft Term Sheet shortly ... The draft does not have the
extensive reference to FAR that your draft Letter Contract does, but that's more a product
of my trying to move at warp speed, so please feel free to add in whatever you feel is
appropriate."         27,2010 E-mail from OGC Atty 1       to OAS Supv. 5    attached as
                OAS
Exhibit 110. Supv. 5 responded, "My draft contract letter at least got me a pretty
guaranteed market rate (which I have to have), by referencing the NASA [solicitation for
offers]. I would assume you would give me as good of a rate and likely better for taking
more space, right?" !d.

        However, due to the perceived "[n]eed to move really fast" to avoid "losing the
building" to NASA, OASSupv. 5 did not insist that the SEC be given the same terms as GSA
had negotiated in connection with a possible NASA lease at Constitution Center. Id. On
July 27,2010, OAS
              Supv. 5 informed
                                  OGC Atty 2
                                             and OGC Atty 1                            77
"[DNA is not] going to give me the NASA deal. I can query them about it, but I don't
think I have much leverage there. ... How can I get the NASA deal? I don't see it
happening and Sharon wants this signed tomorrow." Exhibit 110. OGC Atty 1 responded:

                  Just looking for their best price. Ifwe can't get it .... As
                  long as we document it is a fair price. I don't see why we

76   Timothy Jaroch, DNA Managing Partner, confirmed that in July 2010, there were no other interested
agencies, including the Department of Homeland Security, that could have signed a lease before the SEC or
NASA. Jaroch Interview Memorandum at 1.
77 OGC
   2
       Atty
            and OGC
                1
                    Atty
                         are the Office of General Counsel attorneys responsible for legal issues relating to
SEC leases in the Washington, DC area. See July 12,2010 E-mail from OAS Supv. 5           to OAS Supv. 1
                           OGC Atty                     OGC Atty 1
attached as Exhibit 114; 2          Testimony Tr. at 8;            Testimony Tr. at 8-10.

                                                     62
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



                       can't finish documents tomorrow their offer isn't that bad
                       but doing deal this quickly with no bargaining power. .. It
                       will be headaches later. Guess it can't be avoided.
                                  OAS
(ellipses in original). Id.       Supv. 5   replied:

                       We should discuss how to best mitigate the future
                       headaches. 1 think it will be a decent deal, given all they
                       have to offer in that building. It far outshines [Station
                       Place], and the offered rent, un-negotiated, is less than what
                       we pay at [Station Place].

!d.

        On Wednesday, July 28,2010, OAS   Supv. 5 e-mailed Jaroch, "The term sheet as you

provided did not seem to fully bind us and our intent is to fully bind us on this space for
the SEC." July 28,2010 E-mail from OAS Supv. 5           to Tim Jaroch, attached as Exhibit
                     OAS
115. Later that day, Supv. 5 and J aroch executed the contract committing the SEC to lease
900,000 square feet of space at Constitution Center. July 28, 2010 Letter Contract
("Letter Contract"), attached as Exhibit 116. 78 Johnson testified that when Sheehan
informed him that the SEC had signed the Letter Contract, she told him that it was a
"very nice building," that "there had been a lot of other bidders," and that "we ... should
count ourselves very fortunate and glad to have been the winner." Johnson Testimony
Tr. at 63.
          OAS
          Supv. 5  testified that she was "a little bit" concerned at the speed of the contract
 negotiations, and that "obviously whenever you do a sole source anything, you have less
 bargaining power than when you have got all kinds of time and competition." January
 31, 2011 OAS
            Supv. 5 Testimony Tr. at 165, 176. Regarding the pace of the negotiations,
OAS Empl. 2
              testified, "I was concerned. 1 absolutely was concerned. ... [W]e were
 moving at like lightning speed for a huge amount of space." OAS Empl. 2 Testimony Tr. at
 68. OAS Empl. 2 testified that OASSupv. 5 "bore the brunt of the pressure ... [v]isibly - I'd go in

 there, and some days she, you know, either wanted to cry or wanted to pull her hair out or
 whatever." [d. at 70. OGC Atty 2 acknowledged that the speed at which the Constitution
 Center lease was negotiated was "certainly unusual ... in comparison to a normal fully
 competed lease ... " OGC Atty 2 Testimony Tr. at 15.

       The Letter Contract stated that the SEC has "a requirement of unusual and
compelling urgency to obtain approximately 900,000 rentable square feet ... of additional
headquarters space in Washington, DC." Exhibit 116 at 1. The contract set a multiphase
delivery schedule in which Phase 1, approximately 350,000, would be delivered no later

   OGC Atty         OGC Atty
78 2       and 1       testified that they reviewed the Letter Contract before it was signed. OGC Atty 2
Testimony Tr. at 21; 1 Atty Testimony Tr. at 25. Ruiz testified that the Chairman's office was not apprised
                      OGC

of the negotiations for Constitution Center. Ruiz Testimony Tr. at 78-79; Gillan Testimony Tr. at 24.

                                                       63
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



than September 2011; and Phase 2, approximately 550,000, would be delivered no later
than September 2012. Id., Attachment 1 at 2. The contract stated that "the SEC's
interests require that [DNA] be given a binding commitment so that the space required
WIll be committed to the SEC and initial build out for the Phase 1 space          ommence
                                                                          OAS
immediately ... " Id. at 1. The lease term in the contract was ten years. Supv. 5 estimated
the costs associated with leasing and occupying Constitution Center would be
               79
$556,811,589. See July 21,2010 E-mail from OAS Supv. 5          to Diego Ruiz, attached as
Exhibit 117.

        The Letter Contract also granted the SEC the right of first refusal for the
remaining approximately 500,000 square feet of space at Constitution Center until
December 15,2010. Exhibit 116, Attachment 1 at 2. If the SEC had exercised this
option, it would have leased the entire 1,400,000 square feet of space at Constitution
Center. OAS
         Supv. 5 testified that OAS wanted a right of first refusal on all of the remaining

space at Constitution Center "because the Congress was throwing money at us" and
"Sharon [Sheehan] was always hoping that we wouldn't have anybody else in the
building. That we would be able to ultimately justify the need for the whole building or
something." January 31,2011 OAS   Supv. 5 Testimony Tr. at 168, 178.



          In connection with the SEC's right of first refusal, Jaroch notified OAS     Supv. 5 on

September 18, 2010, that the Federal Housing Finance Agency ("FHF A") had
approached DNA about leasing 225,000 square feet at Constitution Center and predicted
that FHFA would select a building by the end of October 2010. September 18,2010 E­
mail from Sharon Sheehan to OAS Supv. 5       and OAS Supv. 4          attached as Exhibit 112.
OAS                                             OAS Supv. 4 OGC Atty 1
Supv. 5 forwarded that information to Sheehan,             ,            and OGC Atty 2 and explained,
"FHFA has issued a [request for proposals] for 225K SF at [Constitution Center]. We
will have to be prepared to accept that deal or lose it." Id. Sheehan reacted to the news
as follows, "I'm getting frustrated. As it has been explained to me, we have until mid­
Dec to make a decision." Id.
     OAS Supv. 5
                   responded to Sheehan and explained her understanding of the SEC's right of
first refusal:

                    [T]he right is not a priced option ........ remember we talked
                    about that we would have to pay to keep it "off the market"
                    with a shell rent, and we were'nt [sic] wanting to do that.
                    We agreed to a Right of First Refusal, as we thought we
                    would be refining our overall numbers to see if we could
                    justify more space. The data center or business center
                    options (or associated studies) for going [to Constitution
                    Center] weren't even being discussed back when we did the


79  The Letter Contract set the annual base rent at $44.80 per square foot, escalating to $47.00 for years six
through ten of the lease, and included a Tenant Improvements Allowance of $46.00 per usable square foot.
See Exhibit 116, Attachment 1 at 4-5.

                                                      64
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



                  deal in July. We still had both Alexandria projects going
                  on for those needs. 8o

Id. (ellipsis in original). Sheehan responded, "This absolutely is NOT how it was
explained to me at the time we agreed to take [Constitution Center]. And this is NOT
how Diego [Ruiz] understood the tenns." !d.

        The Letter Contract required DNA to provide 60,000 square feet of "swing space"
furnished with work stations, by October 2010, for the 10-month period until Phase 1
space would be ready. See Exhibit 116, Attachment 1 at 3. The contract stated that the
use of the swing space will be "rent free," but that the SEC will pay DNA $60,000 per
month "as an agreed payment toward Landlord's increased operating expenses (including
security services and utility costs) during the period of use ofthe swing space." Id.

80 Since 1991, the SEC has leased space in Alexandria, Virginia, known as the Operations Center,
occupied primarily by SEC employees who work in an administrative or support capacity, including OAS.
See August 19,2010 Lease Summary, attached as Exhibit 159. An OAS project manager testified that
Sheehan is "really into the way things look; and that's a driving force .... She wants upscale. I don't think
she really liked the [O]perations [C]enter. She was pushing to move out of the [O]perations [C]enter. It
wasn't upscale enough for her." Unidentified Program Manager Testimony Tr. at 12.

        In March 2010, the SEC issued two solicitations for space in Northern Virginia, one for
approximately 150,000 square feet of space for a Business Center, and the other for a Data Center,
purportedly in order to ease overcrowding and anticipated expansion at the Operations Center. See March
31,2010 Solicitations, attached as Exhibit 161; February 8, 2011 Sheehan Testimony Tr. at 90-91, 101.
                                    OAS
         In June 2010, Sheehan and Supv. 5 discussed cancelling the Northern Virginia Business Center plan
and relocating their operations to Constitution Center. See June 14,2010          l from OAS Supv. 5 to
Sharon Sheehan, attached as Exhibit 118. Specifically, on June 14,2010, OAS
                                                                          Supv. 5 e-mailed Sheehan:


            How serious are you about considering a larger consolidated effort in DC vs.
            the dual offices in Alexandria?

            Should we add that square footage in and abandon? One thought is that if
            that is our real requirement, then the other buildings being offered downtown
            go away, absent a phased occupancy for the other 150,000 [square feet] at a
            later date, of which 2 of the new buildings can build another building
            (already permitted ), and of course Constitution Center can house now.

Id. An OAS employee testified that at some point he saw plans for senior OAS managers, including
Sheehan, to move to a lOth floor office at Constitution Center with what was described in a meeting as a
"great view" of the Potomac River. Unidentified Employee 1 Testimony Tr. at 14-15.

         On January 6, 2011, after DNA had found new tenants for approximately 550,000 square feet that
the SEC had contracted for at Constitution Center, Ruiz wrote in a memorandum that, "From February
through September 2011, we will relocate approximately 740 employees and contractors from [the
Operations Center and another building the SEC had leased in Northern Virginia] to" Constitution Center
and Station Place. January 6,2011 Memorandum from Diego Ruiz, attached as Exhibit 162. To date, the
SEC has not leased any new space in Northern Virginia pursuant to its earlier solicitations, and no SEC
employees have moved into the approximately 350,000 square feet that the SEC still has under contract at
Constitution Center. Jaroch Interview Memorandum at 1.

                                                     65
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office ofInspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General's approval.



         v.    The SEC's Constitution Center Contract May Not Adequately Establish
               the SEC's Limitation of Liability

          Section 16.603-4 of the Federal Acquisition Regulation ("FAR,,)81 requires that
 letter contracts include a particular limitation of government liability clause. 48 C.F.R.
 § 16.603-4. The required clause states:

                   LIMITATION OF GOVERNMENT LIABILITY

                   (a) in performing this contract, the Contractor is not
                   authorized to make expenditures or incur obligations
                   exceeding                  dollars.

                   (b) The maximum amount for which the Government shall
                   be liable if this contract is terminated is - - - - -
                   dollars.

 48 C.F.R. § 52.216-24.

         The required limitation ofliability must include "dollar amounts" and those dollar
 amounts "shall be the estimated amount necessary to cover the contractor's requirements
 for funds before definitization. However, [those dollar amounts] shall not exceed 50
 percent of the estimated cost of the definitive contract unless approved in advance by the
 official that authorized the letter contract." 48 C.F.R. § 16.603-2(d).




 81 There is confusion among the SEC staff responsible for leases as to whether the FAR applies to leasing
 activity.
AC, DP




           The SEC's Administrative Regulation for its leasing program, SECR 11-3, adopted in August
 2010, provides little clarity on this point. The regulation states, "To the extent certain Federal Acquisition
 Regulation (FAR) provisions are required by law or statute, the SEC will adhere to them to acquire and
 administer leasehold interests in real property." SECR 11-3, attached as Exhibit 120, at l. The regulation
 also states that the leasing branch will "Consult with the OGC in the event there is uncertainty as to
 whether aFAR provision applies to the leasing program." Jd. at 6. The regulation does provide that the
 leasing branch will "[p]romote the competition requirements of FAR Part 6." Jd.

                                                       66
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



       The Letter Contract for Constitution Center does not adhere to the FAR
requirements regarding limitations ofthe government's liability. Instead, the Letter
Contract provides:

                     2. FAR 52.216-24 LIMITATION OF GOVERNMENT
                     LIABILITY (Modified)

                     In performing this letter contract prior to definitization, no
                     Government funds are authorized to be expended other than
                     rent due upon acceptance of space in accordance with the
                     Lease.

Exhibit 116 at 2.

        Thus, the Letter Contract's limitation ofliability clause does not include a dollar
amount as required by the FAR. 82 Id. Moreover, the generalized description of the
limitation of liability in the Letter Contract is the "rent due upon acceptance of space,"
and may effectively be no limitation at all. OGC Atty 2 acknowledged in his testimony that,
"[O]nce [DNA] delivers the space then the obligation to pay rent starts. That's really
what that clause is saying." OGC Atty 2 Testimony Tr. at 24.

        Accordingly, the letter contract may also violate FAR Section 16.603(d)'s
requirement that the maximum liability be the estimated amount necessary to cover the
contractor's requirements for funds before definitization (since presumably definitization
would take place before rent was due in FY 2012) and Section 16.603(d)'s requirement
that the maximum liability not exceed 50 percent of the estimated cost of the definitive
contract since the maximum liability here, "rent due upon acceptance of space," appears
to be close to the entire cost of the contemplated lease. Thus, the Letter Contract's
limitation ofliability clause can reasonably be interpreted as essentially stating that the
SEC is responsible for the entire amount that would be owed pursuant to the eventual
lease under the terms as agreed upon by OAS.

       VI.        The Justification and Approval for the Constitution Center Sole-Source
                  Contract was Inadequate and was Backdated by One Month

        The Competition and Contracting Act ("CCA") and the FAR provide that "except
in the case of procurement procedures otherwise expressly authorized by statute, an
executive agency in conducting a procurement for property or services shall obtain full
and open competition through the use of competitive procedures." 41 U.S.C. § 253; see
     OGC Atty 1
82          testified that he reviewed the language in the limitation-of-government-liability clause before the
SEC signed the Letter Contract.OGC Atty 1 Testimony Tr. at 25. OGC Atty 1 initially testified that the SEC's
limitation-of-government-liability clause came "straight out of the FAR as to what is to be included in letter
contracts." Id. at 24. Upon reviewing the clause in the SEC's contract for Constitution Center,OGC Atty 1
testified that he recalled there being a dollar amount in the letter contract, and that he was "not sure why I
don't see it there." !d. at 29.

                                                      67
This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



also, 48 C.F.R. § 6.3 ("requir[ing], with certain limited exceptions, that contracting
officers shall promote and provide for full and open competition in soliciting offers and
awarding Government contracts,,).83 However, Subpart 6.3 of the FAR outlines some
limited exceptions to that requirement. Specifically, Subpart 6.3 "prescribes policies and
procedures, and identifies the statutory authorities, for contracting without providing for
full and open competition." 48 C.F.R. § 6.3.

        The FAR exception that was cited as justification for the sole-source Constitution
Center Letter Contract was Subpart 6.302-2. See Justification and Approval for Other
than Full and Open Competition ("Justification and Approval"), attached as Exhibit 121,
at 4. FAR 6.302-2 permits other than full and open competition "when the agency's need
for the supplies or services is of such an unusual and compelling urgency that the
Government would be seriously injured unless the agency is permitted to limit the
number of sources from which it solicits bids or proposals." 48 C.F.R. § 6.3202-2
(emphasis added).

        The Justification and Approval described the additional responsibilities assigned
to the SEC under the Dodd-Frank Act, and then stated:

                      To fulfill these new responsibilities it is necessary to
                      significantly increase full-time staff and supporting
                      contractors by approximately 2,335 personnel to be located
                      at the SEC's headquarters in Washington, DC. However,
                      the SEC's current headquarters is full. Accordingly the
                      SEC has a requirement of an unusual and compelling
                      urgency to obtain approximately 900,000 [square feet] of
                      additional headquarters space in the Washington, D.C.
                      Central Business District, as this is the amount of space
                      required to accommodate the approximately 2,335 new
                      staff and contractors in headquarters.

Exhibit 121 at 2-3. The Justification and Approval asserts that the 900,000 square feet
"must be in a single building or integrated facility to support the SEC's functional
requirements and operational efficiency." ld. at 3.

        OAS Empl. 1
                            OAS Management and Program Analyst, signed the Justification
                                                         84
and Approval as the SEC's Competition Advocate. Jd. OAS Empl. 1 testified that she
reviewed the Justification and Approval, but that "I don't believe 1 had any burning
questions and 1 know 1 signed it fairly forthrightly." OAS Empl. 1 Testimony Tr. at 42.
OAS Empl. 1
            testified that she did not take any steps to verify that the information in the

83 The SEC's own leasing regulation, adopted in August 2010, provides that the Leasing Branch will
"Promote the competition requirements of FAR Part 6." SEC-R 11-3.
84 The FAR requires that "the justification for other than full and open competi tion shall be appf0ved in
writing [by the agency's competition advocate] [fJor a proposed contract over $650,000." 48 C.F.R.
§ 6.304. OAS Empl. 1    serves as the SEC's Competition Advocate. OAS Empl. 1Testimony Tr. at 12.

                                                     68
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.


                                                                         OAS Supv. 5
Justification and Approval was accurate "[0 ]ther than asking                 the
contracting officer, you know, just general questions, 'Is this indeed urgent and
compelling.'" !d. at 42-43.

            When she signed the Justification and Approval, OAS Empl. 1 believed that all 2,335
of the projected future SEC personnel referenced in the Justification and Approval were
related to fulfilling the requirements of Dodd-Frank. Id. at 50. At that time, she was not
aware that funding for that projected growth had not been appropriated. Id. at 44.
OAS Empl. 1
            testified that she did not have an understanding of when the projected 2,335
personnel were expected to be hired. Id. at 49. OAS Empl. 1 acknowledged in testimony that
the timing of the projected growth was relevant to the question of whether there was an
"unusual and compelling urgency" that justified signing the Letter Contract without full
and open competition. Id. at 49-50.
                              OAS Empl. 1
        More importantly,              also acknowledged in testimony that the SEC would
not be "seriously injured" if it lost the opportunity to rent one contiguous building and
had to rent multiple buildings to fill its space needs. Id. at 54-57.

         The FAR requires that a Justification and Approval for Other than Full and Open
Competition be posted publicly "within 30 days after contract award." 48 C.F.R. § 6.305.
The Letter Contract was signed on July 28,2010. See Exhibit 116. Accordingly, the
deadline for publication of the Justification and Approval was August 27,2010. That
deadline passed, and on September 3,2010, the SEC publicly posted the Justification and
Approval on the Federal Business Opportunities website. See Federal Business
Opportunities webpage printout, attached as Exhibit 122. The document was signed by
OAS     OAS Supv. 4 OAS Empl. 1
Supv. 5            ,            and Sheehan. See Exhibit 121. All four signatures were dated
August 2,2010. Id.

            As discussed below, in actuality, the Justification and Approval was not finalized
until September 2, 2010, and substantial revisions were being made up to that date.
OAS      OAS Supv. 4
Supv. 5              , and Sheehan executed a signature page for the document on August 2,
2010, before a draft even remotely close to the final version existed. The OIG found that
OAS Empl. 1
             executed the signature page on August 27, 2010, but subsequently whited-out the
"7" on the date to make it appear that she also had signed the document on August 2,
2010. The actions of the signatories to the Justification and Approval gave the public the
false impression that the document was finalized a few days after the Letter Contract was
signed, and there was only a delay in its publication to the Federal Business
Opportunities website. 85


85 The FAR pennits Justifications and Approvals for Other than Full and Open Competition to be prepared
and approved "within a reasonable time after contract award when preparation and approval prior to award
would unreasonably delay the acquisitions," when "the agency's need for the supplies or services is of such
an unusual and compelling urgency that the Government would be seriously injured unless the agency is
pennitted to limit the number of sources from which it solicits bids or proposals." 48 C.F.R. §§ 6.302-2,
6.303-1 (d). Thus, the signature dates on this publicly posted Justification and Approval may have given the

                                                    69
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



       The OIG found as follows. On July 28, 2010, the same day that the Letter
Contract was signed, OGC Atty 1 e-mailed Sheehan:

                  The next step is to finalize the current draft Justification
                  and Approval in support ofthe deal. If we could get two or
                  so hours of your time tomorrow morning, I think we can
                               OAS Supv. 5
                  help you and                   finish that up. It is important
                  to complete that because we anticipate requests for it
                  shortly.
                                OGC Atty 1
July 28,2010 E-mail from                           to Sharon Sheehan, attached as Exhibit 123.

         On Friday, July 30, OAS
                             Supv. 5 wrote in an e-mail to
                                                           OGC Atty 1
                                                                      and         OGC Atty 2




                  I came in this afternoon to see if we couldn't arrange for a
                  signature page tobe initiated (starting with me I guess), so
                  that once the Justification and Approval is a "go", you will
                  have my signature on it (while I am on leave next week).

                  I understand Sharon [Sheehan] to be out today and Monday
                  [August 2], as well, but Sharon did say that OAS Empl. 1
                  does have a signature stamp for Sharon if needed. I am not
                  sure how soon we want to have the document finalized, but
                  I would like to sign a sheet today perhaps and pdf it to you
                  all for the 'record' should you need it.
                                                                             OGC Atty 2
July 30,2010 E-mail from OAS Supv. 5          to OGC Atty 1     and               attached as
                OGC Atty 1
Exhibit 124.               responded, "Here is the execution page if you want to do executions
and leave to marry up with the final Justification and Approval on Monday when OAS Supv. 5
[OAS
 Supv. 5 is out." Id.
                                                                      OAS Supv.
          On August 2,2010, OGC Atty 1 raised a concern with 4        , OAS
                                                                        Supv. 5 and Ruiz that the

numbers ort a growth projection spreadsheet previously prepared by OAS Supv. 4 did not
match the projected growth numbers discussed in the draft Justification and Approval.
August 2, 2010 E-mail from OGC Atty 1            to OAS Supv. 4 , attached as Exhibit 125.
OAS
Supv. 5 responded, "I did sign a signature page for while I'm out, so when the numbers get

put in, absent any other terminology revisions, it could be signed and completed while
I'm OUt.,,86 Id.


false impression that it was prepared and approved "within a reasonable time" after the July 28, 2010
execution of the Letter Contract rather than over a month after that date.
   OAS                                                                                            OAS Supv.
86 Supv. 5 initially testified that she signed the signature page on August 2,2010. March 29,2010 5
                                                                    OAS
Testimony Tr. at 249. When she was shown the above e-mails,Supv. 5 acknowledged, "I do remember
signing the signature page in advance because the Justification and Approval was being reviewed by so
many people, and everybody was adding tweaks to it." Id. at 252.

                                                     70
 This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General's approval.



         Later that day, Ruiz commented on another draft of the Justification and
 Approval, "I will have edits to this - some inaccuracies in the budget related info, and
 I'm still uncomfortable with stating so definitively how many people we will be hiring,
 when we have                   umbers publicly before." August 2, 2010 E-mail from
                OGC Atty 1
 Diego Ruiz to                 , attached as Exhibit 126.
                                                                         OAS
         Two days later, on August 4,2010, Sheehan informed Supv. 5 and Ruiz via e-mail,
 "The signature page of the Justification and Approval was executed. OGC Atty 1                  is
 going to incorporate Diego [Ruiz's] changes." August 4,2010 E-mail from Sharon
 Sheehan to OAS Supv. 5           and Diego Ruiz, attached as Exhibit 127. On August5, 2010,
 further revisions w               e to the Justification and Approval after an effort to understand
                      OAS Supv. 4
 inconsistencies in                 calculations ofthe SEC's purported space needs. August 5,
                      OGC Atty 1
 2010 E-mail from                          to OAS Supv. 5    atta             bit 128; August 5,
                      OGC Atty 1                                 OAS Supv. 4
 2010 E-mail from                          to OAS Supv. 5   and              , attached as Exhibit
 129.

            On August 11, 2010, the SEC was still gathering important information necessary
 for the Justification and Approval. In an e-mail that day from OGC Atty 1 to OAS
                                                                              Supv. 5 and
OAS Empl. 2
             , OGC Atty 1 wrote:

                  When you meet with Tim [Jaroch], note to him that the
                  SEC has to prepare a Justification and Approval
                  establishing that the price is reasonable. It is required by
                  FAR. There is a section on price reasonableness required
                  by FAR. We have to know the price and terms that he
                  offered in the other deals. Otherwise, we can't certify in
                  the Justification and Approval that the price is reasonable .
                  . . Without this we are going to be in a pickle stating the
                  price is fair and reasonable, and at risk it was not as good as
                  what he offered the other agencies.
                                    OGC Atty 1             OAS Supv. 5         OAS Empl. 2
 August 11,2010 E-mail from                           to                 and
 attached as Exhibit 130.

          On August 12, 2010, OGC Atty 1 circulated another draft of the Justification and
 Approval to Sheehan, OAS  Supv. 5  Ruiz, OAS Supv. 4 OGC Atty 2 and OAS Empl. 1 August 12,2010 E-mail
        OGC Atty 1
 from                    to OAS Supv. 5       attached as Exhibit 131. This draft differed
 significantly from the August 2,2010, and August 5, 2010 drafts. Jd.; Exhibits 125, 126,
 and 129. OAS Empl. 1 responded to receiving the August 12,2010 draft, "Is this now final? I
 still have the signature page, but want to be sure I'm signing the final version." Exhibit
 131.




                                                    71
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General.
  Recipients of this report should not disseminate or copy it without the Inspector General's approval.



        Almost three weeks later, on August 30, 2010, OGC Atty 1 wrote in an e-mail to                 OAS
                                                                                                       Supv. 5

  Sheehan, and OAS Empl. 1

                        This is a reminder that the SEC is supposed to publish the
                        executed Justification and Approval for Constitution Center
                        on [the Federal Business Opportunities website] within 30
                        days of contracting. FAR 6.305(b). The letter contract was
                        executed July 28,2010, and 30 days thereafter is Friday
                        August 27, 2010.

                        I attach the last draft version ofthe Justification and
                        Approval from August 12, which was OK by us in OGC.
                        OAS Supv. 5
                                    already did a signature page. We are ok with this
                        gomgup.

  August 30,2010 E-mail from OGC Atty 1                  to OAS Supv. 5       attached as Exhibit 132.
           OGC Atty 1
                      e-mail prompted OAS
                                        Supv. 5 to ask
                                                       OAS Empl. 1
                                                                   "Do we have a fully executed
  version we can get posted? Not sure who still needed to sign." Id. The next day,
  OAS Empl. 1
              responded to OAS
                           Supv. 5 "I will sign today, however I don't see an estimated value in
  para. 2 which is a requirement of the Justification and Approval. 87 I am assuming it's
  greater than $1 Om and therefore needs [the Senior Procurement Executive's, i.e.
  Sheehan'S] signature?" Id.

            On August 31, 2010, OAS Empl. 1 e-mailed OAS
                                                       Supv. 5 an executed signature page attached

  to a draft of the Justification and Approval. August 31, 2010                   il from OAS Empl. 1
                                                                        OAS Supv.
  to OAS Supv. 5     attached as Exhibit 133. The signatures of 4                 , OAS
                                                                                    Supv. 5 and Sheehan
                                                                     OAS Empl. 1
  on the signature page were all dated August 2, 2010. Id.                          signature was dated
  August 27,2010. Id. As discussed above, OGC Atty 1 had informed OAS Empl. 1 on August 30,
  2010, that the deadline for publication of the Justification and Approval had been August
  27,2010. It is evident from these e-mails that OAS Empl. 1 executed the signature page on
  August 31, 2010, and in fact she was out of the office on August 27,2010. August 27,
  2010 E-mail from OAS Empl. 1             OIG Empl. 2
                                                              attached as Exhibit 134; OAS Empl. 1
  Testimony Tr. at 80.




  87 Section 6.303-2 of the FAR states: "Each justification shall contain sufficient facts and rationale to
  justify the use of the specific authority cited. As a minimum, each justification ... shall include ... [aJ
  description of the supplies or services required to meet the agency's needs (including the estimated value)."
  48 C.F.R. § 6.303-2. Nowhere in the published Justification and Approval for Constitution Center was
  there an estimated value of the lease to which the SEC committed. See Exhibit 121.OGC Atty 1 testified that,
  although the estimated value of the Constitution Center lease is not explicitly in the Justification and
  Approval, the estimated value is "derivable" by computing other data in the Justification and Approval.
OGC Atty 1 Testimony Tr. at 52.




                                                       72
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



            After receiving the signature page from OAS Empl. 1 on August 31, 2010, OASSupv. 5 .
                OAS
observed, "Empl. 1 , 1 noticed that you signed on the 27th .......... is it ok that Sh
[Sheehan] signed before you?" August 31, 2010 E-mail from OAS Supv. 5                 to
OAS Empl. 1
              attached as Exhibit 135 (ellipsis in original). OAS Empl. 1 responded, "Thanks - 1
corrected the original so it shows the 2nd for my signature." Id. On September 1, 2010,
OAS Empl. 1
             e-mailed OAS                                                      OAS
                       Supv. 5 a copy of the signature page she had sent to Supv. 5 the previous

day with the date of her signature altered. September 1, 2010 E-mail from OAS Empl. 1
to OAS Supv. 5        attached as Exhibit 136; see also Exhibit 133. Specifically, the "7" in
what had been "8/27/1 0" was whited-out so that OAS Empl. 1 s signature date appeared as
"8/2/10." Exhibit 136; see also Exhibit 133.
          OAS Empl. 1
                    initially testified that she signed the Justification and Approval on August
            OAS Empl. 1
2,2010.              Testimony Tr. at 59. However, after being shown the documents
described above, OAS Empl. 1 acknowledged that she signed the Justification and Approval
signature page on August 31, 2010, backdated her signature to August 27,2010, and
subsequently altered that date to make it appear that she had signed the document on
August 2, 2010. Id. at 80 and 85. When asked in testimony why she originally signed
the document with an August 27,2011 date if she actually signed it on August 31,2010,
OAS Empl. 1
            replied, "I don't know. That makes no sense to me either." OAS Empl. 1 Testimony
Tr. at 80-81. OAS Empl. 1 testified that she subsequently altered her signature date to August
2 "probably to be consistent with the dates that were presented there by the other
signatures." !d.

            On September 1,2010, OAS    Supv. 5 sent
                                                       OGC Atty 1
                                                                  and OGC Atty 2 additional, significant
revisions to the Justification and Approval. 88 See September 1, 2010 E-mail from OAS Supv. 5
OAS
Supv. 5 to
            OGC Atty 1
                               , attached as Exhibit 137. The next day, September 2,2010, OAS               Supv. 5
              OAS Empl. 1                                                           OGC Atty 2
e-mailed                  "I reviewed my latest clarification edits with                               this
morning and we have accepted the changes. Attached is a clean version for the final
Justification and Approval. Could you include the latest signature page you sent
yesterday with it and perhaps coordinate ... on how/where this gets posted?" September
2,2010 E-mail from OAS Supv. 5                to OAS Empl. 1          attached as Exhibit 138. OAS Empl. 1
responded by sending the latest revised version of the Justification and Approval, along
with the signature pages containing the signatures of OAS Supv. 4, Sheehan, OAS                Supv. 5 and
OAS Empl. 1                                          OAS
             - all dated August 2, 2010 - to Supv. 5 Id. The Justification and Approval was

88   On September 1, 2010, OAS          OGC Atty
                           Supv. 5 sent 1        revisions to the Justification and Approval and explained: .

              I was a bit concerned that the CoStar description was not fully accurate, and
              we visited these buildings (which is publicly known). All my backup
              reflects 6 buildings, of which 2 of them we ruled out do to proximity to SP,
              so I wanted to be sure that got mentioned. ... I also added in the statement
              about the free tum-key swing space, which I think is significant, IF we are
              going to publicize our deal as a comp through this Justification and
              Approval.

September 1, 2010 E-mail from OAS Supv. 5     to OGC Atty 1     , attached as Exhibit 137. CoStar is a
commercial real estate database used to identify properties available for leasing. See Exhibit 121 at 3.

                                                        73
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



posted publicly on September 3, 2010. Exhibit 122. This not only violated the FAR
requirement that a Justification and Approval for Other than Full and Open Competition
be posted publicly "within 30 days after contract award," but also, as discussed above,
gave the false impression that the Justification and Approval was finalized just a few days
after the July 28,2010 signing ofthe Letter Contract when, in reality, the document had
been changed substantially and repeatedly for over a month after the signing ofthe Letter
Contract. 48 C.F.R. § 6.305.
       OAS Supv. 4
                 acknowledged in testimony that, if there are revisions to a document that
he has signed, he "should" go back and sign the document again with the correct date.
March 29,2010 OAS Supv. 4 Testimony Tr. at 96-97. OAS
                                                  5
                                                      Supv.
                                                            testified, "I think probably we
should have re-datedthe signature page." March 29, 2010 OAS     Supv. 5 Testimony Tr. at 271.
In a written statement to the OIG, Sheehan admitted, "Looking back I see that we needed
better version control of the Justification and Approval, and a new signature page should
have been generated." Exhibit 86 at 3. Sheehan also wrote in her statement that, after
her OIG testimony on this issue, she asked two of her subordinates "to establish guidance
and procedures for OAS employees regarding the various aspects of version control.
They are well on their way to completing such guidance, including a requirement for
each Justification and Approval to be numbered and logged in a newly-established
Justification and Approval Log ... " ld.

    VII.      There is Significant Uncertainty Among the SEC Staff Regarding
              Important Requirements in Connection with Government Leasing

        A. OMB Notification

       Appendix B of the United States Office of Management and Budget ("OMB")
Circular No. A-ll states:

                     Agencies are required to submit to OMB representatives
                     the following types of leasing and other non-routine
                     financing proposals for review of the scoring impact:

                     Any proposed lease of a capital asset where total
                     Government payments over the full term of the lease would
                     exceed $50 million. . ..

                     Agencies should submit these proposals to OMB during the
                     conceptual, developmental stage.

Exhibit 139.

        The OIG investigation found that the SEC did not submit to OMB written
notification of the Constitution Center lease, notwithstanding the fact that the total
Government payments committed for the full term of the lease amounted to

                                                   74
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



$556,811,589. We found that there was discussion about providing this written notice,
but confusion about whether it was required and whose responsibility within the SEC it
was to provide it. 89

        Shortly after signing the Letter Contract, the SEC staff began drafting the written
notification for OM                y believed to be required. On August 9,2010, OAS
                                                                                Supv. 5
                        OGC Atty 1
e-mailed OGC Atty 2 and

                 Attached is a red-line (my comments/changes) to a draft
                 version of the OMB Notification ... The other outlying
                 issue is whether Ken Johnson and Diego [Ruiz] want to go
                 formal to OMB on this project, given all the press it has
                 received already, but that is a relationship I don't have
                 privy to [sic], so I would leave that to the ED and OFM as
                 to whether or not this should go out. Be mindful that we
                 did put in our leasing regulation that we would do this type
                 of notification for our projects that happened out of the
                 normal budget cycle, but given the way our appropriations
                 will be handed down without having to go to OMB in the
                 future, perhaps Diego or Ken would prefer a different
                 route. Let me know.
                                                                          OGC Atty 1
August 9, 2010 E-mail from OAS Supv. 5 to OGC Atty 2  and                 , attached as
Exhibit 140. Approximately one month later, on September 7,2010, OAS
                                                                 Supv. 5 asked  OGC Atty 1
                                                                                           :

                 What should we do about the OMB notice and formal
                 Acquisition Plan, etc., while we work to definitize the
                 lease? OAS
                         2
                            Empl.
                                  and I worked up an OMB notification but I
                 don't know ifhe has sent it to you yet or if we should be
                 doing it "post award." I think I was going to draft it up and
                 send it through OAS Supv. 4      and Sharon to see if
                 Diego/Ken Johnson wanted to get with OMB on it.

September 7,2010 E-mail from OAS Supv. 5               to OGC Atty 1        , attached as Exhibit 141.

       On October 5, 2010, OAS sent OGC Atty 2 a draft "Lease Action Summary to OMB."
October 5,2010 E-mail from OGC Atty 2          to OAS Empl. 2      attached as Exhibit 142.
                  OGC Atty 2
On the same day,             sent a revised draft back to ~AS. Id. However, no one at the
SEC ever sent any written notification to OMB regarding the Letter Contract. See April
29,2011 OMB Response to OIG, attached as Exhibit 143; March 29,2011 Sheehan
Testimony Tr. at 37-39.


89 Because of the complexity of this issue, the OIG has not made a final detennination as to whether written
notification was required. The OIG sought the assistance of OMB on this question but was not able to
obtain a definitive answer from OMB.

                                                    75
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



        On November 2,2010, OAS   Supv. 5 e-mailed
                                                    OGC Atty 2
                                                               and OGC Atty 1 : " OGC Atty 2 , after review of
our reg, it looks like as long as we put the funding for the lease in our budget submission,
we don't need to formally notify OMB in any other way (according to our own reg).,,90
                                                      OAS Empl. 2
November 2,2010 E-mail from OAS Supv. 5            to                           , attached as Exhibit
144.

        Sheehan testified that whether, and how, OMB should be notified was discussed
at a meeting with Ruiz, OGC Atty 1 , OGC Atty 2 and OAS Empl. 4 prior to OAS signing the Letter
Contract. March 29,2011 Sheehan Testimony Tr. at 36-37, 39. Sheehan testified that it
was decided that Ruiz and Johnson would contact OMB "to see what we needed to do."
!d. at 37. Sheehan testified that eventually the SEC decided not to provide OMB with a
written prospectus concerning Constitution Center because rent payments were not due
until FY 2012, and Ruiz and Johnson had a discussion with the OMB resource manager
that served as notification. 91 !d. at 37-39. Johnson, however, testified that he did not
know whether the SEC ever notified OMB about the Letter Contract, and that he did not
recall participating in any discussions about notifying OMB about the Letter Contract.
Johnson Testimony Tr. at 77-78. Johnson testified that OFM was not responsible for
notifying OMB, and that the responsibility was either Ruiz's or Sheehan's. Id. at 78.




90  SECR 11-03, an administrative regulation that became effective on August 31, 2010, states that the
leasing branch will:

            Consult with the SPE and the ED to determine whether to prepare a
            notification to OMB regarding a project. General guidelines include: ...

            For ... operating leases, make OMB notifications as follows:

            If Full Time Equivalent (FTE), rent, tenant improvement costs and/or design
            or project management fees associated with increased FTE were included in
            the approved budget for the fiscal year of the effective date of the lease
            action, no notification to OMB is required.

            IfFTE, rent, tenant improvement costs and/or design or project management
            fees associated with increased FTE were NOT included in the approved
            budget for the fiscal year of the effective date of the lease action, notification
            to OMB will be provided using Attachment 2, Notification of Lease Action
            and Attachment 3, OMB Lease Action Summary to OMB, and the project's
            leasing acquisition plan will be attached.
                            OAS
SECR 11-03. Sheehan and Supv. 5 testified that they were not aware ofOMB being consulted in the
preparation of SECR 11-03. March 29, 2011 Sheehan Testimony Tr. at 41; March 29, 2011 OAS     5
                                                                                                  Supv.

Testimony at 238.
91 By contrast, in October of2009, Sheehan and Johnson sent a detailed Lease Prospectus to OMB

concerning its intent to lease space at Station Place Three. October 19, 2009 E-mail from Kenneth Johnson
to OMB Empl. 4         and OMB Empl. 3   attached as Exhibit 145. Ruiz testified that he was not sure whether
the SEC was required to provide a prospectus to OMB concerning the Station Place Three lease, or whether
the SEC decided to do so simply to keep OMB informed. Ruiz Testimony Tr. at 30-31.

                                                      76
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



         The OIG found that Ruiz did have a conversation with OMB Empl. 3       the OMB
budget examiner assigned to the SEC, regarding Constitution Center. However,
according to OMB
             3
                 Empl.
                       that conversation was initiated by her, not Ruiz, after OMB became
aware that the SEC entered into a lease agreement for Constitution Center. OMB' s
                                                                                    OMB Empl. 3
Office of General Counsel provided a written statement to the OIG on behalf of
that stated:

                     OMB Empl. 3
                                 first became aware of the Constitution Center in
                      August 2010 when another OMB examiner reached out to
                     OMB Empl. 3
                                 to ask whether OMB Empl. 3 had any information
                      on the Constitution Center lease.

                       At the time ofthe phone call with the OMB examiner,
                     OMB Empl. 3
                              did not have information on the Constitution Center
                       lease. OMB Empl. 3 then reached out - also in August 2010-
                       to [Diego Ruiz] for information.

April 29, 2011 OMB Response to OIG, attached as Exhibit 143.

        OGC Atty 1
                 testified that he recalled "being concerned" about whether to notify OMB
in connection with Constitution Center, and that he recalled "raising it as a subject that
needed to be investigated and handled by OFM and ED, you know, coordination with ...
OMB, assurance of meeting the scoring requirements, you know, for capital versus
operating leases. I know we raised that with OAS Supv. 5            and Sharon [Sheehan] too."
OGC Atty 1
           Testimony Tr. at 32-33. OGC Atty 1 testified that he could not recall whether the SEC
decided that OMB needed to be advised of the SEC's Constitution Center lease. Id. at
33,35. OGC Atty 2 testified that the SEC needs "to square away with OMB and OFM as to­
that they have approval concerning the action. ... [T]here would need to be comfort as
to ... consultation with OMB in any lease action." OGC Atty 2 Testimony Tr. at 43-45.

        B. The Antideficiency Act

        The Antideficiency Act prohibits officers or employees of the government from
involving the government "in a contract or obligation for the payment of money before an
appropriation is made unless authorized by law." 31 U.S.c. Sec. 1341(a)(1)(B).
Incurring an obligation in excess or advance of appropriations violates the Act, and this is
not affected by the agency's failure to record the obligation. E.g., 71 Compo Gen. 502,
509 (1992); 65 Compo Gen. 4, 9 (1985); 62 Compo Gen. 692, 700 (1983); 55 Compo Gen.
&12,824 (1976); B-245856.7, Aug. 11, 1992. (GAO Redbook at 6-47). Although the
SEC has been granted independent leasing authority statutorily and is generally granted
authority to enter into multiyear leases in its annual appropriations, the GAO has found
that "[t]he existence of multiyear leasing authority by itself does not necessarily tell you
how to record obligations under a lease." (GAO Red Book, 13-127.) Agencies such as
the GSA which have "specific statutory direction" to obligate funds for multiyear leases
one year a time have been distinguished by GAO from agencies such as the Federal

                                                   77
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



 Emergency Management Agency ("FEMA") which do not have such explicit direction.
 Because the SEC, like FEMA, does not have specific statutory direction to obligate funds
 for its multiyear leases on an annual basis, its lease obligations may have to be obligated
 in their entirety at the time they are incurred, and the SEC may thus have violated the
 Antideficiency Act in connection with its commitment to lease space at Constitution
 Center. 92

             The OrG investigation found that the SEC discussed this issue and eventually
 decided that a violation had not occurred. On February 26,2010, OAS Empl. 3                   a Budget
 Analyst in OAS, expressed concern about whether the SEC was complying with the
 Antideficiency Act in connection with its leases. 93 February 26,2010 E-mail from
 OAS Empl. 3
              to OAS Supv. 5       attached as Exhibit 146. OAS Empl. 3 e-mailed OAS
                                                                                 Supv. 5 excerpts from

 Principles ofFederal Appropriations Law, a multi-volume treatise published by GAO
 concerning federal fiscal law, commonly referred to as the "Red Book." Id. Specifically,
 OAS Empl. 3
              sent OAS
                    Supv. 5 the following excerpt:



 92Because of the complexity of this issue, the OIG has not made a [mal detennination as to whether the
 Antideficiency Act was violated. The OIG sought the assistance of GAO on this question and was
 infonned that it was a matter that required significant review by GAO and could be analyzed if brought to
 GAO's attention fonnally. Accordingly, we are recommending that the SEC request a fonnal opinion from
 the Comptroller General on this issue.
 93 The OIG found that the SEC's internal procedures for approving the obligation of funds in connection
 with leases were infonnal and ad hoc. In a discussion regarding obligating funds for the SEC's lease of
 Station Place Three, OAS
                      3
                          Empl.
                                wrote to OFM
                                         Supv.  and Sheehan:
                    OAS Supv. 5
              I think                  is looking for financial approval to proceed with a
              lease that will cost the SEC $134.5M over the IO year tenn. There doesn't
              seem to be a financial approval process to incur this type of obligation. The
              response from OGC was basically this is the way it's always been done.
                                  OAS Empl. 3    OFM Supv.
 February 2,2010 E-mail from                   to               and Sharon Sheehan, attached as Exhibit 147.
 During her OIG testimony, OAS Empl. 3 explained her e-mail as follows:

              Q:   And so when you say, "The response from OGC is basically; 'This is
                   the way it's always been done,'" what does that mean?

              A:   There is another email that -- it's not this one-- that OGC -- where we
                   had asked that question. And OGC had responded .... [B]asically-­
                   that's the way we've always done it is that we've always -- OFM has
                   always made the money available but there doesn't seem to be a fonnal
                   process for saying, you, "Yes, we understand that we will be incurring
                   this obligation, and that's what we want to do."

              Q:   And did you think that was a good process, the way it was for leases at
                   this time as far as approval?

              A:   No. I mean who is designated in the agency to approve that?
OAS Empl. 3
          Testimony Tr. at 55-56. Sheehan testified that she thought it would be "very beneficial" to have a
 practice in which there is a written obligation approval process for leases. March 29,2011 Sheehan
 Testimony Tr. at 48-49.

                                                       78
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.




                      The existence of multiyear leasing authority by itself does
                      not necessarily tell you how to record obligations under a
                      lease. Some agencies have specific statutory direction. For
                      example, the General Services Administration is to obligate
                      funds for its multiyear leases one year at a time. 40 U.S.C.
                      § 585(a)(2). So are the military departments with respect
                      to leases in foreign countries. 10 U.S.c. §§ 2675 (leases
                      for military purposes other than family housing) and
                      2828( d) (military family housing). Absent such authority,
                      you fall back on the general rule that obligations are
                      chargeable in full to appropriations current at the time
                      they are incurred. Thus, in B-195260, July 11, 1979,
                      GAO advised the Federal Emergency Management
                      Agency, which had no-year appropriations but no
                      statutory direction comparable to 40 U.S.C. § 585(a)(2) or
                      10 U.S.C. § 2675, that it could enter into a multiyear
                      lease under its no-year appropriation but that it had to
                      obligate the full amount of its obligations under the
                      lease at the time the lease was signed. Actual payments,
                      of course, would be made periodically over the term of the
                      lease.

Id. (quoting GAO Red Book, 13-127) (emphasis added). OAS          Supv. 5 forwarded
                                                                                    OAS Empl. 3
                                                                                                e­
mail to OGC Atty 2 and OGC Atty 1, and asked, "Trying to figure out where the SEC financial
authority is for my leases." !d.
         OGC Atty 2
                      responded:

                      I know this is "weird" (and somewhat confusing)

                      The fact that you have specific statutory and budget
                      authority to sign multi-year leases (per the appropriations
                      and Exchange Act authority ... ) means you are not
                      violating the Anti-Deficiency Act by signing a multi-year
                      lease ... You are authorized to enter a multi-year lease
                      within the context of year to year funding. But Congress is
                      not under any obligation to fund the SEC or anyone else
                      beyond the current year. So OFM cannot obligate money it
                      does not have and hasn't been appropriated yet. OFM can
                      only certify the money they currently have.

                      If in the future for some reason Congress were not to fund
                      us or prohibit the payment of money for the leases, the
                      landlord would have a claim based upon the lease. But that

                                                    79
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



                 is not your problem. You are authorized by statute to sign
                 the lease. Per your cite to the Red Book ... , we ~ an
                 agency that has "specific statutory direction" (the annual
                 appropriation and Exchange Act).

Id. (emphasis in original).

         The OIG found that the Red Book gives several examples of agencies, such as
GSA and the Department of Defense, that have "specific statutory direction." See GAO
Red Book at 13-127, excerpts attached as Exhibit 148. GSA's leasing authority states
that "The Administrator of General Services may enter into a lease agreement ... for the
accommodation of a federal agency... However ... the obligations of amounts for a
lease under this subsection is limited to the current fiscal year for which payments are
due without regard to [the Antideficiency Act]." 40 U.S.C. § 585(a). A statute governing
the Department of Defense states that a military department may lease properties in
foreign countries for purposes other than military family housing, and that "the rental for
each yearly period may be paid from funds appropriated to that military department for
that year." 10 U.S.C. § 2675. The Red Book states further that absent such specific
statutory direction, "you fall back on the general rule that obligations are chargeable in
full to appropriations current at the time they are incurred." Exhibit 148.

            The statute granting the SEC independent leasing authority states:
 "Notwithstanding any other provision oflaw, the Commission is authorized to enter
 directly into leases for real property for office, meeting, storage, and other space as
 necessary to carry out its functions, and shall be exempt from any General Services
 Administration space management regulations or directives." 15 U.S.C. § 78d. Unlike
 the GSA and DOD leasing authority statutes, nothing in the SEC's leasing authority
 statute states in substance that "the obligations of amounts for a [multi-year] lease [are]
 limited to the current fiscal year for which payments are due without regard to [the
 Antideficiency Act]." !d.; 40 U.S.c. § 585(a). Similarly, although the SEC's
 appropriation from Congress for FYI0 states that the money being appropriated is,
 among other things, for "the rental of space (including multiple year leases) in the
 District of Columbia and elsewhere," nothing in this appropriation gives the SEC specific
 authority to obligate the funds on an annual basis, or in any manner oth
                                                                            OGC Atty 1
 permitted by the Antideficiency Act. See August 6, 2010 E-mail from                       to
OAS Supv. 5           OGC Atty 2
                  and               attached as Exhibit 149.

        The Red Book cites a GAO decision in which the Federal Emergency
Management Agency ("FEMA") was found not to have been given the "specific statutory
direction" referenced in the GAO Red Book at 13-127. See Exhibit 148. FEMA, like
the SEC, was given independent statutory authority to lease property, which, in FEMA's
instance was described as the authority to "purchase, lease, or otherwise acquire ... any
property (real, personal, or mixed ... )." 15 U.S.C. § 2218(b)(3). Also like the SEC's
authorizing statute, this statutory authority did not address howFEMA could or could not
obligate funds for these leases. Like the SEC, FEMA was given a "no-year"

                                                   80
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



appropriation by Congress for its activities, and the language in the appropriation
similarly did not address how FEMA could or could not obligate funds for leases. In its
decision, GAO found that, although FEMA could enter into multi-year leases:

                  Upon entering into the multi-year lease, however, FEMA
                  must obligate out of its no-year funds the rental changes for
                  the full term of the lease. In the absence of specific
                  statutory authority (like that available to [GSA]) to enter
                  into multi-year leases and liquidate the obligation out of
                  annual appropriations, an agency must obligate the full
                  amount of its contractual obligations from currently
                  available funds. The obligation arises at the time the debt
                  is incurred - in this case, at the time the lease is signed -
                  and must therefore be recorded promptly in accordance
                  with 31 U.S.C. Sec. 200.

Decision ofthe Comptroller General, B-195260, July 11, 1979, attached as Exhibit 150
(emphasis added).

          The OIG investigation found that OGC attorneys considered this question and
determined that it need not obligate funds for the full term of the lease and, thus, there
was no violation. OGC Atty 1 wrote in a November 2010 document that he sent to Sheehan
and OAS
    Supv. 5 concerning Constitution Center:



                  Despite the risk of this space being excess, there was no
                  Anti-Deficiency Act problem with acquiring it. The SEC's
                  independent leasing authority and its annual appropriation
                  authorized entry into multiple year leases in a fiscal year in
                  advance of the fiscal year in which the lease payments
                  would be coming due. OAS calculated using the
                  OMB/GSA model that Constitution Center is an operating
                  lease under which funds are only required to be available
                  on an annual basis.
                                                                                          OAS Supv. 5
       Attachment to November 9,2010 E-mail from OGC Atty 1                          to                  and
                                         94
Sharon Sheehan, attached as Exhibit 163.



94  According to OMB guidance, if a contract for an operating lease "includes a cancellation clause, [the
agency should obligate in the first year] an amount sufficient to cover the lease payments for the first year
plus an amount sufficient to cover the costs associated with cancellation ofthe contract." OMB Circular A­
ll, Appendix B ("Appendix B"), attached as Exhibit 139, at 2. The only funds that the SEC obligated in
FY 2010 in connection with the Letter Contract were a September 22, 2010, obligation of$180,000 for the
SEC's operating expenses associated with swing space at Constitution Center.            September 22,2010
Miscellaneous Obligating Document, attached as Exhibit 151; March 29,2011 OAS    Supv. 5 Testimony Tr. at 243.
The SEC did not obligate either the estimated total payments under the full term of the lease or an amount

                                                     81
    This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
    disclosure to third parties. No redaction has been performed by the Office oflnspector General.
    Recipients of this report should not disseminate or copy it without the Inspector General's approval.



        VIII. In October 2010, Merely Three Months After Signing the Constitution
              Center Letter Contract, the SEC Realized that it Could Not Use the
              Space

            On October 6,2010, approximately one month before the mid-term elections,
    Sheehan sent an e-mail to OAS
                              4
                                  Supv.
                                        , OAS
                                          Supv. 5 and OAS Supv. 2 with the subject "Private" and
    stated:

                      Diego [Ruiz] and I were with the Chairman for sometime
                      [sic] this morning. Kayla [Gillan], Didem [Nisanci], and
                      Eric [Spitler] were there. It sounds as though the budget is
                      going to flat line for the next couple of years. The
                      Chairman directed me to try and find substitute agencies to
                      take approximately 600,000 sf of our 900,000 sf at
                      Constitution. ... I hope you folks are having a better time
                      than what I'm experiencing back here.
                                                                     OAS Supv. 4
    October 6,2010 E-mail from Sharon Sheehan to                  , attached as Exhibit 153.
    Sheehan testified that she was surprised to hear that the budget was going to "flat line,"
    and that the Chairman had changed her mind about leasing all of the 900,000 square feet
    at Constitution Center. February 8, 2011 Sheehan Testimony Tr. at 182-83. Sheehan
    testified that she explained in this meeting:

                      It's a lot of space. It's a lot of money, and that the landlord
                      was in competitions, and he withdrew from those
                      competitions based on our taking the space, and that we
                      need to understand that, and that we need to do everything
                      we can to work with him to resolve the matter for both
                      parties; that it's not a matter of me telling him we no longer
                      need the space and that's it.


    sufficient to cover the lease payments for the first year plus an amount sufficient to cover the costs
    associated with cancellation of the contract. Id.
                                   OMB Empl. 1
             On January 3, 2011,                        a Budget Examiner at OMB, contacted the SEC with a
   question regarding a lease cancellation clause and OMB Circular A-II. See January 5, 2011 E-mail from
 OAS Supv. 5     to OGC Atty 1          attached as Exhibit 152; OMB Empl. 1 Interview Memorandum. OAS Supv. 5
   forwarded the question to 1 OGC Atty  for guidance, acknowledging that she was unfamiliar with Appendix B
   and stating, "Sure hope we comply!" !d. OGC Atty 1 responded, AC
   AC

   AC                                            !d.   OGC Atty   testified that, AC
                                                       1
   AC


   AC                 OGC Atty 1
                               Testimony Tr. at 44. Similarly, when OGC
                                                                    2
                                                                        Atty reviewed Appendix B during his

     testimony, he stated, AC
OGC Atty 2
            Testimony Tr. at 66.


                                                            82
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.


            OAS Supv.
ld. at 179. 5           responded to Sheehan's e-mail:

                    I hope the chairman's office understands that it we offload
                    any space at all, it will be forever. We will not have any
                    expansion in our headquarters buildings for 10+ years, and
                    perhaps beyond. Any future growth will be in piecemeal
                    fashion as the market may offer. I believe this to be a
                    major, ill-advised mistake of catastrophic proportions for
                    the SEC.

Exhibit 153. Sheehan then responded, "You're preaching to the choir." ld.

        Sheehan testified that she believed that "they were moving too quickly to offload
the space." February 8, 2011 Sheehan Testimony Tr. at 185. OAS   Supv. 5 testified, "[W]e
fought and fought and fought, and Sharon [Sheehan] fought to get - to be proactive, to
get strategic, to get our growth plans .... And now, after this big, huge deal, and really
executed to save the SEC and to all being in little buildings all over town, now we are
going to offload it." January 31, 2011 OAS
                                         Supv. 5 Testimony Tr. at 184-85.

         Jaroch told the OIG that, in early October 2010, the SEC informed him that it
could not use approximately 600,000 of the 900,000 square feet of space at Constitution
Center and asked for DNA's assistance in finding other tenants for that space. Jaroch
Interview Memorandum at 1. On October 14, 2010, OAS        Supv. 5 e-mailed OGC Atty 1 and OGC Atty 2
regarding the prospect of assigning some of the SEC's space at Constitution Center to
other federal agencies. October 14, 2010 E-mail from OAS Supv. 5            to OGC Atty 1
and OGC Atty 2     attached as Exhibit 154. OAS
                                            5
                                                Supv.
                                                      stated:
           AC, DP




                                                   83
  This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General.
  Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.

                 AC, DP




  !d. (emphasis added).

         In November 2010, DNA began negotiations with the FHFA and the Office of the
  Comptroller ofthe Currency ("OCC") to lease the approximately 500,000 square feet at
  Constitution Center that was not the subject ofthe Letter Contract95 and some of the
  SEC's 900,000 square feet. November 11, 2010 E-mail from Timothy Jaroch to Sharon
  Sheehan, attached as Exhibit 155.
        OAS Supv. 5
                   wrote in an e-mail concerning the negotiations with OCC, "Tim may be
   setting the stage for our absorbing the cost of the swing and broker fees associated with
   his OCC deal. ... [I]fthis all plays out, it looks like we can be free from the obligation
   but not from potential expense." !d. On November 19, 2010, Jaroch sent an e-mail to
OAS Supv. 5
            and others at the SEC, asking:

                      Is the SEC prepared to reimburse DNA for the brokers
                      commissions involved in leasing the difference between
                      900,000 rsf and the rentable square footage ultimately
                      occupied by the SEC ... the cost of building out the
                      tenant amenity spaces that were to be part ofthe SEC's
                      tenant space and paid for by the agency ... and the costs
                      associated with the Swing Space if the SEC doesn't
                      ultimately occupy the Northwest quadrant?

  November 19,2010 E-mail from Timothy Jaroch to OAS Supv. 5                     attached as Exhibit
  156.

          In January of2011, OCC and FHFA leased approximately 1,050,000 square feet
  at Constitution Center. Jaroch Interview Tr. at 33-34; Jaroch Interview Memorandum at
  1; February 8, 2011 Sheehan TestimonyTr. at 185-86; January 5, 2011 E-mail from
  Timothy Jaroch to OAS Supv. 5     attached as Exhibit 157. On January 18, 2001, DNA's
  counsel sent a demand letter to the SEC asserting that the SEC's actions had caused DNA
  to incur $93,979,493 in costs at Constitution Center. 96 January 18, 2011 Letter from


  95 According to Jaroch, the SEC forfeited its right of first refusal for the 500,000 square feet when it
  notified him that it could not use 600,000 square feet of the space it had contracted. Jaroch Interview
  Memorandum at 2.
  96 According to DNA's counsel, DNA incurred: (1) $19,000,000 in brokerage commission payments for
  leasing space to FHF A and acc; (2) an additional $20,160,000 financial obligation, in the form of a tenant
  improvement allowance, incurred in order to achieve the leasing deal with FHFA and acc; (3) up to
  $43,800,000 in additional borrowing costs in order to pay the brokerage commission and greater tenant
  improvement allowance; (4) $16,408,480 for constructing and delivering Constitution Center amenity
  spaces, which DNA expects the SEC to pay for jointly with FHF A and acc; and (5) $5,550,000 for
  building, equipping, and furnishing swing space that the SEC never occupied. See Exhibit 158. The total

                                                      84
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office ofInspector General.
 Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.


                                     OGC Atty 1                                        OGC Atty 1
  Robert C. MacKichan, Jr., to                      , attached as Exhibit 158.      described
  DNA's claim as a "matter that's under potential dispute between us and the landlord."
OGC Atty 1
           Testimony Tr. at 63. OGC Atty 1 testified that the SEC disputes that DNA has suffered
  any damages as a result ofthe SEC's relinquishment of space at Constitution Center. Id.
  at 63-64.
                                                                     OAS
        On February 15, 2011, Jaroch hand-delivered to Supv. 5 a definitized lease for the
 approximately 350,000 square feet that the SEC still has pursuant to the Letter Contract.
 Jaroch Interview Memorandum at 1. As of May 6, 2011, according to J aroch, the SEC
 had not signed that lease. Id. In March 2011, the SEC told Jaroch that it was hoping to
 sublease some or all of its space at Constitution Center. Id. As ofthe date of this report,
 the OIG is not aware ofthe SEC locating a candidate for the remaining space. 97 Id.

     IX.      A "Rigid" and "Closed" Atmosphere within OAS Where Senior
              Management is Surrounded by "Yes Men" May Have Contributed to the
              Irresponsible Decisions Made with Respect to the Constitution Center
              Lease

         In the course ofthis OIG investigation, several witnesses who sought to remain
 anonymous came forward to provide information concerning the environment and the
 decision-making processes within ~AS. One witness, a project manager in OAS with 20
 years of private-sector experience in construction and almost 20 years of government
 experience in facilities management, described the environment in OAS as "very tense."
 Unidentified Program Manager Testimony Tr. at 6-7. Another OAS employee, with 20
 years of experience at architectural firms and 20 years of government experience as a
 space management specialist and architectural technician, described the current
 management environment as "very hostile in the construction branch and ... the next
 steps up to OAS Supv. 4   and Sharon Sheehan." Unidentified Employee 1 Testimony Tr.
 at 6-7. Still another OAS employee, with 20 years of private-sector experience and an
 additional 17 years of government experience in construction and facilities, described the
 current management environment as:

                   [A] lot more rigid than [it was] originally when I came
                   here.... Once [a] decision is made, there's a reluctance on
                   anyone's part to bring up concerns or objectives, because
                   we were told our job is to carry out management's
                   decisions. Decisions have already been made by
                   management; and they're basically not open for

 of these costs is $104,918,480. Assuming that the SEC is only expected to pay for one third of the amenity
 space costs, the total damages asserted by DNA is $93,979,493. Jd.
 97 OGC Atty 1 testified in March 2011 that the SEC recently had met with the Transportation Security
 Administration and GSA to discuss the possibility of these agencies taking the SEC's remaining space at
 Constitution Center.OGC Atty 1 Testimony Tr. at 62-63; OGC
                                                         2
                                                             Atty
                                                                  Testimony Tr. at 94. Jaroch stated to the OIG
 on May 6,2011, that the SEC had not yet been successful in leasing its remaining space at Constitution
 Center to any other agencies. Jaroch Interview Memorandum at 1.

                                                       85
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



                 rediscussion. ... It seems to be a lot of people are afraid
                 ... even at the manager's level to express concerns or
                 question how things are going. . .. [A ]lmost everyone
                 shakes their head yes. And if you raise your hand up for a
                 question, 1 think even at the management level it's just not
                 done .... [G]enerally what happens if you question [a]
                 management decision more than once, you're spoken to.
                 And, again, it's reinforced that your job is not to question
                 decisions that are made ...

Unidentified Employee 2 Testimony Tr. at 6-7, 9. This witness testified that, "[T]he
culture was you don't say no. You don't say no to [Sheehan] ... if she thinks [it is] a
good idea." Id. at 29.

          OAS employees testified that this refusal on management's part to take advice
was in spite ofthe lack of experience in government leasing among the OAS managers
above OAS
        5
           Supv.
                 An OAS project manager described OAS upper management in testimony
as "inexperienced." Unidentified Program Manager Testimony Tr. at 7. This witness
testified that "it's fairly obvious that" Sheehan "has very little experience" in facilities
and construction. Id. at 8. Although Sheehan had some experience with capital leases
while working at the Department of Defense, she had no experience with operating
leases. February 8,2011 Sheehan Testimony Tr. at 12. Another OAS witness testified,
"I don't seeOAS Supv. 4       having any real experience in con              or space
                                                                 OAS Supv. 4
management." Unidentified Employee 1 Testimony Tr. at 8.                     acknowledged in
testimony that he had no government leasing experience prior to joining the SEC.
January 28,2011 OAS Supv. 4 Testimony Tr. at 8. 98 Ruiz had no government leasing
experience prior to joining the SEC. 99 Ruiz Testimony Tr. at 10. Sheehan's experience
before joining the SEC was in various procurement and contracting positions in the
Department of Defense. February 8, 2011 Sheehan Testimony Tr. at 9-13.

       The OAS project manager testified that some of upper management's leasing and
construction decisions were:

                 ... questionable. But what we were most upset about was
                 the fact that we were not brought into the loop at all. It's a
                 very closed group, the upper management. ... [T]hey go
                 behind closed doors. They make decisions. They come
                 out, tell us what those decisions are that they make, and on
                           OAS Supv.
98  Prior to joining the SEC,4       worked in the Army as a unit commander an            d for two small
businesses in Virginia managing government contract projects. January 28,2011 OAS
                                                                                4
                                                                                    Supv.
                                                                                          Testimony Tr. at
6-8.
99   Ruiz's prior experience included general and operational management positions at Univision, a policy
position at the Federal Communications Commission, and a legislative assistant position for then-United
States Congressman Christopher Cox, who later, as Chairman of the SEC, appointed Ruiz to be the SEC's
Executive Director. Ruiz Testimony Tr. at 7-11.

                                                    86
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



                 occasions we'll raise issues. 'Are you sure you want to do
                 it that way? I mean have you thought about this?' And
                 we're very to the point. ... [T]hey just say the decision's
                 been made. That's it. This is what we're going to do.
                 They do not want to hear any differing opinions.

Unidentified Program Manager Testimony Tr. at 7-8, 17. Another OAS employee
testified that, as far as:

                 [A] lot of securing of space, we're actually left out of the
                 loop, and I feel it's deliberate .... I think with the
                 experience that I have and others in the section have, they
                 don't want to hear ... questioning.... [The] Miami
                 [Regional Office] is an example where, when I did the
                 analysis based on allowable square footage and that type of
                 thing, I came up with 75,000, and that was generous. But
                 leasing and OAS Supv. 4    had already decided to put it out at
                 85,000 square feet. And I don't have a clue where they got
                 those numbers from, but ... 75,000 was very generous ....
                 [A ]nd the more we were left out, when we do question it,
                 the retaliation is there.

Unidentified Employee 1 Testimony Tr. at 7-8.

        The OAS project manager testified that questioning upper management decisions
by the staff is "not allowed." Id. at 9. The witness testified:

                 I believe that the branch chiefs and above are afraid of
                 Sharon [Sheehan] .... We raise issues with them. They
                 will not allow us to go directly to [Sheehan]. We have to
                 raise the issues with them. They either accept them or
                 reject them, but most of the time they do not make it to
                 [Sheehan]. There is a fear there.

Id. at 10. This project manager testified that he believes that Sheehan surrounds herself
with "yes-men," and that senior management does not rely on experienced staff, which
may be a reason why questionable decisions are made at ~AS. !d. at 10-11. Another
OAS employee testified that Sheehan "does not want to hear what [experienced staffJ
will tell her." Unidentified Employee 1 Testimony Tr. at 9. This employee testified that
he believed that he was reassigned from his position because he "spoke out and didn't
agree with certain [OAS management] decisions." !d. at 11.

        The project manager testified that Sheehan would focus on superficial issues such
as "a stain on the carpet," but that she "didn't know that she had to be working on
policies and procedures, which are sorely lacking throughout the whole organization; and

                                                   87
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General.
  Recipients of this report should not disseminate or copy it without the Inspector General's approval.



  she doesn't know enough that those things are not in place and causing a problem."
  Unidentified Program Manager Testimony Tr. at 11. Another OAS employee testified
  that there are not sufficient policies and procedures in place in OAS for staff members to
  "know how to appropriately go about making decisions." Unidentified Employee 1
  Testimony Tr. at 13-14.

          The project manager testified that, upon learning of the SEC's decision to lease
  900,000 square feet of space at Constitution Center, he and other staff members "just
  couldn't understand how they could justify that amount of space ... " Unidentified
  Program Manager Testimony Tr. at 11-12. Another OAS employee testified that he was
  "flabbergasted" by the decision to lease 900,000 square feet of space at Constitution
  Center. Unidentified Employee 2 Testimony Tr. at 11-12. He testified that OAS
  management had "grandiose plans." Id. at 29. Still another OAS employee testified that
  when OAS management was "asking the Constitution Center to build a swing space, they
  didn't have a clue who was going to go there. Nobody wanted to go there .... [I]t's all a
  reaction to whatever's happening that particular day." Unidentified Employee 1
  Testimony Tr. at 26-27.

         The project manager also testified that there have been situations in which OAS
  has decided to use contractors to do work that employees could do, and that the agency
  could have saved money if they used employees more than contractors. Unidentified
  Program Manager Testimony Tr. at 19-20. Another witness testified that OAS hires
  contractors to perform functions that employees could perform, and observed,
  "Contractors don't ask questions, and it also builds your empire." Unidentified
  Employee 1 Testimony Tr. at 18.
              OAS Empl. 2
                   whose experience prior to joining the SEC included eight years at PII
  working on lease procurements, testified:

                            In my opinion, [~AS] as a whole could perhaps use a little
                            bit more assistance with in terms of evaluating and looking
                            long-term at ... space planning ... And that's something
                            that I think is ... not perhaps a forte of theirs or as good as
                            it could be. In my own experiences at GSA and other
                            agencies where that really is ... part of their mission and
                            they have a much stronger grasp of how to look at that and
                            project and so on. . ..

                            I initially questioned ... who's overseeing space planning
                            here. ... I mean it was never a hundred percent clear who
                            was actually saying, 'Okay. That's the number it's going to
                            be, and that's - and this is why.'
OAS Empl. 2                                      OAS Empl. 2
            Testimony Tr. at 17, 24.            also testified that he has observed a
  "disparity in the consistency of some of the documentation" kept by the SEC concerning

                                                               88
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



its leases, in contrast to his experience at GSA. Id. at 111. Other witnesses in OAS also
testified that they did not think that there was master planning or long-range planning at
OAS, but rather a reactionary approach to decision-making. Unidentified Employee 1
Testimony Tr. at 12; Unidentified Employee 2 Testimony Tr. at 11.


                                           CONCLUSION

         The OIG investigation found that based upon estimates of increased funding
primarily to meet the requirements ofthe Dodd-Frank Wall Street Reform and Consumer
Protection Act ("Dodd-Frank"), between June and July of2010, the SEC Office of
Administrative Services ("OAS") conducted a deeply flawed and unsound analysis to
justify the need for the SEC to lease 900,000 square feet of space at the Constitution
Center facility. We found that OAS grossly overestimated the amount of space needed at
SEC Headquarters for the SEC's projected expansion and prepared a faulty Justification
and Approval to support eliminating competition. In addition, OAS backdated the
Justification and Approval, thereby creating the false impression when it was released to
the public that it had been prepared only a few days after they entered into the lease
contract.

        The OIG investigation also found that there is significant uncertainty among the
SEC staff regarding important requirements in connection with Government Leasing and
serious questions as to whether the SEC complied with several requirements in
connection with its leasing of Constitution Center. In addition, there is a possibility that
the SEC violated the Antideficiency Act in connection with its lease of Constitution
Center.

       The OIG investigation found further that a "closed" and "rigid" atmosphere
within OAS may have contributed to the irresponsible decisions made with respect to the
Constitution Center Lease. In the course ofthis OIG investigation, several witnesses who
sought to remain anonymous came forward to provide information concerning the
environment and the decision-making processes within ~AS. These witnesses described
an environment in which inexperienced senior management make unwise decisions
without any input from employees with significant knowledge and experience.

        The OIG's findings during this investigation raise significant concerns about the
SEC's Office of Administrative Services and Office of Executive Director, including
their recommendations and representations to the Chairman, with respect to the
Constitution Center lease.

       In addition to the numerous complaints received by the OIG with regard to the
Constitution Center lease, the OIG has received a multitude of allegations from within
and outside the Commission concerning waste and mismanagement in OAS resulting
from a myriad of recent decisions made or contemplated by OAS and the Office of
Executive Director.

                                                   89
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



        The orG understands that subsequent to the events described in this report of
investigation, there has been new leadership installed in the Office of Executive
Director. lOO Accordingly, this report is being provided to Chairman Mary Schapiro; the
Deputy Chief of Staff, Office of the Chairman; Commissioner Kathleen Casey;
Commissioner Elisse Walter; Commissioner Luis Aguilar; Commissioner Troy Paredes;
the General Counsel; the Chief Operating Officer/Executive Director; the Chief Financial
Officer; and the Associate Executive Director, Office of Human Resources, with the
recommendation that the Chief Operating Officer/Executive Director carefully review the
report's findings and conduct a thorough and comprehensive review and assessment of all
matters currently under the purview of OAS including, but not limited to:

        (1) The adequacy of written policies and procedures currently in place for all
            aspects ofthe SEC's leasing program, including, but not limited to, putting in
            place written procedures for leasing approvals;
        (2) The methods and processes utilized to accurately project spacing needs based
            on concrete and supportable data;
        (3) The determination to employ a standard of 400 square feet per person for
            planning Agency space needs;
        (4) The necessity of retaining architects, furniture brokers, or other consultants to
            assist in the work generally performed by OAS officials; and
        (5) All pending decisions in which OAS is committing the SEC to expend funds,
            including decisions relating to regional office lease renewals.

            We further recommend that the Chief Operating Officer/Executive Director, upon
conclusion of such review and assessment, determine the appropriate disciplinary and/or
performance-based action to be taken for matters that are discussed in this report of
investigation, as well as any other issues identified during the review and assessment,
including, at a minimum, consideration of disciplinary action against Sharon Sheehan and
OAS Supv. 4
                , up to and including dismissal; and consideration of disciplinary action
against OAS Empl. 1         for their actions in connection with the gross overestimation of the
amount of space needed at SEC Headquarters for the SEC's projected expansion, failures
to provide complete and accurate information to the Chairman's office, and the
preparation of a faulty and back-dated Justification and Approval to support eliminating
competition.




100 Diego Ruiz has decided to leave the Agency and his duties as Executive Director recently have been
transferred to the Chief Operating Officer.

                                                   90
      This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
      disclosure to third parties. No redaction has been performed by the Office ofInspector General.
      Recipients of this report should not disseminate or copy it without the Inspector General's approval.



              Finally, we recommend that the Office of Financial Management, in consultation
      with the Office of General Counsel, request a formal opinion from the Comptroller
      General as to whether the Commission violated the Antideficiency Act by failing to
      obligate appropriate funds for the Constitution Center lease.

PII




                                                                    Date:       S/l£/II
                                                                   Date:       ~/;~ 120/(
                                                                                 7          I




      Approved:
                       ~~A~                                         Date:~#,v~
                                                                          7




                                                         91
